No.
===================================
In The

Supreme Court of the United States
===================================
LINDSAY R. COOPER, ET AL., Petitioners

v.

TOKYO ELECTRIC POWER COMPANY
HOLDINGS, INC., ET AL., Respondents.
______________

ON PETITION FOR A WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEALS FOR
THE NINTH CIRCUIT
_________________
PETITION FOR A WRIT OF CERTIORARI
___________
John R. Edwards
Charles Bonner
Catharine E. Edwards
A. Cabral Bonner
Edwards Kirby, LLP
Law Offices of Bonner
3201 Glenwood Avenue,
& Bonner
Suite 100
475 Gate 5 Rd # 211,
Raleigh, NC 27612
Sausalito, CA 94965
919-335-7005
Howard Moore Jr.
Paul C. Garner
Counsel of Record
c/o Bonner & Bonner
Moore & Moore
475 Gate 5 Rd # 211,
1569 Solano Ave #204
Sausalito, CA 94965
Berkeley, Ca 94707
510 542 7172
moorlaw@aol.com

Counsel for Petitioners

i
QUESTIONS PRESENTED FOR REVIEW:

Whether United States Military personnel, while
deployed on U.S. Naval vessels undertaking a U.S.
diplomatic humanitarian assistance mission, can
rightfully rely on jurisdiction in a United States
court when incurring harms by a private, foreign
corporation for conduct occurring on foreign soil;
Whether a Statement of Interest from the United
States should be afforded dispositive weight when
considering dismissal on international comity
grounds where Petitioners are U.S. Military
Personnel harmed by a private Japanese corporation
while onboard U.S. Naval vessels deployed on a U.S.
initiated diplomatic and humanitarian relief mission
to Japan;
Whether the lower courts had erroneously ascribed
dispositive weight to their choice-of-law findings
when
analyzing
and
ultimately
dismissing
Petitioners’ claims on the basis of international
comity.

ii
PARTIES TO THE PROCEEDING

Petitioner is Lindsay R. Cooper, et al., who, on
behalf of fellow United States Military Service
members harmed while undertaking a United States
diplomatic humanitarian assistance mission to
Fukushima, Japan, was the plaintiff-appellee in the
Ninth Circuit Court of Appeals.
Respondents are Tokyo Electric Power Co.
Holdings (“TEPCO”) and General Electric Company.
_______________________________

iii
STATEMENT OF RELATED PROCEEDINGS

United States District Court for the Southern
District of California
Civil Action No: 12cv3032-JLS
Lindsay R. Cooper; et al., v. Tokyo Electric Power Inc.
Date of Order: June 11, 2015
United States Court of Appeals for the Ninth Circuit
No. 15-56424
Lindsay R. Cooper; et al., v. Tokyo Electric Power Inc.
Date of Judgment: August 17, 2017
United States District Court for the Southern
District of California
Civil Action No: 12cv3032-JLS
Lindsay R. Cooper; et al., v. Tokyo Electric Power
Company, Inc.; et al.
Date of Order: March 4, 2019
United States Court of Appeals for the Ninth Circuit
No.19-55295
Lindsay R. Cooper; et al., v. Tokyo Electric Power
Company Holdings, Inc.; et al.
Date of Judgment: May 22, 2020

iv
TABLE OF CONTENTS

QUESTIONS PRESENTED ………………………..…i
PARTIES TO THE PROCEEDING…………………..ii
STATEMENT OF RELATED PROCEEDINGS……iii
TABLE OF APPENDICES……………………...........vi
TABLE OF AUTHORITIES…………………… …….vii
OPINIONS BELOW ...................................................1
JURISDICTION .........................................................1
INTRODUCTION…………………………………….….1
STATEMENT .............................................................4
REASONS FOR GRANTING THE PETITION ........8
A. As a Case of First Impression, the First
Question Presented is one of Exceptional
Importance as to Whether U.S. Military
Servicemembers Undertaking a Diplomatic
Mission Must be Afforded The Right to
Prosecute their Claims in a United States
Tribunal…………………………………………..8
B. Given the Quasi Executive Function of
Deferring Jurisdiction to a Foreign Tribunal
in Order to Maintain Amicable Diplomatic
Relations between Nations, it is Imperative
that this Court Provide Consistent and
Unified Standards throughout the Circuits
for Making a Comity Determination…….….14
C. The Weight Afforded an Executive Branches’
Statement of Interest is an Exceptionally
Important Question Given that the Essence of

v
Invoking Comity is Founded upon Foreign
Policy and Diplomatic Relations Which are
Constitutionally Mandated Executive
Functions………………………………………18
D. The Court of Appeals Decision was Incorrect
By Relegating Determinative Weight to the
District Court’s Choice-of-Law Analysis in
Arriving at a Comity Determination………25
CONCLUSION........................................................30

vi
TABLE OF APPENDICES

Appendix A
Court of Appeals Opinion, United States
Court of Appeals, Ninth Circuit (May. 22, 2020)…1a
Appendix B
District Court Order, Southern District of California
(March. 4, 2019) )……………………………….……41a
Appendix C
Order denying rehearing, United States Court of
Appeals, Ninth Circuit (July 1, 2020)…………..…81a
Appendix D
Court of Appeals Opinion, United States Court of
Appeals, Ninth Circuit (June 22, 2017) .………….83a
Appendix E
District Court Amended Order, Southern District of
California (June 11, 2015) ……………………..….135a
Appendix F
Brief for the United States in Support of Affirmance
of the Order Below (December 19, 2016) …..……208a

vii
TABLE OF AUTHORITIES
Cases

Abad v. Bayer Corp., 563 F.3d 663 (7th Cir. 2009) . 23
Abu Ali v. Ashcroft, 350 F.Supp.2d 28 (D.D.C. 2004)
................................................................................ 16
Allstate Ins. Co. v. Hague, 449 U.S. 302 (1981) ...... 27
Animal Sci. Prods. v. Hebei Welcome Pharm. Co. (In
re Vitamin C Antitrust Litig.) 837 F.3d 175 (2d Cir.
2016) ....................................................................... 17
Askir v. Boutros-Ghali , 933 F.Supp. 368 (S.D.N.Y.
1996) ................................................................. 11, 25
Coleman v. Tennessee, 97 US 509, 515(1878) ......... 12
Colorado River Water Conser. Dist. v. United States,
424 U.S. 800 (1976) ......................................... 18, 28
Crosby v. Nat'l Foreign Trade Council, 530 U.S. 363
(2000) ..................................................................... 16
Dow v. Johnson, 100 U.S. 158 (1879) ....................... 11
Gross v. German Found. Indus. Initiative, 456 F.3d
363 (3d Cir. 2006) .................................................. 23
Hartford Fire Ins. Co. v. California, 509 U.S. 764
(1993); .............................................................. 15, 26
In re GM LLC Ignition Switch Litig. (S.D.N.Y. Aug.
3, 2017, No. 14-MD-2543 (JMF)) 2017
U.S.Dist.LEXIS ..................................................... 27
In re Nazi Era Cases Against German Defendants
Litigation, 129 F. Supp. 2d 370, (D. N.J. 2001) ... 22
JP Morgan Chase Bank v. Altos Hornos de Mexico,
S.A. de C.V., 412 F.3d 418 (2d Cir. 2005) . 15, 18, 28
Law. J.Y.C.C. v. Doe Run Res., Corp. 403 F. Supp. 3d
737 (E.D.Mo. 2019) ................................................ 17
Motherwell v. United States 107 F. 437 (3d Cir. 1901)
................................................................................ 12

viii

Mujica v. AirScan Inc. 771 F.3d 580 (9th Cir. 2014)
.................................................................... 15, 17, 21
Philadelphia Gear Corp. v. Philadelphia Gear De
Mexico, S.A., 44 F.3d 187 (3d Cir. 1994) .............. 17
Pittston Co. v. Allianz Ins. Co. 795 F.Supp. 678
(D.N.J. 1992) .......................................................... 27
Pravin Banker Assocs., Ltd. v. Banco Popular Del
Peru, 109 F.3d 850 (2d Cir. 1997) ............. 15, 16, 26
Republic of Austria v. Altmann, 541 U.S. 677 (2004)
.......................................................................... 21, 24
Sarei v. Rio Tinto Plc 221 F.Supp.2d 1116 (C.D.Cal.
2002) ....................................................................... 22
Saudi Arabia v. Nelson, 507 U.S. 349 (1993) .......... 11
Schooner Exchange v. McFaddon, 7 Cranch 116
(1812) ............................................................... 12, 13
See In re Muir, 254 U.S. 522 (1921) ......................... 20
Suhail Najim Abdullah Al Shimari v. CACI Int'l, Inc.
679 F.3d 205 (4th Cir. 2012) ................................. 12
Torres v. Southern Peru Copper Corp. 965 F.Supp.
899 (S.D.Tex. 1996) ............................................... 17
Turner Entertainment Co. v. Degeto Film GmbH 25
F.3d 1512 (11th Cir. 1994) .................................... 16
Ungaro-Benages v. Dresdner Bank AG, 379 F.3d
1227 (11th Cir. 2004)............................................. 22
United States v. All Assets Held in Account Number
XXXXXXXX, 83 F. Supp. 3d. 360 (D.D.C. 2015) .. 20
United States v. Hamidullin 888 F.3d 62 (4th Cir.
2018) ....................................................................... 12
Whiteman v. Dorotheum GmbH & Co KG 431 F.3d
57 (2d Cir. 2005) .................................................... 22
Statutes
18 USCS § 7 ............................................................... 13
22 U.S.C. § 254d ........................................................ 10

ix
28 U.S.C. § 1330 .................................................. 10, 15
28 U.S.C. § 1602-11 ............................................. 10, 15
Other Authorities
1976 U.S.C.C.A.N. 6604, 6615.................................. 11
H.R. Rep. No. 94-1487 .............................................. 11

1
PETITION FOR A WRIT OF CERTIORARI

Lindsay R. Cooper, on behalf of fellow United
States Military Service members harmed while
undertaking
a
United
States
diplomatic
humanitarian assistance mission to Fukushima,
Japan respectfully petitions for a writ of certiorari to
review the judgment of the United States Court of
Appeals for the Ninth Circuit pertaining to this case.
OPINIONS BELOW

The opinion of the Court of Appeals (App. A) is
reported at 960 F.3d 549. The order of the District
court (App. B ) is reported at 2019 U.S. Dist. LEXIS
34154 (S.D. Cal., Mar. 4, 2019).
JURISDICTION

The judgment of the court of appeals was
entered on May 22, 2020. A petition for rehearing
was denied on July 1, 2020 (App. C). The jurisdiction
of this Court is invoked under 28 U.S.C. 1254(1).
INTRODUCTION

This case presents this Court with an
opportunity to correct a long ignored and accepted
incursion of the judicial branch into the domain of
executive foreign policymaking through the legal
thoroughfare of adjudicative international comity.
While operating without a cohesive and consistent
standard for deciding when it is proper for a court to
abstain from adjudicating claims that it has rightful
jurisdiction over, Federal courts have been left to
their own whims and devices when making what is
effectively an executive foreign policy decision under

2
the camouflage of international comity. Without
guidance from this Court, each Federal Circuit has
crafted their own standards for deciding whether a
court should invoke voluntary forbearance by
abstaining over claims, not on account of deficient
jurisdictional grounds, but on what is effectively
diplomatic grounds in order to “promote cooperation
and reciprocity with foreign lands.” This case will
provide this Court with an opportunity to provide
Federal Circuits with guidance as to how they can
properly remain within the Judiciary’s boundaries
when asked to don the diplomatic cloak of deciding
when it is proper to forego jurisdiction based upon
such conspicuously executive considerations as “high
international politics,” foreign policy, diplomacy, and
an “amicable working relationships between nations.”
In articulating such a coherent and consistent
standard for when it is proper for a court to abstain
jurisdiction on comity grounds, this Court will also
have the opportunity to clarify whether comity is
properly invoked when a party to the litigation is in
fact a representative of the United States
government whose claims ripened upon undertaking
governmental initiatives, i.e., should comity cease to
be a consideration when the party requesting a
United States forum is a representative of the
United States government whose claims stem from
carrying out United States diplomatic and foreign
policies.
Similarly, given the fact that comity concerns
itself with the law of sovereign nations and the
diplomatic and foreign policy relations between them,

3
such a decision of whether to invoke comity is
effectively an Executive function that the Judiciary
is merely carrying forth and administering. As such,
when the United States government invokes an
opinion as to whether retaining jurisdiction will
impact its diplomatic relations or foreign policy
objectives with another sovereign nation, that
opinion must be afforded significant weight in a
court’s decision of whether to abstain jurisdiction
and dismiss on comity grounds. Such a proclamation
that the Executive branch must be afforded
significant, if not determinative weight in a comity
decision does not currently exist which again,
judiciously warrants this Court’s intervention to
provide clear and consistent standards whose
necessity is more than paramount given that comity
concerns sit squarely within the border land between
the Executive and Judicial branches.
In short, this Petition offers an opportunity for
this Court to provide necessary guidance to the
Circuit and District courts as to what factors and
their respective weights when contemplating comity
abstention. Such proclamation would wholly rectify
and redeem the most inequitable result that
Petitioners, as United States Military personnel
have faced by being stripped of their right to have
their more than viable claims heard in a United
States courtroom in order to redress the harms they
incurred while carrying out the diplomatic and
foreign policy initiatives of the United States
government.

4
STATEMENT

Petitioners’ claims stem from injuries they
incurred on account of Tokyo Electric Power Co.
Holdings, Inc’s (“TEPCO”) well documented and
established
negligence
while
operating
the
Fukushima Daiichi Nuclear Power Plant (FNPP) in
Fukushima Japan that directly contributed to the
meltdown of the FNPP’s nuclear reactors and the
subsequent emission of an enormously excessive
amount of radioactivity. As United States Military
servicemembers engaged in a United States
humanitarian relief mission ordered at the behest of
the U.S. Commander in Chief in response to a
request from United States ally, Japan, Petitioners
were stationed onboard U.S. Naval vessels as part of
Operation Tomodashi when they were exposed to
high levels of radioactivity resulting from TEPCO’s
negligent operation of the FNPP power plant and the
subsequent meltdown of its reactors.
Upon Petitioners’ return to the Navy’s home port
of San Diego, California, several Petitioners’
developed physical symptoms commensurate with
radioactive exposure that they attributed to
exposure incurred during Operation Tomodashi. On
December 21, 2012, a first wave of Petitioner
Servicemembers filed suit in the Southern District
Court of California. Thereafter, and with several
amended complaints, the District Court permitted a
now expanded Petitioner pool to proceed with their
claims of Negligence and Strict Liability for Ultrahazardous Activities by rejecting TEPCO’s defense of
supervening cause, Political Questions doctrine,

5
Forum Non Conveniens, and International comity.
(App. E.). After the District court rejected TEPCO’s
Motion for Reconsideration, TEPCO appealed the
court’s denial of its motion to dismiss to the Ninth
Circuit Court of Appeals.
The Ninth Circuit affirmed the District Court’s
denial of TEPCO’s motion to dismiss by rejecting,
among other of TEPCO’s arguments, its defense of
International comity. (App. D.). In rejecting
dismissal based upon comity, the Ninth Circuit
highlighted the Statement of Interest submitted by
the United States wherein the U.S. Government
asserted that it “ha[d] no specific foreign policy
interest necessitating dismissal in this particular
case.”(App.D.,111a).
Despite
the
Japanese
government’s assertion that permitting Petitioners’
claims to proceed in the United States would
threaten the viability of its post Fukushima
compensation scheme and severely undermine its
relief efforts, the Ninth Circuit properly interpreted
the comity doctrine by ascribing the balance of
weight in favor of the United States’ opinion that
retaining jurisdiction would not impact its
diplomatic or foreign policy relations with Japan. As
such, “voluntary forbearance” under comity was
without cause.
Upon remand with the now added Defendant,
General Electric, the District court addressed a
renewed motion to dismiss wherein General Electric
advanced a defense that a choice-of-law analysis
would fall in favor of Japanese law which would then
require that all liability be channeled towards

6
TEPCO and thereby discharge General Electric of
any and all liability. The District court agreed
finding that Japan’s interest would be more
impaired than California were its law not applied.
(App. B.,_61a). The District court came to the same
conclusion with respect to its choice-of-law analysis
when considering Petitioners’ claims against TEPCO.
The District court then proceeded to rely on its
choice-of-law finding as the determinative factor for
considering whether to abstain jurisdiction under
international comity despite the express absence of
such factor in Ninth Circuit precedent guiding a
comity determination. The District court relied on
“significant circumstances” that had accrued since it
last decided to not dismiss on comity grounds prior
to the appeal. The District court noted that among
these changes were that the Japanese government
had expressed its interest that United States
jurisdiction of Petitioners’ claims would have an
impact on its domestic compensation scheme.
Although among the changed “significant
circumstances” noted by the District court included a
statement from the United States government which
asserted that Petitioners’ claims could proceed in a
United States forum without upsetting its foreign or
diplomatic policies with respect to Japan, the
District court chose to subordinate the United States’
opinions under that of those expressed by Japan and
found that Japanese interests nevertheless prevailed.
Lastly, despite finding a “close call” between the
Japanese and United States’ interests, the District
court imported its choice-of-law determination into

7
its comity analysis despite the absence of choice-oflaw as factor among those expressly designated by
the Ninth Circuit. Relying upon its choice-of-law
decision as the determinative factor, the District
court dismissed Petitioners’ claims on comity
grounds.
In addressing Petitioners’ appeal, the Ninth
Circuit, for the second time was charged with
evaluating the efficacy of the District court’s holding.
Although after evaluating the first appeal, the Ninth
Circuit uphold the District court’s refusal to dismiss
Petitioners’ claims, it chose an about-face when
revisiting Petitioners’ claims for the second time.
The Ninth Circuit followed suit with the District
court and inopportunely erred in the same manner
and on the same basis, i.e., failing to afford the just
and proper weight to the United States’ Statement of
Interest which would have more than sufficiently
moved the comity analysis in the direction of the
United States,’ as well as erroneously ascribing
significant weight to a choice-of-law determination
despite such consideration being absent from its own
precedent that it relied upon when evaluating the
appropriateness of a comity abstention. (App. A.,
34a).
Thus, in affirming the District court’s otherwise
abuse of discretion in its misconstruance of the
underlying rationale for invoking the ‘highly
exceptional’ decision of abstaining jurisdiction on
account of comity, the Ninth Circuit’s decision
perpetuates
a
misunderstanding
of
the
appropriateness of exactly when the Judiciary

8
should stand in for the Executive branch and abstain
its jurisdiction as a diplomatic gesture whose stated
purpose is to “promote cooperation and reciprocity
with foreign lands.”
Had this Court previously addressed the errors
that this Petition is now revealing and raising, the
particular Circuit and District courts at bar, as well
as those throughout the land would have had a more
accurate and consistent understanding of when and
under what conditions comity should be invoked.
Additionally, courts would have been well apprised
of the various weights to ascribe to not only the
status of the particular plaintiffs invoking United
States jurisdiction, but to the opinions of the United
States Executive branch when that branch imparts
an opinion as to whether foreign policy and
diplomacy dictate that courts show judicial good will
by deferring its jurisdiction to that of a foreign
tribunal.
REASONS FOR GRANTING THE PETITION
A. As a Case of First Impression, the First Question
Presented is one of Exceptional Importance as to
Whether U.S. Military Servicemembers Undertaking
a Diplomatic Mission Must be Afforded The Right to
Prosecute their Claims in a United States Tribunal

Given Petitioners’ status as United States
military personnel who were harmed while on board
U.S. Naval vessels deployed on a U.S. initiated
humanitarian relief mission, Plaintiffs were
rightfully endowed with the multiplicity of measures

9
the law provides other governmental representatives
of both the United States and foreign nations while
undertaking their duties on behalf of their countries.
In marshalling the following international,
statutory and common law provisions whose very
purpose is to protect government actors and
representatives from having to defend or prosecute
their actions and claims in a foreign tribunal,
Petitioners posit that their status as U.S. military
personnel who undertook a United States initiated
relief mission overseas endowed them with the same
protections and privileges as afforded other agents or
representatives of the United States government. As
with other governmental actors, Plaintiffs are
unequivocally cloaked with ‘immunity’ such that
jurisdiction over their claims would not occur in a
foreign tribunal but could only rightfully be
adjudicated in a United States courtroom.
Nevertheless,
rather
than
recognizing
Petitioners as fully endowed governmental
representatives of the United States which should
have otherwise rendered inapplicable a comity
decision in favor of stripping them of United States
jurisdiction, the courts below failed to acknowledge
the full import of Plaintiffs’ status and on account of
such oversight, rendered Plaintiffs’ claims non
redressible in a United States court.
Although Plaintiffs’ by no means construe
themselves as United States ‘diplomats’ as that
designation is defined by the Department of State,
they do however consider that their designated
status as U.S. military personnel officially assigned

10
to provide humanitarian relief to a foreign nation
embody a parallel kind and quality of United States’
representation that elicits and evokes the
jurisdictional rights and protections that parallel
those afforded diplomats and sovereigns. As such,
the jurisdictional components of the following
international and domestic laws should have equally
informed and justified Petitioners’ rightful reliance
on securing a United States forum without any
consideration as to comity or any other deference to
the rights of a foreign country.
For example, on account of the Vienna
Convention on Diplomatic Relations, ratified by the
United States in 1972 and implemented by the the
Diplomatic Relations Act ("DRA") of 1978, a district
court must dismiss "any action or proceeding
brought against an individual who is entitled to
immunity” for lack of subject matter jurisdiction. 22
U.S.C. § 254d. Thus, on account of a nation’s
sovereignty, its diplomatic representatives are
relieved from having to undergo legal proceedings in
a foreign tribunal but can instead rely on the legal
system of his or her home country for a fair and
familiar legal proceeding.
Similar to diplomatic immunity, government
sovereign immunity, as prescribed by the Foreign
Sovereign Immunities Act ("FSIA"), 28 U.S.C. §§
1330, 1602-11, governs jurisdiction of suits brought
against foreign states and their agents, while
providing immunity from suit for foreign
governments, including its “diplomatic, civil service,
or military personnel." H.R. Rep. No. 94-1487, at 16

11
(1976), as reprinted in 1976 U.S.C.C.A.N. 6604,
6615(emphasis added); Saudi Arabia v. Nelson, 507
U.S. 349, 359-60, 123 L. Ed. 2d 47, 113 S. Ct.
1471(1993)(a state is immune from the jurisdiction
of foreign courts as to its sovereign or public acts);
Askir v. Boutros-Ghali , 933 F.Supp. 368, 371372(S.D.N.Y. 1996)(military operations, even ones
directed at ensuring the delivery of humanitarian
relief are a distinctive province of sovereigns and
governments).
Such designation that Military personnel who
engage in “sovereign and public” acts are effectively
the government itself and thereby afforded
immunity from suit in a foreign forum is even more
definitively recognized and sanctioned by this Court
under the so-called public authority doctrine which
was first designated by Chief Justice Marshall in
Dow v. Johnson, 100 U.S. 158, 165, 25 L. Ed.
632(1879). In Dow, Chief Justice Marshall grounded
a Military’s exemption from criminal and civil
jurisdiction in the territory of their mission on the
rule and law of comity. The Supreme Court held that:
"A foreign army or fleet, marching
through, sailing over, or stationed in
the territory of another State, with
whom the foreign sovereign to whom
they belong is in amity, are also, in
like manner, exempt from the civil
and criminal jurisdiction of the place."

Dow, 100 U.S. 165; see also, Motherwell v. United
States 107 F. 437, 448(3d Cir. 1901)(“it is undisputed
that comity is operative in the case of an organized

12
regiment of a friendly foreign power while on our soil
by permission of the Executive of the United States,
and that proper discipline and obedience may be
enforced by those in command without reference to
our laws”).
Thus, the doctrine that a foreign army is
permitted to march through a friendly country, or to
be stationed in it by authority of its sovereign or
government, and thus is exempt from its civil and
criminal jurisdiction has been firmly established for
centuries and persists to this day. See, Schooner
Exchange v. McFaddon, 7 Cranch 116, 145 (1812)(a
grant of a free passage . . . implies a waiver of all
jurisdiction over the troops, during their passage");
Coleman v. Tennessee, 97 US 509, 515(1878)(“a
sovereign cedes a portion of his territorial
jurisdiction when he allows the troops of a foreign
prince to pass through his dominions”); Suhail Najim
Abdullah Al Shimari v. CACI Int'l, Inc. 679 F.3d 205,
227-228(4th Cir. 2012)(citing Dow explaining that
military forces are not subject to the laws of the
occupied territory); United States v. Hamidullin 888
F.3d 62, 75-76(4th Cir. 2018) (public authority
defense looks to whether military maneuvers on
foreign territory were sanctioned by the foreign
government).
Here, to the extent that Petitioners were United
States Military personnel carrying out a
humanitarian relief mission ordered by the United
States government upon the request of the Japanese
government and thus a goodwill and diplomatic
gesture among nations, Petitioners were firmly

13
imbued with vestiges of both ‘diplomatic’ as well as
invitee status that more than justifiably triggered
application of the public authority doctrine and
diplomatic immunity privilege as they pertain to and
determine jurisdictional designation. Such is the
case despite the fact that Petitioners, as Military
personnel and members of Operation Tomodashi had
in fact never ventured off of United States territory
as U.S. Naval vessels legally retain that designation
while in international waters. See, 18 USCS § 7.
As the above analysis makes plain, on account of
Petitioners’ positionality as military personnel
undertaking a diplomatic relief mission and harmed
while onboard U.S. territory, there should never
have been a question as to whether Petitioners’
claims should be heard in a forum other than one in
the United States. This should have been readily
apparent where Petitioners’ were unequivocally
serving as ‘diplomatic’ agents of the United States
thereby cloaking them with residual jurisdictional
immunity. As if this was not sufficient in itself, the
public authority doctrine ensured that jurisdiction in
Japan was patently precluded on account of Japan’s
request for U.S. military assistance, i.e., ‘the
granting of free passage’ that carried along with it a
waiver of all jurisdiction over Petitioners as Military
personnel. Schooner Exchange, 7 Cranch at 145.
In short, as the above authority is
jurisprudentially founded upon considerations of
comity and rightful law of nations, Petitioners’
assertion that their claims should rightfully remain
in the jurisdiction of the United States is

14
foundationally well supported and one that perhaps
needn’t have required a balancing under traditional
adjudicatory comity analysis. Although the lower
courts failed to fully perceive the full import of
Petitioners particular status and the prevailing
authority that fully warranted a jurisdictional
determination in their favor, Petitioners’ respectfully
request this Court to remedy such oversight and
provide Petitioners, as military and diplomatic
agents of the United States, with the United States
jurisdiction that they are unequivocally legally and
equitably entitled to.
As the above analysis makes clear, given
Petitioners’ particular status, i.e., military personnel,
and the particular context within which Petitioners’
harms were incurred, i.e., while undertaking a
diplomatic relief mission while onboard U.S. Naval
vessels, the lower courts’ dispository analysis under
traditional adjudicatory comity was patently an
abuse of discretion.
B.
Given the Quasi Executive Function of
Deferring Jurisdiction to a Foreign Tribunal in
Order to Maintain Amicable Diplomatic Relations
between Nations, it is Imperative that this Court
Provide
Consistent
and
Unified
Standards
throughout the Circuits for Making a Comity
Determination

This is especially the case given that it is well
established that comity is a "rule of 'practice,
convenience, and expediency' rather than of law, and
is a discretionary act of deference by a national court
to decline to exercise jurisdiction in a case deemed

15
properly adjudicated in a foreign state. Hartford Fire
Ins. Co. v. California, 509 U.S. 764, 817 (1993);
Pravin Banker Assocs., Ltd. v. Banco Popular Del
Peru, 109 F.3d 850, 854 (2d Cir. 1997). Furthermore,
the doctrine has never been well-defined, but has
been well accepted as a means of "maintaining
amicable working relationships between nations, a
'shorthand’ for good neighbourliness, common
courtesy and mutual respect between those who
labour in adjoining judicial vineyards." JP Morgan
Chase Bank v. Altos Hornos de Mexico, S.A. de C.V.,
412 F.3d 418, 423 (2d Cir. 2005); Mujica v. AirScan
Inc. 771 F.3d 580, 603(9th Cir. 2014)(there is no
well-defined test for when international comity
obliges a court to dismiss an action in favor of
another forum.)
Additionally, comity is not a rule expressly
derived from international law, the Constitution,
federal statutes, or equity, but it draws upon various
doctrines and principles that, in turn, draw upon all
of those sources. It thus shares certain
considerations with international principles of
sovereignty
and
territoriality;
constitutional
doctrines such as the political question doctrine;
principles enacted into positive law such as the
Foreign Sovereign Immunities Act of 1976, 28 U.S.C.
§§ 1330, 1602, 1611 (2006). As such, when deciding
whether to exercise comity and dismiss an action on
jurisdictional grounds, the courts are effectively
exercising executive functions of diplomatic and
foreign policy decision-making although the province
of such clearly lies with the executive branch. See,
Crosby v. Nat'l Foreign Trade Council, 530 U.S. 363,

16
386, 120 S. Ct. 2288, 147 L. Ed. 2d 352 (2000) ("the
'nuances' of the 'foreign policy of the United
States . . . are much more the province of the
Executive Branch and Congress than of this Court.'");
Abu Ali v. Ashcroft, 350 F.Supp.2d 28, 61 (D.D.C.
2004)(acknowledged the considerable authority of
the executive branch in diplomatic relations, and
that such authority would "cabin the Court's
inquiry" so as not to intrude on executive functions.)
Thus, comity is a "rule of 'practice, convenience, and
expediency' rather than of law" that courts have
embraced "to promote cooperation and reciprocity
with foreign lands," which again is primarily an
executive function. Pravin Banker Assocs., 109 F.3d
at 854; see also, Turner Entertainment Co. v. Degeto
Film GmbH 25 F.3d 1512, 1519, fn. 10(11th Cir.
1994)(comity defined as 'consideration of high
international politics concerned with maintaining
amicable and workable relationships between
nations.')
All and all, given the quasi-executive function
and result of a court’s determination of whether to
defer jurisdiction to a foreign tribunal, i.e., the
court’s weighing of interests between the United
States and that of a foreign country, it is imperative
that this Court provide more explicit oversight and
guidance to the lower courts as to the particular
factors and weights afforded for a comity
determination. This is imperative as there is no
consistently applied and well-accepted test for courts
to rely on when determining whether to abstain
jurisdiction on account of international comity.
Rather, Circuit courts throughout the country have

17
devised their own individual set of factors in which
to guide their circuit’s decisions. See, Philadelphia
Gear Corp. v. Philadelphia Gear De Mexico, S.A., 44
F.3d 187, 191 (3d Cir. 1994)(whether granting
comity would be contrary or prejudicial to the
interest of the United States); Mujica, 771 F.3d at
603(the strength of the United States' interest in
using a foreign forum, (2) the strength of the foreign
governments' interests, and (3) the adequacy of the
alternative forum); Animal Sci. Prods. v. Hebei
Welcome Pharm. Co. (In re Vitamin C Antitrust
Litig.) 837 F.3d 175, 184-185(2d Cir. 2016)(degree of
conflict with foreign law, the availability of a remedy
abroad, intent effect American interests). District
courts of the Eighth Circuit and Fifth Circuit rely on
factors from Section 403 of the Restatement (Third)
of the Foreign Relations Law. J.Y.C.C. v. Doe Run
Res., Corp. 403 F. Supp. 3d 737, 748(E.D.Mo.
2019);Torres v. Southern Peru Copper Corp. 965
F.Supp. 899, 908(S.D.Tex. 1996)
Given that courts are rendering jurisdictional
decisions that straddle the fence between implicating
the strictly executive function of diplomatic and
foreign policy and a judicial function of determining
jurisdiction, it respectfully behooves this Court to
provide a uniform standard in order to ensure that
courts are not straying into Executive function and
rendering diplomatic and foreign policy decisions
under the guise of carrying out judicial mandate. See,
JP Morgan Chase Bank, supra 412 F.3d at 423
(comity described as having "borders are marked by
fuzzy lines of politics, courtesy, and good faith.”)

18
C. The Weight Afforded an Executive Branches’
Statement of Interest is an Exceptionally Important
Question Given that the Essence of Invoking Comity
is Founded upon Foreign Policy and Diplomatic
Relations Which are Constitutionally Mandated
Executive Functions.
Given the fact that a comity determination is a
quasi-Executive function, it is imperative that this
Court affirm and underscore that a statement of
interest submitted by the United States government
be afforded substantial weight when a court is
deciding whether to exercise its “discretionary act of
deference” by declining to exercise jurisdiction on
account of deciding that the claims before it are
properly adjudicated in a foreign tribunal. As
deferring jurisdiction is no small matter, the courts
should effectively take direction from the Executive
on matters of “diplomacy, good will and foreign
policy.” See, Colorado River Water Conser. Dist. v.
United States, 424 U.S. 800, 817 (1976)(Federal
courts have a 'virtually unflagging obligation' to
exercise the jurisdiction conferred upon them.")
Thus, where the United States offers an opinion
as to whether a proceeding should remain in a
United States forum, such opinion should be
provided substantial weight under a comity analysis
given that the underlying function and purpose of
comity is to “maintain amicable working
relationships between nations,” i.e., maintenance of
diplomatic relations which is predominantly an
executive function and one that the judiciary should
rightfully defer.

19
Here, the District court and the Ninth Circuit
failed to afford any deferential weight to the United
States’ Statement of Interest wherein the United
States expressed its opinion that jurisdiction could
remain in the United States District court without
impacting its foreign and diplomatic relations with
the Japanese Government. In fact, not only had the
lower courts failed to ascribe the proper deferential
weight to the United States’ position, but that the
District court flagrantly barely even mentioned the
Government’s position when it dismissed on grounds
of comity.
In turn, the Ninth Circuit concurred with the
District court by dismissing outright the idea that a
government’s statement of interest should receive
deferential weight within a comity analysis.
Considering that comity itself is a judicial
determination of whether the United States should
defer jurisdiction in order "to promote cooperation
and reciprocity with foreign lands," and thus
“inevitably implicates [the United States’] diplomatic
relationship with that nation,” it defies principles of
judicial deference to Executive function for a court to
diminish in importance an opinion on foreign
relations and diplomacy that is communicated by the
very branch whose constitutionally mandated to
discharge that duty. See In re Muir, 254 U.S. 522,
532-33, 41 S. Ct. 185, 65 L. Ed. 383 (1921) ("The
reasons underlying [deference to the Executive] are
as applicable and cogent now as in the beginning,
and are sufficiently indicated by observing that it
makes for better international relations, conforms to
diplomatic usage in other matters, accords to the

20
Executive Department the respect rightly due to it,
and tends to promote harmony of action and
uniformity of decision."); see also, United States v.
All Assets Held in Account Number XXXXXXXX, 83
F. Supp. 3d. 360, 372, 314 F.R.D. 12 (D.D.C.
2015)(comity dismissal unwarranted where after
weighing international policy and diplomatic
interests, the Executive branch deemed that
declining jurisdiction out of deference to the interest
of a foreign nation was inappropriate.)1
Petitioners contention that an Executive
branch’s statement of interest specifically offered
within the context of a comity must be afforded
substantial weight is neither a novel nor outlandish
proposition as courts throughout the Circuits have
acknowledged such either with respect to a
Government’s affirmative expression of interest or
its silence as to the impact of comity on its

Similar to the process of awarding sovereign immunity prior
to the passage of the Foreign Sovereign Immunities Act in 1972
where the Executive branch by way of the State Department
solely determined and dictated whether sovereign governments
were entitled to immunity, Petitioners here advance that the
same degree of judicial deference must be granted the
Executive branch when it renders an opinion on the impact
that retaining jurisdiction in the United States would have on
its diplomatic and foreign relations with a foreign sovereign.
See, Samantar v. Yousuf, 560 U. S. 305, 311-312, 130 S. Ct.
2278, 176 L. Ed. 2d 1047 (2010); Republic of Mex. v. Hoffman,
324 U.S. 30, 36, 65 S.Ct. 530, 89 L.Ed. 729 (1945)(it was "not
for the courts to deny an immunity decision which our
government has seen fit to allow").
1

21
diplomatic or foreign policy. In fact, this Court itself
has acknowledged that deference is due to a
statement offered by United States that expresses its
opinion pertaining to a comity determination. See,
Republic of Austria v. Altmann, 541 U.S. 677, 702,
124 S. Ct. 2240, 159 L. Ed. 2d 1 (2004)(if the State
Department expresses a specific opinion on the
implications of "exercising jurisdiction over
particular petitioners in connection with their
alleged conduct, that opinion might well be entitled
to deference as the considered judgment of the
Executive on a particular question of foreign policy.")
Many court determinations of comity have relied
upon statements of interest from the sovereigns
involved as explicit expressions of interest that left
no doubt as to how the court should rule. In Mujica v.
AirScan Inc., supra, 771 F.3d at 603(9th Cir. 2014),
both the U.S. Department of State and the
Columbian government submitted statements which
carried substantial weight in the court’s ultimate
determination that comity required deference to
Columbian jurisdiction. The Court held:
The United States, however, has
spoken directly on the question of its
interests in this case. The district
court particularly credited the State
Department's Supplemental SOI and
concluded it was "strong evidence that
the United States, in the interest of
preserving its diplomatic relationship
with Colombia, prefers that the

22
instant case be handled exclusively by
the Colombian justice system.

Mujica, 771 F.3d at 609.
Mujica was not alone in accentuating the
overriding importance that a United States’
expressed statement has in determining a courts’
decision on comity. See, Sarei v. Rio Tinto Plc 221
F.Supp.2d 1116, 1205 (C.D.Cal. 2002)(“based on the
opinion expressed in the Statement of Interest, the
court concludes that the United States' interests are
aligned…with those of PNG,…that suggests it would
be appropriate to refrain from exercising jurisdiction
in this case”); Ungaro-Benages v. Dresdner Bank AG,
379 F.3d 1227, 1236 n. 12 (11th Cir. 2004)(statement
of interest filed by U.S. Government under the
Foundation Agreement is "entitled to deference"); In
re Nazi Era Cases Against German Defendants
Litigation, 129 F. Supp. 2d 370, 379-80 (D. N.J.
2001)(United States undertook to file Statements of
Interest in the pending cases "'advising U.S. courts
of its foreign policy interests . .); Whiteman v.
Dorotheum GmbH & Co KG 431 F.3d 57, 73-74 (2d
Cir. 2005) (U.S. statement of foreign policy interests
preclude jurisdiction as the court cannot "undertake
independent resolution without expressing lack of
the respect due the Executive Branch”)
Similarly, the absence of an expressed interest
by a foreign state is strong indicia that the exercise
of comity does not lie. See Abad v. Bayer Corp., 563
F.3d 663, 668 (7th Cir. 2009)("[N]either [Argentina
nor the United States] appears to have any interest
in having the litigation tried in its courts rather

23
than in the courts of the other country; certainly no
one in the government of either country has
expressed to us a desire to have these lawsuits
litigated in its courts."); Gross v. German Found.
Indus. Initiative, 456 F.3d 363, 389-90(3d Cir. 2006)
(declining to defer to U.S. government's preference
where "the United States Executive has taken no
position on the merits of this dispute, and has not
promised dismissal or intervention.")
Here, the United States submitted a statement
of interest expressing the strength and extent to
which the United States held diplomatic and foreign
relations with the Japanese Government and
affirmed that adjudicatory comity was not required
on account of Japan’s Compensation scheme for
compensating its citizens for the damages they
incurred during the Fukushima earthquake.
Consequently, it was this same Japanese
Compensation scheme that the District court and
thereafter, the Ninth Circuit relied upon in finding
that comity was indeed required and directly
resulted in the dismissal of Petitioners’ claims.
(App.B,77a). The United States additionally held
that permitting its Military personnel to litigate
their claims in a U.S. court did not upset the
Convention on Supplementary Compensation for
Nuclear Damage which was a Convention authored
and sponsored by the United States and which
Japan signed on at a date after Petitioners filed their
claims. (App. F, 228a-231a). Thus, the United States
affirmed that there was no public or foreign policy
impediments to Petitioners’ claims remaining in the
United States. (App. F, 232a).

24
Nevertheless, in ultimately rejecting the United
States position, the lower courts afforded
insignificant weight to the United States statement
of interest which, as argued above, patently
disregarded the Executive branch’s constitutionally
mandated prerogative pertaining to diplomatic and
foreign policy concerns. Such error was even more
inexcusable and prejudicial given that Petitioners
were actually undertaking those very Executive
diplomatic and foreign policy initiatives, i.e.,
providing humanitarian relief to a long standing ally,
when their claims arose.
As adjudicatory comity asks whether a court
should abstain from exercising jurisdiction based
upon considerations of “high international politics,”
foreign policy, diplomacy, and an “amicable working
relationships between nations,” the diminishment in
importance and weight of an Executive opinion
expressly undermines the deference required to be
shown the Executive “on a particular question of
foreign policy,” Republic of Austria, 541 U.S. at 702,
as well as towards a military operation ensuring the
“delivery of humanitarian relief as a distinct
province of sovereigns and governments.” Askir, 933
F.Supp. at 372.
D. The Court of Appeals Decision was Incorrect by
Relegating Determinative Weight to the District
Court’s Choice-of-Law Analysis in Arriving at a
Comity Determination

25
While it is well established that adjudicative
international comity is a fundamentally different
application of law than that of the choice-of-law
doctrine, the lower courts in this action erroneously
failed to recognize such difference but rather
conflated the two applications as one thereby holding
that an international comity analysis is effectively
synonymous with a choice of law analysis. Such an
understanding is patently legally indefensible
although one that the lower courts relied upon in
dismissing Petitioners’ claims on international
comity grounds.
Such confusion is perhaps attributable to the
overall ‘murkiness’ of the jurisprudence of
international comity in general and its lack of a
unified and coherent application standard that this
Court can readily remedy were it to grant the
instant Petition for Certiorari.
Nevertheless, as the following argument makes
plain, the two doctrines are significantly
distinguishable despite the lower courts’ imposition
of choice-of-law as the determinative factor within a
Comity analysis. The lower courts’ reliance on choice
of law is particularly confounding when considering
that choice of law is nowhere to be found and thus,
glaringly absent as an applicable factor within Ninth
Circuit
precedent
for
determining
whether
adjudicative international comity is properly invoked.
Adjudicative
international
comity
is
a
discretionary
abstention
doctrine
where
a
jurisdictionally endowed federal court declines to
exercise jurisdiction in a case after determining that

26
the case should properly be adjudicated in a foreign
forum. Hartford Fire Ins., 509 U.S. at 817. As a "rule
of 'practice, convenience, and expediency' rather
than of law," comity merely exists "to promote
cooperation and reciprocity with foreign lands."
Pravin Banker Assocs., 109 F.3d at 854. While there
is no well-defined test for when international comity
obliges a court to dismiss an action in favor of a
foreign forum, Petitioners’ claims were analyzed and
decided under the Ninth Circuit’s test articulated
within Mujica. The Ninth Circuit’s test of whether a
federal court should abstain adjudication and defer
to a foreign forum consists of weighing (1) the
strength of the United States' interests, (2) the
strength of the foreign government's interests, and
(3) the adequacy of the alternative forum. Id. In
considering the United States' interests, courts
weigh "(1) the location of the conduct in question, (2)
the nationality of the parties, (3) the character of the
conduct in question, (4) the foreign policy interests of
the United States, and (5) any public policy
interests." Id. at 604.
Alternatively, the choice-of-law doctrine is a
procedural means by which a court selects one law
among differing laws based primarily upon parties
differing domiciles. See Allstate Ins. Co. v. Hague,
449 U.S. 302, 307-08, 101 S. Ct. 633, 66 L. Ed. 2d
521 (1981) ("Implicit in this inquiry is the
recognition, long accepted by this Court, that a set of
facts giving rise to a lawsuit, or a particular issue
within a lawsuit, may justify application of the law
of more than one jurisdiction. As a result, the forum
State may have to select one law from among the

27
laws of several jurisdictions having some contact
with the controversy.") Unlike a comity analysis
which deciphers which of two foreign sovereign’s
policies have the stronger interest and thus
warrants adjudication in their home forum, the
choice-of-law doctrine is one step removed where its
purpose is to determine which body of law will be
used to interpret the policies at play throughout the
adjudication of the party’s claims. Pittston Co. v.
Allianz Ins. Co. 795 F.Supp. 678, 689-690. (D.N.J.
1992); see also, In re GM LLC Ignition Switch Litig.
(S.D.N.Y. Aug. 3, 2017, No. 14-MD-2543 (JMF)) 2017
U.S.Dist.LEXIS 123740, at *379)(deference on
account of comity is separate and apart from a choice
of law determination). The Second Circuit
underscored this distinct difference between
international comity and choice-of-law when it held
that “international comity, as it relates to this case,
involves not the choice of law but rather the
discretion of a national court to decline to exercise
jurisdiction over a case before it when that case is
pending in a foreign court with proper jurisdiction."
JP Morgan Chase Bank, 412 F.3d at 424.
Despite expressing reliance on the Mujica factors
which are explicitly designated as those particular
factors to consider when deciding whether to invoke
a comity abstention, here, both the District court and
the Ninth Circuit chose to not only import choice of
law as a comity factor despite its absence under
Mujica, but ascribed it determinative weight that
resulted in tipping the scales in favor of the District
court deferring jurisdiction under comity despite its
otherwise “unflagging obligation to exercise

28
jurisdiction conferred on [it].”Colorado River Water
Conser. Dist. v. United States, 424 U.S. 800 (1976).
Here, both the District court and Ninth Circuit
relied upon the unsupported assumption that a
choice of law analysis was a ‘prerequisite’ to
conducting an adjudicative comity analysis when
such understanding was patently without mandate,
either under Mujica or other Ninth Circuit precedent
pertaining to adjudicative comity. Nevertheless,
after conducting a choice of law analysis that
resulted in a finding that Japanese law should apply
and thus, the Japanese jurisdictional requirement
that all claims against TEPCO were to be
adjudicated in Japan, the lower courts simply
imported that finding into its comity analysis
concluding that such choice of law finding eclipsed
the entirety of the stated Mujica factors thereby
warranting
the
District
court’s
“voluntary
forebearance” and dismissal on comity grounds.
In other words, the lower courts relied upon the
results of an analysis that was outside the contours
of the explicit considerations required for a comity
determination, i.e., the Mujica factors of (1) the
strength of the United States' interests, (2) the
strength of Japan’s interests, and (3) the adequacy of
a Japanese forum. Thus, glaringly absent in Mujica
or other comity precedent is any reference to choiceof- law which as argued, is merely a procedural
consideration that otherwise shouldn’t have had a
determinative influence over a court’s decision of
whether to exercise “voluntary forebearance” from
asserting its rightful jurisdiction.

29
Thus, the lower courts erred by ascribing
determinative weight to a result that was outside
the factors designated by Mujica and/or other comity
precedent. Such error was further compounded when
considering that the District court erroneously failed
to ascribe the proper weight to the United States’
statement of interest which would have bolstered the
strength of the United States’ interest when
evaluating Mujica factor number one, as well as the
District court’s failure to acknowledge the full import
of Petitioners’ status as representatives of the
United States government undertaking a diplomatic
humanitarian relief mission. This again should have
significantly impacted the weight ascribed to the
United States’ interests. Having failed such and
having ascribed impermissible weight to its choice of
law determination when undertaking its comity
analysis, the District court patently abused its
discretion with the Ninth Circuit affirming such
abuse.
CONCLUSION

As against these advantages, this case has no
significant defects as a vehicle for addressing the
questions presented. The Court should therefore
grant this petition for a writ of certiorari.
Respectfully submitted.
John R. Edwards
Catharine E. Edwards

Charles Bonner
A. Cabral Bonner

30
Edwards Kirby, LLP
3201 Glenwood Avenue,
Suite 100
Raleigh, NC 27612
919-335-7005
Paul C. Garner
c/o Bonner & Bonner
475 Gate 5 Rd # 211,
Sausalito, CA 94965

Counsel for Petitioners

November , 2020

Law Offices of Bonner
& Bonner
475 Gate 5 Rd # 211,
Sausalito, CA 94965
Howard Moore Jr
Counsel of Record
Moore & Moore
1569 Solano Ave #204
Berkeley Ca 94707
510 542 7172
moorlaw@aol.com












APPENDIX

L
TABLE OF APPENDICES
Appendix A
Court of Appeals Opinion, United States
Court of Appeals, Ninth Circuit (May. 22, 2020) …1a
Appendix B
District Court Order, Southern District of California
(March. 4, 2019) )………………………………….….41a
Appendix C
Order denying rehearing, United States Court of
Appeals, Ninth Circuit (July 1, 2020)………….…81a
Appendix D
Court of Appeals Opinion, United States Court of
Appeals, Ninth Circuit (June 22, 2017) )………….83a
Appendix E
District Court Amended Order, Southern District of
California (June 11, 2015) ……………………..…135a
Appendix F
Brief for the United States in Support of Affirmance
of the Order Below (December 19, 2016) )………209a

1a
APPENDIX A

United States Court of Appeals
for the Ninth Circuit
LINDSAY COOPER, ET AL,

Plaintiff-Appellants,
v.
TOKYO ELECTRIC POWER
COMPANY HOLDINGS, INC., AKA
TEPCO; GENERAL ELECTRIC
COMPANY; DOES, 1-200, inclusive,

Defendant-Appellees.
19-55295
Appeals from the United States District Court for
the Southern District of California in 3:12-cv-03032JLS-MSB, Judge Janis L. Sammartino.
Decided May 22, 2020
***
Before: A. Wallace Tashima, Kim McLane Wardlaw,
and Jay S. Bybee, Circuit Judges.

2a
Opinion by Judge Bybee.
In the aftermath of a massive earthquake and
tsunami in Japan, the Fukushima Daiichi Nuclear
Power Plant (FNPP) was damaged. Hundreds of
United States servicemembers, deployed to provide
relief to the victims, allege that they were exposed to
radiation from the FNPP. The plaintiffs,
servicemembers and their families, brought suit in
California for negligence and strict products
liability against Tokyo Electric Power Company
(TEPCO), the power plant’s owner and operator,
and General Electric Company (GE), the
manufacturer of the plant’s boiling water reactors.
This is the second time we have heard an
appeal in this case. In 2017, we affirmed the
district court’s denial of TEPCO’s motion to
dismiss. Cooper v. Tokyo Elec. Power Co., 860 F.3d
1193 (9th Cir. 2017) (“Cooper III”). On remand,
GE and TEPCO both moved to dismiss. GE argued
that Japanese law should apply to the case and
that, under Japanese law, only the plant operator
could be liable for injuries resulting from the
power plant’s failure. TEPCO argued for dismissal
on international-comity grounds. The district court
granted both motions to dismiss. We affirm
I.FACTS AND PROCEDURAL HISTORY
A. The Act on Compensation for Nuclear Damage
In the early 1960s, the Japanese National Diet
enacted legislation “to establish a basic system
pertaining to compensation for damages in the case
where nuclear damage has occurred in connection

3a
with the operation . . . of a nuclear reactor” and to
“provid[e] protection for injured parties and
contribut[e] to the sound development of nuclear
reactor operations.” Act on Compensation for
Nuclear Damage, Act No. 147, ch. I, art. 1 (June 17,
1961) (Compensation Act). The Compensation Act
encouraged participation in Japan’s nuclear
industry while ensuring compensation for any
persons injured through operation of nuclear power
plants. Articles 3 and 4 of Chapter II of the
Compensation Act provide that the operator of a
nuclear plant is strictly liable for any damage
caused by the operation of the power plant but that
“no other person shall be liable to compensate for
damages.” Id. at ch. II, arts. 3–4. This is referred to
as the “channeling provision.”
These provisions, along with others that provide
for the creation of a national insurance pool and
financial backing from the Japanese government to
fund compensation, work to facilitate recovery for
accident victims by eliminating the need to prove
fault and ensuring recovery of damages. Id. at ch.
III, arts. 6–9.
B. The 2011 Earthquake
On March 11, 2011, a 9.0-magnitude
earthquake and massive tsunami struck Japan,
causing enormous and widespread destruction. 1
Some 15,000 people died. The FNPP was

We have taken the facts from plaintiffs’ Third Amended
Complaint. Additional details may be found in our prior
opinion. Cooper III, 860 F.3d at 1197–98.
1

4a
damaged by the earthquake and tsunami and
released over 300 tons of contaminated water into
the sea. In response to the disaster, the United
States joined in a humanitarian relief effort known
as “Operation Tomodachi.” The day following the
earthquake, the servicemember plaintiffs arrived
off the coast of Fukushima on the U.S.S. Ronald
Reagan and other vessels participating as part of
the U.S. 7th Fleet’s Reagan Strike Force.
Defendant TEPCO owns and operates the FNPP.
After the FNPP meltdown, the Japanese
government provided billions of dollars in financial
support to TEPCO. It also developed a
comprehensive scheme to deal with the
thousands of claims resulting from the FNPP leak,
giving claimants the option to submit a claim (1)
directly to TEPCO, (2) to the newly established
Nuclear Damage Claim Dispute Resolution Center,
or (3) to a Japanese court. The plaintiffs, however,
chose to sue in the Southern District of California.
Subject matter jurisdiction was asserted under
the district court’s diversity jurisdiction. 28 U.S.C.
§ 1332(a)(2).
C. Initial Complaints and the First Appeal
The plaintiffs’ second amended complaint (SAC)
alleged that TEPCO was negligent in operating and
maintaining the FNPP. Six months later, the
plaintiffs moved to amend their complaint to name
GE and three other manufacturer defendants,
claiming they had only recently learned of their
involvement. Shortly thereafter, the district court
granted in part TEPCO’s motion to dismiss the

5a
SAC. It found that the plaintiffs’ claims were not
barred by the political-question doctrine, forum
non conveniens, or the doctrine of international
comity, but granted the motion in part because the
plaintiffs failed to state claims for strict designdefect liability and intentional infliction of
emotional distress. Cooper v. Tokyo Elec. Power
Co., 2014 WL 5465347 (S.D. Cal. Oct. 28, 2014)
(Cooper I). The court granted leave to amend,
including leave to name GE and the other
manufacturers as defendants.
The plaintiffs then filed their third-amended
complaint (TAC) against TEPCO, GE, and three
other named defendants. The TAC asserts claims
for negligence, strict liability for ultrahazardous
activities, res ipsa loquitur, negligence per se, loss
of consortium, and survival and wrongful death
against all defendants. The TAC also raises strictliability claims for manufacturing and design
defects against GE and the other named
manufacturers.
GE and TEPCO separately moved to dismiss.
Meanwhile, TEPCO moved for reconsideration of
the denial of its motion to dismiss the SAC. The
district
court
granted
the
motion
for
reconsideration but again denied TEPCO’s motion
to dismiss the SAC. Cooper v. Tokyo Elec. Power
Co., 166 F. Supp. 3d 1103 (S.D. Cal. 2015) (Cooper
II). The district court certified the issues for
interlocutory appeal and denied the pending
motions to dismiss as moot.

6a
On appeal, we affirmed the denial of TEPCO’s
motion to dismiss the SAC. Cooper III, 860 F.3d at
1218. We held that none of the arguments raised in
TEPCO’s appeal warranted dismissal at that
stage of the litigation, but allowed that “[f]urther
developments . . . may require the district court to
revisit some of the issues.” Id. at 1197; see also id.
at 1210 n.12.
D. Proceedings on Remand
After remand from Cooper III, and in light of a
ruling in a parallel case filed by the same
plaintiffs’ counsel raising similar issues, the district
court relieved the defendants of the requirement to
respond to the TAC and allowed the plaintiffs to file
a fourth-amended complaint. The plaintiffs
informed the court they would not do so, leaving
the TAC as the operative complaint in this case.
GE and TEPCO filed new motions to dismiss
the TAC. GE argued that it could not be held
liable because, under California’s choice-of-law
rules, Japan’s Compensation Act applied and
channeled all liability to TEPCO as the FNPP’s
operator. 2 TEPCO argued that the court lacked
personal jurisdiction, and that, even if the court


GE also argued that the TAC presented a political question,
the claims were time-barred, the complaint should be dismissed
under forum non conveniens, and the doctrine of international
comity required dismissal. The district court did not reach
these arguments.
2

7a
had jurisdiction over it, the doctrine
international comity required dismissal.3

of

The district court granted both motions. As to
GE, the district court first concluded that it had
subject-matter jurisdiction over the suit. The court
then, over the plaintiffs’ objection, conducted a
choice-of-law analysis. It determined that Japanese
law governed with respect to third-party liability
and, under that law, GE could not be held liable. As
to TEPCO, the district court concluded that
TEPCO had waived the personal-jurisdiction
defense because it had not raised the issue in
previous Rule 12 motions and there was no
intervening change in the law that affected
TEPCO’s ability to raise the defense. But the
district court ultimately dismissed the claims
against
TEPCO
without
prejudice
on
international-comity grounds.
II. ANALYSIS
The plaintiffs appealed the district court’s ruling
on both GE’s and TEPCO’s motions to dismiss. We
begin with GE’s motion to dismiss before discussing
TEPCO’s.
A. GE
The district court, after concluding under
California’s choice-of-law rules that Japanese law
applied, dismissed all claims against GE with
prejudice. Plaintiffs do not dispute that if Japan’s


TEPCO also revived its forum non conveniens argument before
the district court, but the district court did not reach it.

3

8a
Compensation Act applies, their claims must be
dismissed because TEPCO, as the operator, is
exclusively liable under the channeling provision
for any damages. Instead, they raise three
challenges to the district court’s choice-of-law
ruling: first, that the channeling provision in the
Compensation Act is procedural, not substantive,
and therefore not subject to a choice-of-law analysis;
second, that it was premature to decide choice-oflaw questions at this stage of litigation; and, third,
that the district court’s analysis was wrong and
California’s strict products liability law should
apply to the plaintiffs’ claims against GE. We review
choice-of-law questions de novo, but review
underlying factual findings for clear error. Daewoo
Elecs. Am., Inc. v. Opta Corp., 875 F.3d 1241, 1246
(9th Cir. 2017). We apply California’s choice-of-law
rules to this claim. See Klaxon Co. v. Stentor Elec.
Mfg. Co., 313 U.S. 487, 496 (1941).
1. Procedural Versus Substantive
A federal district court sitting in diversity
jurisdiction, 28 U.S.C. § 1332, applies substantive
state or foreign law. Erie R.R. Co. v. Tompkins, 304
U.S. 64, 78 (1938). “The nub of the policy that
underlies [Erie] is that for the same transaction the
accident of a suit by a non-resident litigant in a
federal court instead of in a State court a block
away, should not lead to a substantially different
result.” Guar. Tr. Co. of N.Y. v. York, 326 U.S. 99,
109 (1945); see Van Dusen v. Barrack, 376 U.S.
612, 639 (1964) (a “change of courtrooms”
should not lead to a change in the law applied to the

9a
parties). Accordingly, a federal district court will
apply its own rules of procedure, but state or
foreign substantive law. See, e.g., Abogados v.
AT&T, Inc., 223 F.3d 932, 935 (9th Cir. 2000).
Unfortunately, “[c]lassification of a law as
‘substantive’ or ‘procedural’ for Erie purposes is
sometimes a challenging endeavor.” Gasperini v.
Ctr. for Humanities, Inc., 518 U.S. 415, 427 (1996).
“In determining whether a state law is
substantive or procedural, we ask whether the law is
outcome determinative,” that is, whether not
applying the law would significantly affect the
result of the litigation. Cuprite Mine Partners LLC
v. Anderson, 809 F.3d 548, 555 (9th Cir. 2015). We
have explained that “[a] substantive rule is one
that creates rights or obligations” while a procedural
rule “defines a form and mode of enforcing the
substantive right or obligation.” County of Orange
v. U.S. District Court (In re County of Orange), 784
F.3d 520, 527 (9th Cir. 2015) (internal quotation
marks omitted). Our inquiry is “guided by ‘the twin
aims of the Erie rule: discouragement of forumshopping
and
avoidance
of
inequitable
administration of the laws.’” Cuprite Mine, 809
F.3d at 555 (quoting Gasperini, 518 U.S. at 428). It
is important to the fair administration of law that
“‘the outcome of the litigation in the federal court
should be substantially the same, so far as legal
rules determine the outcome of a litigation, as it
would be if tried in a State court.’” Gasperini, 518
U.S. at 427 (quoting Guar. Tr., 326 U.S. at 109). The
same logic applies when a foreign, rather than state,
forum is at issue.

10a

The plaintiffs argue that the district court should
not have conducted a choice-of-law analysis at all
because the channeling provision in the
Compensation Act is procedural and not substantive.
According to the plaintiffs, the provision effectively
“strips a court of jurisdiction” over claims against
anyone other than an operator of a nuclear plant.
But the plaintiffs do not explain how that is the
case. While it is a well-established principle that
jurisdictional rules are not substantive, see
McGee v. Int’l Life Ins. Co., 355 U.S. 220, 224
(1957), the plaintiffs make no meaningful
argument about how the channeling provision is
jurisdictional. The channeling provision makes no
reference to jurisdiction or, indeed, to any court.4
It simply provides that only the operator of a
nuclear reactor will be liable for any damages
caused by the operation of the facility. That is not a
jurisdictional provision. See Reed Elsevier, Inc. v.
Muchnick, 559 U.S. 154, 160–61 (2010).
The channeling provision is much more akin
to state statutes that limit liability for certain
injuries. If “[j]urisdiction is the power to declare
law,” Ex parte McCardle, 74 U.S. (7 Wall.) 506, 514
(1869), the channeling provision is the law itself,
not an assignment of the power to declare it.

Under Japanese procedures put in place after the disaster,
claims may be filed, but do not have to be filed, in a Japanese
court. They may also be filed with TEPCO directly or with
the Nuclear Damage Claim Dispute Resolution Center, created
after the FNPP incident.
4

11a
Importantly, California courts have routinely
treated such liability-limiting provisions as
substantive law and applied them under California’s
choice-of-law rules. See, e.g., Offshore Rental Co. v.
Cont’l Oil Co., 583 P.2d 721, 729 (Cal. 1978)
(applying Louisiana law foreclosing employer’s
cause of action for negligent injury to key employee);
Castro v. Budget Rent-A-Car Sys., Inc., 65 Cal.
Rptr. 3d 430, 444 (Ct. App. 2007) (applying
Alabama law precluding liability against vehicle
owner for negligence of a permissive user).
Moreover, application of the channeling
provision ends the case as to GE’s liability,
making the provision, as the plaintiffs concede,
outcome-determinative. This weighs heavily in
favor of finding that the provision is substantive
rather than procedural. See Gasperini, 518 U.S. at
427–28. A liability-limiting statute with such
outcome-determinative implications is substantive
and subject to a choice-of-law analysis.
2. Propriety of Choice-of-Law Analysis at the
Motion- to-Dismiss Stage
The plaintiffs next contend that the district court
erred by conducting a choice-of-law analysis at this
stage of the litigation. They argue that they needed
additional time and discovery to fully develop the
arguments and factual issues related to the
choice-of-law analysis. The district court rejected
this argument, finding that it was appropriate to
analyze choice-of-law at this stage because the
issue was fully briefed and discovery would not
affect the analysis.

12a

The plaintiffs argue that a choice-of-law
determination “requires a level of factual
development and detailed legal briefing that was
not and is not present in” this case at this time.
But the plaintiffs cite no principle to support
the argument that a court cannot decide choice-oflaw issues in a motion to dismiss. And although
some district courts reserve ruling on the issue
until later in the litigation, the district court here
had all the argument and facts necessary to make
its decision.
As to the contention that additional legal
briefing was necessary, choice of law was one of
the primary issues presented to the district court in
the motion to dismiss. It was fully briefed by both
parties, and the district court was able to engage in
a complete analysis. This is unlike some of the
cases the plaintiffs cited, in which the parties had
provided little or no briefing when asking the
district court to decide the choice-of-law question.
See, e.g., Dean v. Colgate- Palmolive Co., 2015
WL 3999313, at *11 (C.D. Cal. June 17, 2015) (no
analysis at all); Czuchaj v. Conair Corp., 2014 WL
1664235, at *9 (S.D. Cal. Apr. 18, 2014) (one page);
Brazil v. Dole Food Co., 2013 WL 5312418, at
*11 (N.D. Cal. Sept. 23, 2013) (no analysis at all).
We are also not persuaded that the district court
needed a more expansive factual record to decide
the choice-of-law issue. The plaintiffs first argue
that the terms of the contract between GE and
TEPCO, particularly its choice-of-law or venue

13a
provisions, could influence the analysis. But those
provisions have no bearing on tort claims filed
by third parties, like the plaintiffs. Sutter Home
Winery, Inc. v. Vintage Selections, Ltd., 971 F.2d
401, 407 (9th Cir. 1992) (“Claims arising in tort
are not ordinarily controlled by a contractual
choice of law provision.”); see also Paracor Fin., Inc. v.
Gen. Elec. Capital Corp., 96 F.3d 1151, 1165 (9th Cir.
1996) (finding third parties cannot be bound by a
choice-of- law provision in a contract in which
they had no interest). The plaintiffs also contend
that discovery could shed light on information about
the operational responsibilities of GE and TEPCO,
as well as TEPCO’s knowledge about the incoming
U.S. naval ships. But the plaintiffs offer no
explanation about why this information would be
important to the analysis of whether California or
Japan has a greater interest in the application of
its substantive laws to the claims against GE. That
information could be important to determining
GE’s ultimate liability, but it has no bearing on the
choice-of-law analysis.
The district court did not err in proceeding with
the full choice-of-law analysis.
3. Choice of Law
The final question is whether the district court
erred when it decided that the laws of Japan, not
California, govern plaintiffs’ claims against GE.
California courts decide choice-of-law questions by
means of the “governmental interest” test, which
proceeds in three steps. Offshore Rental, 583 P.2d at
723. First, the court must determine whether the

14a
substantive laws of California and the foreign
jurisdiction differ on the issue before it. McGhee v.
Arabian Am. Oil Co., 871 F.2d 1412, 1422 (9th Cir.
1989). Second, if the laws do differ, then the court
must determine what interest, if any, the competing
jurisdictions have in the application of their
respective laws. Id. “If only one jurisdiction has a
legitimate interest in the application of its rule of
decision, there is a ‘false conflict’ and the law of
the interested jurisdiction is applied.” Id. But if
more than one jurisdiction has a legitimate interest,
“the court must move to the third stage of the
analysis, which focuses on the ‘comparative
impairment’ of the interested jurisdictions.” Id.
This third step requires the court to “identify and
apply ‘the law of the state whose interest would be
the more impaired if its law were not applied.’”
Id. (quoting Offshore Rental, 583 P.2d at 726).
a. The Laws Differ
The parties agree that the laws of California
and Japan differ. Under Japanese law, the
Compensation Act would apply and channel
liability for nuclear damage exclusively to the
licensed operator of the nuclear installation—here,
TEPCO.
If Japanese law applies, it requires
dismissal of all claims against GE. Under
California law, on the other hand, a manufacturer
such as GE is strictly liable if its product is
defectively manufactured, defectively designed, or
distributed without adequate instructions or
warnings. See Hufft v. Horowitz, 5 Cal. Rptr. 2d
377, 379 (Ct. App. 1992). If California law applies

15a
and the plaintiffs prove that GE defectively
manufactured or designed the reactor, GE would be
strictly liable. See id.
b. Both Jurisdictions Have a Legitimate
Interest
We must next determine what interest, if any,
Japan and California have in the application of
their respective laws to this case. Offshore Rental,
583 P.2d at 724–25. Only if each jurisdiction
involved has a legitimate but conflicting interest in
applying its own law will there be a “true
conflict,” requiring us to move on to step three of
the analysis. Id. at 725–26. The plaintiffs agree
that there is a true conflict, but contend that
Japan’s interests are not “strong.” GE argues that
there is no true conflict because, while Japan
has substantial,
legitimate
interests
in
applying
its
laws, California’s interests are
“minimal at best.” It asserts that the plaintiffs’
claims directly implicate conduct that occurred in
Japan and is subject to a Japanese liabilitylimiting statute, giving Japan strong legitimate
interests in having its law applied. In contrast,
GE contends that California’s only interest is in
ensuring compensation for California-resident
victims, which would be equally served under
Japanese law.
At this point in the analysis, our only
consideration is whether each jurisdiction has
legitimate interests in seeing its own law applied
in this case and whether those interests conflict.
Weighing the strength of California’s interests

16a
against Japan’s occurs at the third step, which we
need only reach if there is a true conflict.
(1) Japan’s Interests. The parties generally
agree that Japan has legitimate interests in having
its law applied to this case. These interests are: (1)
adjudicating claims arising from a natural disaster
that occurred in Japan, (2) adjudicating claims
arising from injuries that occurred in Japan,
and (3)providing consistent allocation of liability
for nuclear disasters under the Compensation Act.
The final interest is of particular importance. As
the California Supreme Court has stated:
When a state adopts a rule of law
limiting liability for commercial
activity conducted within the state
in order to provide what the state
perceives is fair treatment to, and
an appropriate incentive for, business
enterprises, we believe that the
state ordinarily has an interest in
having that policy of limited liability
applied to out-of-state companies that
conduct business in the state, as
well as to businesses incorporated
or headquartered within the state.

McCann v. Foster Wheeler LLC, 225 P.3d 516,
530 (Cal. 2010). Here, Japan’s Compensation Act
limits liability for participants in its nuclear
industry, in part as an incentive for businesses to
participate. This is a “real and legitimate
interest” in having Japanese law apply to the
case. Id. at 531–32.

17a

(2) California’s Interest. California law holds
manufacturers strictly liable for products
defectively manufactured or designed. Hufft, 5
Cal. Rptr. 2d at 379. California courts have
described the state’s interest underlying this law:
[It] is to [e]nsure that the costs of
injuries resulting from defective
products
are
borne
by
the
manufacturers
that
put
such
products on the market rather than
by the injured persons who are
powerless to protect themselves. The
other purposes, or public policies,
behind the creation of the doctrine of
strict products liability in tort as a
theory of recovery are:
(1)to provide a short cut to liability
where negligence may be present
but difficult to prove; (2) to provide
an economic incentive for improved
product safety; (3) to induce
allocation of resources towards safer
products; and (4) to spread the risk
of loss among all who use the
product.

Barrett v. Superior Court, 272 Cal. Rptr. 304, 309
(Ct. App. 1990) (internal quotation marks and
citations omitted). These interests are certainly
legitimate.

18a
GE, however, contends that these interests
are insignificant in this case, arguing that the
plaintiffs “cannot manufacture a true conflict by
invoking irrelevant policies and interests.” It
argues that policies underlying California’s strictproducts-liability law “are immaterial here
because there are no ‘products’ at issue.” But that
is not the case. While it is true that the district
court previously commented that “[t]he FNPP was
evidently not a product ‘placed on the market,’”
Cooper II, 166 F. Supp. 3d at 1129, the claims
against GE do not arise out of the FNPP as a
single entity. GE manufactured particular parts of
the Fukushima Daiichi facility—the reactors. The
fact that reactors were not marketed broadly to
consumers does not detract from the fact that they
were designed and built for the FNPP. That is
sufficient, in a proper case, to be subject to
California’s products liability rules. See Rawlings
v. D.M. Oliver, Inc., 159 Cal. Rptr. 119, 122 (Ct. App.
1979) (holding that the fact that a product was not
mass produced has no effect on the manufacturer’s
responsibilities in manufacturing and selling
products).
Although there are no California defendants in
this case, there are plaintiffs who are California
residents. And California has a legitimate interest
in ensuring that its injured residents are
compensated for injuries resulting from the
design and manufacture of faulty products, as well
as providing an easy way to prove liability. So, the
interests served by California’s strict-productsliability laws are also relevant.

19a

We conclude, as did the district court, that there
is a so- called “true conflict” here. California has
an interest in holding manufacturers of defective
products liable in tort to ensure compensation for
its residents. Japan, on the other hand, has an
interest in consistent application of its liabilitylimiting statute to businesses participating in its
nuclear industry. We therefore move to the final
step of the analysis.
c. Japan’s Interests Would be More
Impaired if Its Law Were Not Applied
Once a true conflict is identified, we must
consider the “comparative impairment” step of the
analysis, which “seeks to determine which state’s
interest would be more impaired if its policy were
subordinated to the policy of the other state.”
Offshore Rental, 583 P.2d at 726. The conflict
“should be resolved by applying the law of the state
whose interest would be the more impaired if its
law were not applied.” Id. The purpose of this step
is not for us to judge which law is “better” or
“worthier” social policy; instead, we are “to decide—
in light of the legal question at issue and the
relevant state interests at stake—which jurisdiction
should be allocated the predominating lawmaking
power under the circumstances of the present
case.” McCann, 225 P.3d at 534.
California’s courts have frequently applied
foreign laws that serve to protect businesses by
limiting liability, even when applying that law

20a
precludes recovery by injured California residents.
For example, in Offshore Rental, a California
corporation brought a claim against a Louisiana
company for the loss of services of a “key”
employee who was injured on the defendant
company’s premises in Louisiana. 583 P.2d at 729.
The California Supreme Court noted that
Louisiana’s interest in applying its own law to the
case was “to protect negligent resident tortfeasors acting within Louisiana’s borders from the
financial hardships caused by the assessment of
excessive legal liability or exaggerated claims
resulting from the loss of services of a key
employee.” Id. at 725. California had made a
different choice in legal policies: California had
“an interest in protecting California employers from
economic harm because of negligent injury to a key
employee inflicted by a third party.” Id. Weighing
these competing interests, the court held that “[a]t
the heart” of Louisiana’s liability-limiting law was
“the vital interest in promoting freedom of
investment and enterprise within Louisiana’s
borders, among investors incorporated both in
Louisiana and elsewhere.” Id. at 728. Imposing
liability in this situation, when Louisiana had
decided not to, would therefore “strike at the
essence of a compelling Louisiana law.” Id.
Particularly because the accident occurred in
Louisiana, California’s interest in compensation
for injured California companies could not
overcome
Louisiana’s
greater
interest
in
protecting businesses operating there. Id. at 728–

21a
29. Applying Louisiana law and finding no cause
of action, the court affirmed dismissal of the suit.
Similarly, in McCann, the California Supreme
Court applied Oklahoma law that limited a
defendant’s liability even though it precluded
recovery for a California plaintiff. 225 P.3d at 537.
McCann was exposed to asbestos while working in
an oil refinery in Oklahoma in the 1950s. Many
years later he developed mesothelioma, and
brought suit in his home state, California, against
the manufacturer of a boiler installed in the
refinery. The manufacturer was a resident of
neither Oklahoma nor California, but of New
York. Relying on Offshore Rental, the court
applied Oklahoma’s 10-year statute of repose to the
plaintiff’s claim instead of California’s statute of
limitations.5 Id. The court noted that Oklahoma had
an interest in promoting commercial activity within
the state by limiting businesses’ liability, while
California had a general interest in ensuring
compensation for its injured residents, and had a
special interest in providing relief from “asbestosrelated harm.” Id. at 532.
Nevertheless, the
court concluded that applying California’s statute
of limitations would “significantly undermine
Oklahoma’s interest in establishing a reliable rule of
law governing a business’s potential liability for

Under Oklahoma’s statute of repose, the time for filing suit ran
from the time the construction project was completed, whether
McCann knew of his injury or not. Under California’s statute of
limitations, McCann had one year from the time he learned
of his mesothelioma. McCann, 225 P.2d at 521 & n.2, 523, 529.
5

22a
conduct undertaken in Oklahoma.” Id. at 535. In
contrast, failure to apply California law would have
had a less significant impact on California’s interest.
Id. While it precluded the plaintiff’s recovery,
California courts take a “restrained view” of
California’s interest in recovery for its residents for
injuries that occur in another jurisdiction. Id. at
535–36 (discussing Offshore Rental, 583 P.2d at
728, and Castro, 65 Cal. Rptr. 3d at 443–44). Given
Oklahoma’s strong interest in limiting liability for
commercial activity within its borders, the
California Supreme Court applied Oklahoma law
and dismissed the McCann’s claim. Id. at 537.
In light of this precedent, the district court
correctly decided that Japanese law should apply to
this case. Japan’s interests here are similar to
those at issue in Offshore Rental, McCann, and
other cases in which California courts (and
federal courts applying California’s choice-of-law
rules) have found that California’s interest in
compensation for injured residents failed to
overcome a foreign jurisdiction’s interest in
limiting defendants’ substantive liability for
injuries occurring within its borders. 6 Japan’s


See Arno v. Club Med Inc., 22 F.3d 1464, 1469 (9th Cir.
1994) (applying French law to plaintiff’s vicarious-liability
claim because Guadeloupe’s interest in “encouraging local
industry . . . and reliably defining the duties and scope of
liability of an employer doing business within its borders”
would be more impaired than California’s interest in “providing
compensation to its residents” if its law was not applied);
Castro, 65 Cal. Rptr. 3d at 443–44 (applying Alabama law
because its interest in allocating liability would be more
6

23a
interest here is in limiting liability for defendants
engaged in the nuclear-power industry in Japan.
Japan made a conscious decision to encourage
nuclear power in Japan. It balanced “providing
protection for injured parties” with “contributing to
the sound development of nuclear reactor
operations.” Compensation Act, ch. I, art. 1. Under
the Compensation Act, “the Nuclear Operator is
liable to compensate for damages in connection
with the Operation . . . of [the] Nuclear Reactor”
and “no other persons shall be liable to compensate
for damages other than the Nuclear Operator.” Id.
at ch. II, arts. 3–4. In comparing Japan’s and
California’s interests, we cannot judge which policy
embodies “the better or worthier rule,” but
instead must determine which jurisdiction’s interest
would be most “significantly impair[ed]” if its law
were not applied. McCann, 225 P.3d at 534.
We have little difficulty concluding that failure
to apply Japanese law in these circumstances
would significantly impair Japan’s interests.
Japan’s Compensation Act is directed specifically
at accidents at a nuclear facility; California’s
products liability rules are general in nature and
presumably cover everything from toasters to

impaired by application of California’s more permissive statute
than would California’s interest in compensation for injured
residents if Alabama law was applied); Tucci v. Club
Mediterranee, S.A., 107 Cal. Rptr. 2d 401, 408–12 (Ct. App. 2001)
(applying Dominican law in light of the Dominican Republic’s
superior interest in “assuring that businesses . . . face
limited and predictable financial liability for work-related
injuries”).

24a
airplanes. The release of radiation occurred at the
FNPP on Japanese soil and the United States sent
the U.S.S. Ronald Reagan to Japan in aid of the
disaster.7
Even if application of the Compensation Act
would bar any relief for these plaintiffs, we would
still be required to apply Japanese law. See
McCann, 225 P.3d at 537–38; Offshore Rental,
583 P.2d at 729. But application of Japanese law
does not entirely foreclose recovery for the
plaintiffs here.
Japanese law allows for
compensation for the plaintiffs’ injuries—just not
from GE. This makes application of Japanese law
less intrusive on California’s interests than in
cases like McCann and Offshore Rental. For these
reasons, Japanese law applies to the claims against
GE. Because there is no dispute on appeal that
application of Japanese law requires dismissal of
all claims against GE, we affirm the dismissal of
these claims with prejudice.8


Before the district court and in their opening brief, the
plaintiffs argued that the injury here did not occur in Japan
because it happened in international waters. In reply and at
oral argument, the plaintiffs amended that argument and now
claim that the injury occurred on “U.S. soil” because the
sailors were injured on U.S. ships. This argument, presented for
the first time in the reply, has been forfeited. See Rizk v.
Holder, 629 F.3d 1083, 1091 n.3 (9th Cir. 2011).
7

We therefore need not reach the alternative arguments in GE’s
brief.

8

25a
B. TEPCO
We next address TEPCO’s motion to dismiss.
The district court also engaged in a choice-of-law
analysis for the claims against TEPCO. After
determining that Japanese law should apply, the
court dismissed the claims against TEPCO on
international-comity grounds. We begin by
addressing the choice-of-law analysis. We then
consider international comity.
1. Choice of Law
The plaintiffs raise the same challenges to this
choice-of- law analysis as they did to the analysis of
the claims against GE. For the reasons previously
stated, the choice-of-law analysis is not premature
or inappropriate at this stage. As to the merits of
the choice-of-law analysis, the district court
correctly found that Japanese law also applies to
the plaintiffs’ claims against TEPCO.
a. The Laws Differ
There is no disagreement that the laws of
Japan and California differ in three ways with
regard to the claims against TEPCO. First, under
Japanese law, the Compensation Act is the exclusive
means of redress, Saikô Saibansho [Sup. Ct.] May
14, 2009, 2066 HANREI JIHÔ [HANJI] 54, 9 but

The cases cited here were explained in a detailed declaration
from Yasuhei Taniguchi, a retired professor of law who has
taught at several Japanese universities. In addition to an
LL.B. from Kyoto University, Professor Taniguchi holds an
LL.M. from the University of California at Berkeley and a J.S.D.
9

26a
under California law, there is no such exclusive
remedy. Second, the Compensation Act requires a
“high probability” of causation, Saikô Saibansho
[Sup. Ct.] Oct. 24, 1975, 29 Saikô Saibansho Minji
Hanreishû [Minshû] 1417, 1419–20, while
California negligence principles require the plaintiffs
to show only that their injuries were “more likely
than not” caused by radiation exposure. Jones v.
Ortho Pharm. Corp., 209 Cal. Rptr. 456, 460 (Ct.
App. 1985). Finally, Japanese law has a broad
definition of compensatory damages, including
damages for proprietary and material losses,
spiritual or mental suffering (“consolation money”),
and income lost over a lifetime, but it does not
recognize or allow for punitive damages, Saikô
Saibansho [Sup. Ct.] July 11, 1997, 51(6) Saikô
Saibansho Minji Hanreishû [Minshû] 2573, while
California law does. Cal. Civ. Code § 3294.
b. Both Jurisdictions Have Legitimate
Interests
The plaintiffs made no argument here or
before the district court regarding the interests of
either forum. We conclude that the same interests
are implicated here as in the analysis of the claims
against GE. California has an interest in ensuring
compensation for its injured residents, while
Japan has an interest in the consistent
application of the Compensation Act to protect its
nuclear industry. There is therefore a true conflict

from Cornell University. His analysis was credited by the
district court and is not disputed by the plaintiffs.

27a
and we proceed to step three of the governmentalinterest test.
c. Japan’s Interests Would be More
Impaired if Its Law Was Not Applied
The analysis at this step is also much the same
as for the claims against GE. As noted supra,
California courts have frequently applied foreign
laws like the Compensation Act—which serve to
limit liability for businesses—in these situations.
Japan has an even greater interest in its law
applying to the claims against TEPCO than it did
with respect to GE. TEPCO is a Japanese
corporation operating a nuclear reactor in Japan. It
is not only subject to general principles of Japanese
law but, as evidenced by the Compensation Act, to a
series of special rules regarding its responsibility
following a nuclear disaster, just as American
nuclear plant operators are subject to special
liability rules under the Price-Anderson Act. 10
Furthermore,
following
the
disaster
and
consistent with the Compensation Act, the
Japanese government has come forward to fund
compensation for the victims of the FNPP
meltdown. We were advised in TEPCO’s brief and
at oral argument that the Japanese government has
allocated, to date, more than $76 billion to
compensate victims, and that more than 21,000
victims have received some form of compensation.


See 42 U.S.C. § 2210. See also Duke Power Co. v. Carolina
Envtl. Study Grp., 438 U.S. 59, 63–67 (1978) (background on
the Act).
10

28a
Japan has a strong interest in the uniform
application of the Compensation Act. Subjecting
TEPCO to California’s negligence rules would
seriously undermine the comprehensive scheme in
the Compensation Act and impair Japan’s interests.
In contrast, California has an interest in seeing
the victims of a nuclear disaster compensated, but
that interest would be equally served under
Japanese law.11 The Compensation Act operates to
compensate those injured by nuclear accidents and
the plaintiffs offered no showing that they cannot
be adequately compensated for their injuries
under Japanese law.12
Because Japan’s interests would be more
impaired if California’s laws were applied than
California’s would if Japanese law were applied,
we conclude that Japanese law applies to the
claims against TEPCO and affirm the district
court’s holding on the choice-of-law issue. We now
proceed to the question of whether, given that
Japanese law must be applied in any proceedings
in the Southern District of California, the

Of course, as discussed, the plaintiffs would not be able to
recover punitive damages under Japanese law. But punitive
damages are not intended to compensate for a plaintiff’s losses,
see State Farm Mut. Auto. Ins. Co. v. Campbell, 538 U.S. 408,
416 (2003), and TEPCO has stated that injured parties will be
fully compensated for proven injuries.
11

At oral argument, TEPCO agreed to waive any statute of
limitations defense provided the plaintiffs filed their claims
in Japan within a reasonable amount of time.

12

29a
district court abused its discretion in dismissing
the case on international-comity grounds.
2. International Comity
“International comity ‘is the recognition which
one nation allows within its territory to the
legislative, executive or judicial acts of another
nation, having due regard both to international
duty and convenience, and to the rights of its own
citizens or of other persons who are under the
protection of its laws.’” Mujica v. AirScan Inc., 771
F.3d 580, 597 (9th Cir. 2014) (quoting In re Simon,
153 F.3d 991, 998 (9th Cir. 1998)) (other citations
omitted). It is “a doctrine of prudential abstention,
one that ‘counsels voluntary forbearance when a
sovereign which has a legitimate claim to
jurisdiction concludes that a second sovereign
also has a legitimate claim to jurisdiction under
principles of international law.’” Id. at 598
(quoting United States v. Nippon Paper Indus.
Co., 109 F.3d 1, 8 (1st Cir. 1997)). International
comity
embodies
the
policy
of
“good
neighbourliness, common courtesy and mutual
respect between those who labour in adjoining
judicial vineyards.” Id.
There are two kinds of international comity:
prescriptive
comity
(addressing
“the
extraterritorial reach of federal statutes”) and
adjudicative comity (a “discretionary act of
deference by a national court to decline to
exercise jurisdiction in a case properly adjudicated
in a foreign state”). Id. at 598–99. This case deals
only with adjudicative comity.

30a
In deciding whether to apply the doctrine of
adjudicative comity, the courts weigh “several
factors, including [1] the strength of the United
States’ interest in using a foreign forum, [2] the
strength of the foreign governments’ interests, and
[3] the adequacy of the alternative forum.” Id. at
603 (quoting Ungaro-Benages v. Dresdner Bank
AG, 379 F.3d 1227, 1238 (11th Cir. 2004))
(brackets in original)). In Mujica, we expounded
on how to assess the United States’ and the foreign
government’s interests in relying on a foreign forum:
The
(nonexclusive)
factors
we
should consider when assessing
[each country’s] interests include (1)
the location of the conduct in
question, (2) the nationality of the
parties, (3) the character of the
conduct in question, (4) the foreign
policy interests of the [countries], and
(5) any public policy interests.

Id. at 604; see also id. at 607. These considerations
need not be addressed mechanically.
We review the district court’s internationalcomity determination for an abuse of discretion
and reverse only if the district court applied an
incorrect legal standard or if its “application of the
correct legal standard was (1) ‘illogical, (2)
‘implausible,’ or (3) without ‘support in the
inferences that may be drawn from the facts in the
record.’” Id. at 589 (quoting United States v.
Hinkson, 585 F.3d 1247, 1262 (9th Cir. 2009) (en
banc)). The district court here “correctly laid out

31a
[the] legal standard,” so “the only question is
whether the district court’s decision . . . to dismiss
Plaintiffs’ claims was illogical, implausible, or
unsupported by the record.” Cooper III, 860 F.3d
at 1205.
In our previous opinion, we concluded that the
district court did not abuse its discretion when it
decided against dismissing the claims against
TEPCO on comity grounds. Id. at 1209. We
recognized that this was a “difficult case” and that
there were “strong reasons for dismissing the
plaintiffs’ claims in favor of a Japanese forum.” Id.
We noted that “further developments in the
district court may counsel in favor” of dismissal,
particularly once the district court determined
which jurisdiction’s law would apply. Id. at 1210
n.12. On remand, the district court reconsidered its
comity analysis based on new developments,
finding that these developments tilted the scales
towards dismissal. The location of the conduct in
question, nationality of the parties, nature of the
conduct, and the public-policy interests remained
the same. But after considering the statements from
the Japanese and United States governments—
which the district court did not have before it when
it first ruled on the issue—the district court found
that the foreign-policy interests now favored
dismissal. 13 And because the choice- of-law

The district court also left its previous decision on the
adequacy-of- the-alternative-forum factor undisturbed, and the
plaintiffs do not challenge this factor on appeal. They make
passing reference to “the disparities between the American
13

32a
analysis is relevant to comity decisions, the
district court found that its conclusion that
Japanese law applied also weighed in favor of
dismissal on comity grounds. The plaintiffs
contend that this was an abuse of discretion because
“nothing has changed except for the court’s
willingness to revisit the issue of international
comity and decide to punt this case to Japan.”
First, the conclusion that Japanese law applies to
the case does affect the comity analysis. See
Cooper III, 860 F.3d at 1210 n.12 (citing Mujica,
771 F.3d at 602; Ungaro- Benages, 379 F.3d at
1240). It was not an abuse of discretion for the
district court to take the applicability of Japanese
law into consideration. If Japan’s interest in the
applicability of its laws to this case was strong
enough to overcome California’s interests in the
choice-of-law analysis, it was not illogical or
implausible for the district court to find that Japan
had a similarly strong interest in being the place
where the plaintiffs’ claims are litigated. We can
take notice of the fact that if the suit proceeds in the

justice system and Japan’s,” but do so without citation to the
record or law that supports the implication that Japan would
be an inadequate forum. They claim that the defendants
needed to present “clear and incontrovertible evidence” that
Japan’s courts would not “deprive Plaintiffs of due process and
equal protection of law to which they are entitled,” but our
precedent imposes no such requirement. The plaintiffs raised
similar unsubstantiated claims of bias in their previous appeal,
but we found that there was “no doubt that Japan would provide
an adequate alternative forum.” Cooper III, 860 F.3d at 1209.
The district court did not abuse its discretion by leaving its
previous analysis of this factor in place.

33a
Southern District of California, the district court
will have to inform itself at every turn of the
nuances of Japanese civil law. That would
require understanding who bears the burden of
proof, principles of causation, and what constitute
compensable damages. Not only would the district
court have to educate itself on the law, but it would
need to understand how the Compensation Act has
been administered in the thousands of cases
resolved in Japan, lest the “change of courtrooms”
mean a change in result. Van Dusen, 376 U.S. at
639.
The other “significant change” that the
district court found affected its analysis was the
amicus briefs filed in our court during the first
appeal. Neither government had expressed its
views on litigating in U.S. courts before Cooper III.
After Japan filed an amicus brief in Cooper III
expressing a strong interest in the case being
litigated in Japan, we invited the United States
Department of State to give its views on whether
the litigation should proceed in the United States.
We considered both amicus briefs and found that14


In Cooper III, TEPCO and GE (appearing as amicus) argued
that dismissal on comity grounds would promote the
Convention on Supplementary Compensation for Nuclear
Damage (“CSC”). The United States argued that, in denying
dismissal on comity grounds, the district court did not abuse its
discretion. See Cooper III, 860 F.3d at 1199–1200. The CSC
guarantees that its contracting parties will have exclusive
jurisdiction over litigation arising out of a nuclear incident
within their borders. Because Japan was not a contracting
party to the CSC at the time of the FNPP disaster, the United
14

34a
they expressed “important, competing policy
interests” that required “difficult judgment calls”
from the district court. Cooper III, 860 F.3d at 1209.
On remand, the district court weighed the interests
expressed in the governments’ amicus briefs and
decided that, in light of the Japanese government’s
strong objection to the case being litigated in the
United States, the foreign-policy factor now
weighed in favor of dismissal.
This was a significant change from the first
time the district court engaged in the comity
analysis, despite the plaintiffs’ assertions to the
contrary. The first time the district court
considered the comity factors, neither Japan nor the
United States had expressed an opinion to the
district court about the appropriate venue for the
litigation. It was not improper for the district
court to reconsider its previous holding in light of
those statements.
The plaintiffs suggest that the district court
effectively “overruled the Ninth Circuit,” by
weighing the amicus briefs and coming to a
different conclusion. But the district court did
nothing of the kind. In Cooper III, we fairly invited
the district court to revisit the comity analysis if
and when circumstances changed. Id. at 1210 &
n.12. And the statement from both governments
about where the litigation should proceed was a

States objected to the courts relying on this argument from
TEPCO and GE. Otherwise, the United States argued that it
had “no specific foreign policy interest necessitating dismissal
in this particular case.” Id. at 1208.

35a
changed circumstance for the district court. The
argument that the statements were not new
because we had them before us in Cooper III
misunderstands the scope of our review in that case.
The question before us then was not whether we,
with the benefit of the statements, would have
dismissed the suit on comity grounds, but whether
the district court had abused its discretion with the
information that it had. We were careful in
stating our standard of review in that case. Cooper
III, 860 F.3d at 1205, 1209. Once the district court
had the positions of the United States and
Japanese governments before it, it was entirely
proper for the district court to revisit the comity
analysis.
In its amicus brief, Japan strongly objected to
this case being litigated in the United States.
Japan has committed a significant sum of money
and resources to ensure fair and consistent
compensation for accident victims. Japan pointed
out that if injured parties could bring their claims
anywhere in the world, foreign courts might apply
different legal standards, resulting in different
outcomes for similarly situated victims. See id. at
1207. This would seriously affect the integrity of
the compensation system established by the
Japanese government. And because the Japanese
government is financing TEPCO’s compensation
payments, which are administered through
Japanese courts, that risk is particularly
troublesome. See id. at 1209 (“Japan has an
undeniably
strong interest in centralizing
jurisdiction over FNPP-related claims.”). If Japan

36a
cannot
exercise
some
control
over
the
compensation process, it may be less willing to
compensate FNPP victims who seek remedies
outside of a Japanese forum. That may
complicate the victims’ ability to be compensated.
See Cooper III, 860 F.3d at 1207 (“Judgments
originating in American courts may well be
inconsistent with the overall administration of
Japan’s compensation fund.”)
When the district court revisited the comity
factors, it noted TEPCO’s argument that Japan’s
interests “have only grown stronger” since its brief
was filed. With the benefit of this position, the
district court found that the foreign policy factor
weighed in favor of dismissal, despite the United
States’ “important, competing policy interest.”
The plaintiffs contend that it was illogical for the
district court not to consider the United States’
amicus brief in its analysis and that the district
court owed deference to the State Department’s
opinion about whether to exercise jurisdiction. But
the district court acknowledged the United States’
statement and its competing foreign-policy
concerns in its order. And to the extent that the
plaintiffs contend that the State Department’s brief
is an affirmative statement from the government
that was entitled to special deference, the
plaintiffs overstate their case. The plaintiffs point
to no principle that requires district courts to defer
to statements of interest from the United States.
We will give “serious weight to” such statements,
Sosa v. Alvarez-Machain, 542 U.S. 692, 733 n.21

37a
(2004), but “[a] statement of national interest
alone. . . does not take the present litigation outside
the competence of the judiciary,” Ungaro-Benages,
379 F.3d at 1236.
Moreover, the United States issued a careful,
cautious statement. The United
States
first
“applaud[ed] the Government of Japan’s impressive
efforts to provide recovery for damages caused by the
nuclear accident at the Fukushima- Daiichi power
plant, including through the creation of an
administrative compensation scheme that has
paid over $58 billion in claims.” It did express an
interest in Japan not retroactively receiving
exclusive jurisdiction over suits under the CSC,
which Japan had not signed at the time of the FNPP
incident. And, for that reason, the U.S. urged us
not to overturn the district court’s decision in
Cooper III. See Cooper III, 860 F.3d at 1207–09.
But outside of that, the United States said only
that although “a district court could choose to
dismiss a case based on international comity for a
claim arising overseas[,] . . . [t]he United States
has no specific firm policy interest necessitating
dismissal in this particular case.” The United
States stopped well short of urging that California
was the proper forum to exercise jurisdiction in
this case. The United States thus voiced its
concerns with the reasons for which the district
court would grant dismissal on comity grounds,
but expressed no objection that Japan be
permitted to adjudicate these claims in its own
courts.

38a
The United States’ measured response pales in
comparison to Japan’s unequivocal objection to the
exercise of jurisdiction in U.S. courts. Recognizing
Japan’s interests under these circumstances was
not illogical or implausible, particularly once the
district court determined that Japanese law would
apply to the claims.
We acknowledge that the case is complicated.
It implicates strong, important policy interests in
both countries. But comity is a “fluid doctrine”
that can “change in the course of the litigation.”
Cooper III, 860 F.3d at 1210. We invited the
district court to reevaluate its decision in
appropriate circumstances. The district court did
so, and carefully explained its reasons. Having
decided that Japanese law applies to the case and
considering Japan’s strong interests in the case
being litigated in Japan, the district court did not
abuse its discretion when it dismissed the claims
against TEPCO on international-comity grounds.15
III.CONCLUSION
We affirm the district court’s granting of both
GE’s and TEPCO’s motions to dismiss.
AFFIRMED.


In light our disposition, we do not reach TEPCO’s
personal- jurisdiction argument.

15

39a
APPENDIX B

UNITED STATES DISTRICT COURT SOUTHERN
DISTRICT OF CALIFORNIA
LINDSAY COOPER, et
al.,

Case No.: 12cv3032-JLS
(JLB)

Plaintiff,

ORDER: (1) GRANTING
GE’S
MOTION
TO
DISMISS;
AND
(2)
GRANTING
TEPCO’S
MOTION TO DISMISS

v.
TOKYO ELEC. POWER
CO.
HOLDINGS, et al.,

Defendants.
Presently before the Court is Defendant
Tokyo Electric Power Company, Inc.’s (“TEPCO”)
Motion to Dismiss, (“TEPCO MTD,” ECF No. 153),
and Defendant General Electric’s (“GE”) Motion to
Dismiss, (“GE MTD,” ECF No. 152). Plaintiffs have
filed a Response in Opposition to TEPCO’s Motion,
(“Opp’n to TEPCO MTD,” ECF No. 155), and to
GE’s Motion, (“Opp’n to GE MTD,” ECF No.
154). TEPCO filed a Reply, (“TEPCO Reply,”
ECF No. 157), as did GE, (“GE Reply,” ECF No.
156). Having reviewed the parties’ arguments and
the law, the Court rules as follows.
BACKGROUND

On March 11, 2011, an earthquake struck
Japan, giving rise to tsunami waves that struck

40a
Japan’s Fukushima-Daiichi Nuclear Power Plant
(“FNPP”). Third Amended Complaint (“TAC”) ¶¶
112, 113, 119, 127, ECF No. 71. The plant’s
radioactive core melted down causing severe
damage to the plant and releasing radiation as a
result. Id. ¶ 182. Plaintiffs are members of the U.S.
Navy crews of the U.S.S. RONALD REAGAN, crews
of other vessels participating in the Reagan Strike
Force, land-based service personnel, and/or their
dependents. Id. ¶ 2. Plaintiffs were deployed to
Japan as part of a mission known as “Operation
Tomodachi.” Id. Plaintiffs allege that the FNPP
released radioisotopes and exposed them to
injurious levels of ionizing radiation during the
mission. Id. The release of radiation and
subsequent injuries resulted from “negligently
designed and maintained” Boiling Water Reactors
at the FNPP. Id. ¶ 83.
Plaintiffs initiated this action against TEPCO,
the owner and operator of the FNPP, on December
21, 2012. TEPCO moved to dismiss. The Court
granted TEPCO’s motion without prejudice. ECF
No 46. Plaintiffs filed a Second Amended
Complaint (“SAC”), which TEPCO moved to
dismiss, and the Court granted in part and denied
in part this motion, again permitting Plaintiffs to
file an amended complaint. ECF No. 69. Plaintiffs
filed their Third Amended Complaint (“TAC”),
naming GE as an additional defendant, along with
three other manufacturer defendants EBASCO,

41a
Toshiba, and Hitachi. 1 ECF No. 71. TEPCO then
moved for reconsideration of the Court’s order
regarding its second motion to dismiss. ECF No.
73. The Court amended its order and granted
TEPCO’s motion for certification of interlocutory
appeal and stayed the case at the district court level.
ECF No. 107. The Ninth Circuit affirmed the
Court’s denial of TEPCO’s Motion to Dismiss
Plaintiffs’ SAC. See 860 F.3d 1193.
Plaintiffs’ TAC asserts both individual and
class action claims. See generally TAC. Their
causes of action include negligence, strict
products
liability,
strict
liability
for
ultrahazardous activities, res ipsa loquitur,
negligence per se, loss of consortium, and
survival and wrongful death. Id. Plaintiffs make
these claims against TEPCO as the owner and
operator of the FNPP, id. ¶¶ 85, 96, and against
GE as the designer of the Boiling Water Reactors
within the FNPP. Id. ¶¶ 88, 141. Both GE and
TEPCO have moved to dismiss this case against
them. The Court addresses each Motion in turn.
GE’S MOTION TO DISMISS

In its Motion, GE argues that this Court lacks
subject matter jurisdiction over this case. GE MTD
at 19–21. Next, GE argues that this Court should
conduct a choice-of-law analysis and apply Japan’s
Act on Compensation for Nuclear Damage, Act No.
147 of June 17, 1961 (“Compensation Act”), which

Plaintiffs have voluntarily dismissed their claims against
EBASCO, Toshiba, and Hitachi. ECF No. 139.
1

42a
precludes GE from liability for nuclear events. GE
MTD at 21–32.2
I.

Subject Matter Jurisdiction

GE argues that this Court lacks subject matter
jurisdiction because (1) Plaintiffs fail to satisfy
diversity jurisdiction under 28 U.S.C. § 1332(a),
and (2) Plaintiffs’ attempt to invoke jurisdiction
under the Class Action Fairness Act (“CAFA”) fails to
show that “class certification will ever be
warranted.” GE MTD at 19–20.

A.

Diversity Jurisdiction Under Section
1332

The United States Supreme Court has
“consistently interpreted § 1332 as requiring
complete diversity: In a case with multiple plaintiffs
and multiple defendants, the presence in the action
of a single plaintiff from the same State as a single
defendant deprives the district court of original
diversity jurisdiction over the entire action.” Exxon
Mobil Corp. v. Allapattah Servs., Inc., 545 U.S. 546,

GE also argues that the Court should dismiss Plaintiffs claims
under the doctrine of forum non conveniens or the political
question doctrine. Further, GE argues that, if California law
applies, Plaintiffs claims are time-barred and that Plaintiffs
fail to state a claim against GE for several factual and legal
deficiencies in the Complaint. Finally, GE argues that all
claims against GE should be dismissed as a matter of
international comity and that the Court lacks jurisdiction
because the of Convention on Supplemental Compensation
for Nuclear Damage. Because the Court agrees with GE that
Japanese law applies, the Court does not reach these
arguments.

2

43a
553 (2005).
GE argues Plaintiffs fail to establish diversity
jurisdiction because they fail to meet the section
1332 requirement of complete diversity of
citizenship. GE MTD at 19. Plaintiffs do not
oppose this contention. See generally Opp’n to GE
MTD. In the TAC, Plaintiffs allege that GE is
incorporated in New York and has its principle place
of business in Connecticut.
TAC ¶¶ 87–88.
Plaintiffs state that Plaintiff Jedediah Irons is a
citizen New York. Id. ¶ 81. Because both GE and
Mr. Irons are citizens of New York, complete
diversity is defeated and this court lack subject
matter jurisdiction under section 1332.

B.

Subject Matter Jurisdiction Under
CAFA

The Class Action Fairness Act of 2005 provides
“expanded original diversity jurisdiction for class
actions.” United Steel, Paper & Forestry, Rubber,
Mfg., Energy, Allied Indus. & Serv. Workers Int’l
Union, AFL-CIO, CLC v. Shell Oil Co., 602 F.3d
1087, 1090–91 (9th Cir. 2010). Jurisdiction under
CAFA requires the total number of members of the
proposed plaintiff class be 100 or more persons and
the primary defendants not be “States, State
officials, or other governmental entities against
whom the district court may be foreclosed from
ordering relief.” 28 U.S.C. § 1332(d)(5); see also
Serrano v. 180 Connect, Inc., 478 F.3d 1018, 1020
(9th Cir. 2007). Once these threshold requirements
are met, federal courts are vested with “original
jurisdiction of any civil action in which the matter

44a
in controversy exceeds . . . $5,000,000” and in which
any member of the class is a citizen of a State
different from any defendant.
28 U.S.C. §
1332(d)(2).
GE argues that this is not a class action, and
thus “Plaintiffs cannot avail themselves of CAFA’s
minimal diversity provision.” GE MTD at 19. GE
points to statements by Plaintiffs’ counsel that
acknowledge that the case is “primarily a mass
tort case,” not a “class case.” Id. (quoting Aug. 31,
2017 Status Conference Tr. at 59, ECF No. 145).
Further, GE argues that the TAC reveals no basis to
believe that class certification will ever be
warranted. Id. at 7. Plaintiffs contend that their
TAC satisfies all the CAFA requirements and that
jurisdiction is appropriate. Opp’n to GE MTD at
11–12.
Here, there are 239 named Plaintiffs, and
Plaintiffs allege no claims against any State or
governmental entity. See generally TAC. The
prayer for relief demands $1,000,000,000, meeting
the amount in controversy requirement. See TAC
Prayer. Further, Lindsay Cooper is a citizen of
California, while GE is a citizen of New York (state
of incorporation) and Connecticut (principle place of
business), thus minimal jurisdiction is also
satisfied. Accordingly, the TAC meets the CAFA
jurisdictional requirements. See 28 U.S.C. §
1332(d)(11)(b).
Despite GE’s contentions that there are
insufficient allegations to certify the class alleged
here, none of these alleged flaws are “so obviously

45a
fatal as to make the plaintiff’s attempt to maintain
the suit as a class action frivolous.”
See
Cunningham Charter Corp. v. Learjet, Inc., 592
F.3d 805, 807 (7th Cir. 2010). Accordingly, the
Court concludes that there is subject matter
jurisdiction under CAFA.
II.

Choice-of-Law

GE requests the Court perform a choice-oflaw analysis as to the issue of GE’s liability,
arguing Japanese law applies and precludes GE
from liability. 3 GE MTD at 21–32. Plaintiffs
argue that the Court should defer making a choiceof-law analysis at this point, although California
substantive law should apply to the case and GE
is strictly liable.4 Opp’n to GE MTD at 14–24.

In their briefs and at oral argument, Plaintiffs asserted that
the Ninth Circuit has already expressed a position on GE’s
arguments regarding the choice-of-law issue. See, e.g., Opp’n to
GE MTD at 21. But, as the Ninth Circuit made clear, “the
district court has yet to undergo a choice-of-law analysis” and
it is yet to be determined “what body of law applies.” Cooper v.
Tokyo Elec. Power Co., 860 F.3d 1193, 1215 (9th Cir. 2017).
Further, the issue regarding the applicability of the
Compensation Act was not before the Ninth Circuit.
3

The Parties also reference American federal law in their
choice-of-law arguments. Plaintiffs argue the Court could
“potentially even cobbl[e] together the appropriate law from
California, Japan, American federal law and other appropriate
sources,” Opp’n to GE MTD at 11, but ultimately take the
position that, if the Court does consider choice of law, it should
apply California law. Id. at 14. Based on the pleadings, the
claims alleged, and the facts of the case, the Court will
4

46a
In a diversity case, the district court must apply the
choice-of-law rules of the state in which it sits. See
Klaxon Co. v. Stentor Elec. Mfg. Co., 313 U.S.
487, 496 (1941); Ledesma v. Jack Stewart
Produce, Inc., 816 F.2d 482, 484 (9th Cir. 1987).
California applies a three-step “governmental
interest” analysis to choice-of-law questions:
First, the court examines the
substantive law of each jurisdiction to
determine whether the laws differ as
applied to the relevant transaction.
Second, if the laws do differ, the court
must determine whether a “true
conflict” exists in that each of the
relevant jurisdictions has an interest
in having its law applied. “If only one
jurisdiction
has
a
legitimate
interest in the application of its rule
of decision, there is a ‘false conflict’
and the law of the interested
jurisdiction is applied.” On the other
hand, if more than one jurisdiction has
a legitimate interest, “the court must
move to the third stage of the analysis,
which focuses on the ‘comparative
impairment’
of
the
interested
jurisdictions. At this stage, the court
seeks to identify and apply the law of
the state whose interest would be the
more impaired if its law were not

conduct its choice-of-law analysis as to the laws of California
or Japan.

47a
applied.

Abogados v. AT&T Inc., 223 F.3d 932, 934 (9th
Cir. 2000) (internal citations omitted). Generally,
the preference is to apply California law, rather
than choose the foreign law as a rule of decision.
Strassberg v. New England Mut. Life Ins. Co., 575
F.2d 1262, 1264 (9th Cir. 1978). “[T]he party
seeking to dislodge the law of the forum[] bears
the burden of establishing that the foreign
jurisdiction has an interest, cognizable under
California
conflict-of-law principles, in the
application of its law to the dispute at hand.”
McGhee v. Arabian Am. Oil Co., 871 F.2d 1412,
1424 (9th Cir. 1989).
A.

Preliminary Choice-of-Law Issues

Before the Court conducts the choice-of-law
analysis, it addresses Plaintiffs’ preliminary
arguments regarding the appropriateness of
conducting the analysis at this point in the
litigation.
Plaintiffs argue that the choice-of-law
determination requires additional time and
development to analyze fully, thus the Court should
not decide the issue at the motion-to- dismiss
stage. Opp’n to GE MTD at 21–24. The Court
disagrees. “The question of whether a choice-of-law
analysis can be properly conducted at the motion to
dismiss stage depends on the individual case.”
Czuchaj v. Conair Corp., No. 13-cv-1901 BEN
(RBB), 2014 WL 1664235, at *9 (S.D. Cal. Apr.
18, 2014). As long as a court has sufficient

48a
information to analyze the choice-of-law issue
thoroughly, see In re Graphics Processing Units
Antitrust Litig., 527 F. Supp. 2d 1011, 1028 (N.D.
Cal. 2007), and discovery will not likely affect the
analysis, see Frezza v. Google Inc., No. 5:12-cv00237-RMW, 2013 WL 1736788, at *5–6 (N.D. Cal.
Apr. 22, 2013), it is appropriate for the Court to
undertake a choice-of-law analysis at the motion-todismiss stage. Here, GE and Plaintiffs fully briefed
the issues, and discovery will not affect the analysis.
Thus, the Court finds that there is adequate
information to analyze the specific choice-of-law
determination as to the issue of GE’s liability.
Next, Plaintiffs argue that the Compensation
Act’s channeling provision is procedural, not
substantive, and therefore not appropriate for the
Court apply. Opp’n to GE MTD at 21–24. Whether
or not the Court applies Japanese law or California
law in the first place is a choice-of-law issue, and
choice-of-law rules are considered “substantive.”
Patton v. Cox, 276 F.3d 493, 495 (9th Cir. 2002) (a
federal court in a diversity case must apply the
choice-of-law rules of the state in which it sits); see
also O’Connell & Stevenson, Rutter Group Practice
Guide: Fed. Civil Procedure Before Trial, Ch. 1-B
(The Rutter Group 2017) (same). The law of
California will therefore dictate which forums law
will apply to this case.
As for the Compensation Act itself, the Court
concludes that this issue is substantive. Plaintiffs
have provided no authority to support their
assertion that application of the Compensation

49a
Act’s channeling provision is procedural. Applying
the Compensation Act would significantly affect
the result of this litigation because whether or not
the Compensation Act is applied determines the
entire case as to GE’s liability. This makes the Act
a substantive one, and thus proper for the Court
sitting in diversity to apply. See Gasperini v. Ctr.
for Humanities, Inc., 518 U.S. 415, 427 (1996)
(finding issue substantive if applying the foreign
law, rather than the forum State’s law,
“significantly affect[s] the result of a litigation”).

B.

Choice-of-Law Analysis

1.

Differences in the Forum Laws

The first factor in California’s governmental
interest test asks whether the laws of the two
forums differ. The Parties and the Court all agree
the laws absolutely conflict.
Under Japanese law, the Compensation Act
applies. The Compensation Act channels liability
for nuclear damage exclusively to the licensed
operator of a nuclear installation.
See
Compensation Act, art. 3 & 4 (when a Nuclear
Operator in the course of Operation of a Nuclear
Reactor causes Nuclear Damage, “no other persons
shall be liable to compensate for damages other
than the Nuclear Operator”). The Parties agree that,
if the Court were to apply this Act, it must dismiss
all claims against GE.
In contrast, California law holds the
manufacturer liable if a product is defective.
Under California law, “[a] manufacturer is strictly

50a
liable for injuries caused by a product that is (1)
defectively manufactured, (2) defectively designed,
or (3) distributed without adequate instructions or
warnings of its potential for harm.” Hufft v.
Horowitz, 4 Cal. App. 4th 8, 13 (1992) (citing Barker
v. Lull Eng’g Co., 20 Cal. 3d 413, 428 (1978)). If
Plaintiffs prove that GE defectively manufactured
or designed the reactor, under California law, GE
would be strictly liable for Plaintiffs’ injuries.

2.

“True Conflicts” Analysis

The second factor in California’s governmental
interest test requires the Court to evaluate each
jurisdiction’s interest in the application of its law to
the issue at hand. The Court must examine the
governmental policies underlying the California
and Japanese laws, “‘preparatory to assessing
whether either or both states have an interest in
applying their policy to the case.’ Only if each of the
states involved has a ‘legitimate but conflicting
interest in applying its own law’ will [the court] be
confronted with a ‘true’ conflicts case.” Offshore
Rental Co. v. Cont’l Oil Co., 22 Cal. 3d 157, 163
(1985) (internal citations omitted). “When one of
two states related to a case has a legitimate
interest in the application of its law and policy
and the other has none, there is no real problem;
clearly the law of the interested state should be
applied.” Hernandez v. Berger, 102 Cal. App. 3d
795, 799 (1980) (internal citations omitted).

a.

California’s Interest

51a
Plaintiffs
allege
GE’s
Boiling
Water
Reactors
contained
numerous
design
and
manufacturing defects for which GE should be liable.
TAC ¶ 83. As noted, California law holds
manufacturers
strictly
liable
for
products
defectively manufactured or designed. Hufft, 4
Cal. App. 4th at 13. The governmental interest
underlying California’s strict products liability law
“is to insure that the costs of injuries
resulting from defective products are
borne by the manufacturers that put
such products on the market rather
than by the injured persons who are
powerless to protect themselves.” . . .
The other purposes, or public
policies, behind the creation of the
doctrine of strict products liability in
tort as a theory of recovery are: “(1)
to provide a ‘short cut’ to liability
where negligence may be present but
difficult to prove; (2) to provide an
economic incentive for improved
product safety; (3) to induce the
reallocation of resources toward safer
products; and (4) to spread the risk of
loss among all who use the product.”

Barrett v. Super. Ct., 222 Cal. App. 3d 1176, 1186
(1990) (internal citations omitted).
Plaintiffs argue California has a strong
interest in applying its laws to this case because
California seeks to protect U.S. servicemen and
women stationed and serving the Naval and Marine

52a
branches in the Southern District of California.
Opp’n to GE MTD at 16–17 & 17 n.1. Plaintiffs
also argue California has a strong public policy
behind protecting those injured on account of
defective products. Id. at 18. The primary purpose
behind California’s strict products liability law is
to guarantee that the costs of injuries resulting
from defective products are borne by manufacturers,
not victims. Id. at 18–19 & 19 n.2. The Court agrees
this interest is significant and, thus, California has
an interest in ensuring compensation for the
victims from California.
California has no interest, however, in
ensuring compensation for plaintiffs who neither
are California residents nor injured in California.
See Chen v. L.A. Truck Ctrs., LLC, 7 Cal. App.
5th 757, 771 (2017) (citing Hurtado v. Super. Ct.,
11 Cal. 3d 574, 583 (1974)). Although California
has an interest in ensuring compensation for the
Plaintiffs residing in California, this interest does
not extend to the other, non-resident Plaintiffs.
Other interests tied to California’s strict
products liability do apply to non-residents.
Specifically, California has an interest in
encouraging corporations to manufacture safe
products regardless of whether these products will
affect California residents. See Hurtado, 11 Cal.
3d at 583–584. California also has an interest in
deterring defective nuclear power plants, both
through the strict liability imposed in California for
Defective products and the availability of punitive
damages. These are significant interests that apply

53a
whether or not Plaintiffs reside in California.
After weighing these factors, the Court finds
that California has a strong interest in having its
strict products liability law apply to this matter.

b.

Japan’s Interest

GE argues that Japan has a compelling interest
in “applying its own law on allocation of liability to a
nuclear power plant accident occurring in Japanese
territory.” GE MTD at 26–27. GE cites this
Court’s past Order, wherein it stated, “Japan has
an interest in adjudicating claims arising from the
March 11, 2011 earthquake and tsunami that
devastated large swaths of the country as
evidenced by Japan's large investment in
responding to the disaster.” GE MTD at 26 (citing
ECF No. 69 at 28).
Japan also has an interest because it is the
place of the wrong. The “place of the wrong” is the
state where the last event necessary to make the
actor liable occurred. Mazza v. Am. Honda Motor
Co., 666 F.3d 581, 593 (9th Cir. 2012) (citing Zinn
v. Ex-Cell-O Corp., 148 Cal. App. 2d 56, 80 n.6
(1957)). Plaintiffs’ injuries occurred off the coast of
Japan as a result of the release of radioisotopes
from the FNPP, TAC ¶ 84, and “the situs of the
injury remains a relevant consideration” in choiceof-law issues. Offshore Rental, 22 Cal. 3d at 168.
Finally, Japan has an interest in imposing liability
based on and consistent with the Compensation
Act.
“When a state adopts a rule of law

54a
limiting liability for commercial
activity conducted within the state in
order to provide what the state
perceives is fair treatment to, and
an
appropriate
incentive
for,
business enterprises, . . . the state
ordinarily has an interest in having
that policy of limited liability applied
to
out-of-state
companies
that
conduct business in the state, as
well as to businesses incorporated
or headquartered within the state.”

McCann, 48 Cal. 4th 68, 91 (2010); see also McGhee,
871 F.3d at 464 (holding Turkey has “a legitimate
interest in limiting the liability of corporations that
conduct business within its borders”).
After considering these interests, the Court
concludes that Japan also has a strong interest in
resolving the issues surrounding the incident, which
occurred in Japan. Having found that both Japan
and California have an interest in having their own
laws applied, a true conflict exists.

3.

Comparative Impairment
Analysis

Once the trial court “determines that the laws
are materially different and that each state has an
interest in having its own law applied, thus
reflecting a true conflict, the court must take the
final step and select the law of the state whose
interests would be “more impaired’ if its law were
not applied.” Wash. Mut. Bank, FA, 24 Cal. 4th

55a
at 920. “In making this comparative impairment
analysis, the trial court must determine ‘the
relative commitment of the respective states to the
laws involved’ and consider ‘the history and
current status of the states’ laws,’ and ‘the
function and purpose of those laws.’”5 Id. (quoting
Offshore Rental, 22 Cal. 3d at 167). “Accordingly,
[the Court’s] task is not to determine whether the
[Japanese] rule or the California rule is the better
or worthier rule, but rather to decide—in light of
the legal question at issue and the relevant []
interests at stake—which jurisdiction should be
allocated the predominating lawmaking power
under the circumstances of the present case.”
McCann, 48 Cal. 4th at 97.
Plaintiffs argue California’s interest would be
significantly impaired if Japanese law were applied
because GE’s liability would go “unexamined” and
GE would evade financial responsibility for its
alleged misdeeds. Opp’n to GE MTD 19 n.2.
According to Plaintiffs, without a finding of liability

Neither Party makes any arguments as to the “history and
current status of the states’ laws.” Offshore Rental, 22 Cal.
3d at 167. In Offshore Rental, the court found California’s
law to be “unusual and outmoded” in contrast to Louisiana’s
“prevalent and progressive” law, a fact the court found
weighed toward Louisiana having a stronger interest in
applying its law. Id. There is nothing to indicate either
California’s law on product liability or Japan’s Compensation
Act are outmoded; indeed, both remain prevalent today. See
Chen, 7 Cal. App. 5th 757 (applying California’s strict liability
law in 2017); Nasu Decl. 9 (noting the Act has been, and
continues to be, applied to provide compensation to the victims
of the 2011 incident at the Fukushima Plant).
5

56a
as to GE, Plaintiffs’ rights will not be vindicated,
California’s interest in ensuring victims are
compensated would be frustrated, and California
could be responsible for Plaintiffs’ long-term
medical bills. Id.; see also Munguia v. Bekens Van
Lines, LLC, No. 1:11-cv-01134-LJO-SKO, 2012 WL
5198490, at *5 (E.D. Cal. Oct. 19, 2012) (concluding
California has an interest that “its residents are
compensated for their injuries and do not become
dependent on the resources of California for
necessary medical, disability, and unemployment
benefits”).
Predictably, GE disagrees. GE contends that
the Compensation Act could fully compensate
Plaintiffs for their injuries. GE MTD at 30. Under
the Compensation Act, Plaintiffs with valid claims
may recover against TEPCO––the operator liable
for such injuries––which has already acknowledged
its liability for any harm caused by the radiation and
has already paid over $70 billion to compensate
those affected by the incident. Id.
The Court finds no convincing support for
Plaintiffs’ assertion that Japanese law will leave
them with “minimal and insufficient damages”
requiring the U.S. Government or California to
pick up the financial balance. And while Plaintiffs’
contention that litigating in the Japanese forum will
be exponentially more difficult than litigating in
California may be true, Plaintiffs have shown no
law or facts that indicate that the Japanese forum is
closed to any of the named, or unnamed, Plaintiffs.
As the California Supreme Court has held, “the

57a
policy underlying a statute may [] be less
‘comparatively pertinent’ if the same policy may
easily be satisfied by some means other than
enforcement of the statute itself.” Offshore
Rental, 22 Cal. 3d at 166. Such is the case here.
Because compensation for Plaintiffs’ injuries is
available in the Japanese forum, Plaintiffs have not
demonstrated how, or to what extent, California’s
policy of compensating injured victims will be
frustrated.
Plaintiffs also argue that California’s interest
in deterring tortfeasors would be greatly
impaired. Opp’n to GE MTD 18–20. If Japanese law
is applied, Plaintiffs concede that dismissal of their
claims would follow. They argue that, if this occurs,
no forum would be capable of holding GE
responsible, thwarting California’s interest in
deterrence. Id. at 18.
Although deterrence is a legitimate interest,
“California decisions have adopted a restrained
view of the scope or reach of California law with
regard to the imposition of liability for conduct
that occurs in another jurisdiction and that would
not subject the defendant to liability under the law
of the other jurisdiction.” McCann, 48 Cal. 4th at
99. For example, in McCann, the California
Supreme Court applied California’s choice-of-law
analysis and determined that the application of
Oklahoma law was more appropriate, despite the
fact that Oklahoma’s statute of limitations barred
the plaintiff––a California resident exposed to
asbestos in Oklahoma––while California’s statute

58a
of limitations did not. 48 Cal. 4th at 99. Although
that decision meant the plaintiff could not recover at
all from the defendant, the court held Oklahoma had
a “predominate interest” in regulating conduct that
occurred within its borders and an interest “in being
able to assure individuals and commercial entities
operating within its territory that applicable
limitations on liability set forth in the
jurisdiction’s law will be available to those
individuals and businesses in the event they are
faced with litigation in the future.” Id. at 97.
Likewise, in Offshore Rental, the California
Supreme Court applied Louisiana law in a case
involving a California corporation seeking to
recover for loss of services of an employee injured
in Louisiana. 22 Cal. 3d at 160. The court concluded
that, “[b]y entering Louisiana, plaintiff exposed
itself to the risks of the territory, and should not
expect to subject defendant to a financial hazard
that Louisiana law had not created.” Id. at 169
(internal quotations and alterations omitted).
Louisiana’s “vital interest in promoting freedom
of investment and enterprise within Louisiana’s
borders” prevailed over California’s interest in
compensating residents. Id. at 168 (emphasis in
original).
The reasoning from both McCann and Offshore
Rental is applicable to the present case and weighs
in favor of Japan having the more impaired interest.
Japan has an interest in ensuring the uniform
applicability of the Compensation Act, which
limits liability to companies operating in Japan in

59a
the field of nuclear reactor operations. Japan
instituted the Compensation Act to encourage
businesses to participate in Japan’s nuclear
industry, and it has an interest in applying its
law fairly to all businesses who participate. See
Declaration of Kohei Nasu (“Nasu Decl.”), ECF No.
152-22 at 9; see also Meraz v. Ford Motor Co., No.
CV 13-00260 PSG (VBKXx), 2014 WL 12558123, at
*5 (C.D. Cal. June 13, 2014) (citing McCann to hold
Georgia has an interest in limiting liability for
commercial activity conducted within the state to
provide fair treatment to, and an appropriate
incentive for businesses to operate within the
state). Furthermore, Plaintiffs boarded a vessel
destined for Japan, thus exposing themselves to the
“risks of the territory.” Plaintiffs therefore cannot
expect to subject GE to a “financial hazard” under
California law because one of the ships carrying
Plaintiffs that provided aid to Japan had a home
port of San Diego. Castro v. Budget Rent-A-Car Sys.,
Inc., 154 Cal. App. 4th 1162, 1180 (2007) (finding
that because incident occurred within Alabama’s
borders, Alabama had a “presumptive interest in
controlling the conduct of those persons who use
its roadways, absent some other compelling interest
to be served by applying California law”).
In sum, after balancing the impairments and
reviewing the relevant case law, the Court is
persuaded that Japan’s interests would be “more
impaired” if its law was not applied to this matter.
Accordingly, Japanese law applies to the issue of
GE’s liability.

60a

C.

Application of Japanese Law

Having determined that Japanese law
applies, the Court must next determine the
ramification of that finding. Article 3 of the
Compensation Act provides that, when damage
that is attributable to the operation of a nuclear
reactor occurs, the Nuclear Operator is liable for
all damages in connection with the operation of the
nuclear reactor. Compensation Act, art. 3. Article 4
provides, in the case set forth in Article 3, “no other
persons shall be liable to compensate for damages
other than the Nuclear Operator.” Id. art. 3 & 4.
Justice Kohei Nasu, former Justice on the Japanese
Supreme Court, explains that the Compensation
Act “has adopted principles of . . . strict and
unlimited liability of the Operator of a nuclear
plant . . . [and] channeling of third party liability
for Nuclear Damage exclusively to the Operator.”
Nasu Decl. at 9.
Only two questions remain about the
applicability of the Compensation Act to this Case.
The first is whether GE is an “Operator” within the
meaning of the statute. Under Article 2 of the
Compensation Act, there are a variety of definitions
that may qualify an entity as a “Nuclear
Operator.” See Compensation Act art. 2 (listing
eight possibilities). In his declaration, Justice Nasu
states that, in his opinion, GE is not an Operator
because it is not licensed as such in Japan. Nasu
Decl. at 9. GE also points to a recent Tokyo High
Court decision that found that the Compensation Act
precluded a finding of liability against any entity

61a
other than TEPCO. GE MTD at 24–25. The Court
finds that GE does not fall within any of the
Compensation Act’s definitions for a Nuclear
Operator, and thus GE “shall [not] be liable to
compensate for damages.” See Compensation Act
art. 3.
The second question is whether the exception to
the Compensation Act’s channeling provision
applies. Article 3 provides that the channeling
provision does “not apply in the case where the
damage was caused by an abnormally massive
natural disaster.” Compensation Act, art. 3. A
massive 9.0 magnitude earthquake, giving rise to
tsunami waves more than 40 feet high that
struck and severely damaged the FNPP,
releasing radiation as a result, caused the damage
in this case. Although this exception would seem to
apply, the Japanese government and courts have
taken the position that it does not. GE MTD at 21–
22; see also Declaration of David Weiner, Ex. B, ECF
No. 152-4 at 6 (July 19, 2012 Tokyo District Court
decision finding Article 3 exception does not apply).
Moreover, as GE points out, even if the exception
were to apply, liability would fall to the Japanese
government under Article 17 of the Compensation
Act, resulting in no liability for GE. GE MTD at 22
(citing Compensation Act art. 17). Based on the
clear positions of the Japanese government and
courts regarding the applicability of the exception,
the Court agrees that the Article 3 exception does
not apply.
The

Court

concludes,

that

under

the

62a
Compensation Act, all liability for the meltdown
channels to the Nuclear Operator (TEPCO), GE is
not an Operator under the Act, and that no
exception applies. Thus, none of Plaintiffs’ claims
against GE can stand under the Compensation
Act.
II.

Conclusion

Based on the foregoing, the Court finds that
subject matter jurisdiction is appropriate in this
case under CAFA. Under California’s choice-of-law
governmental interest test, the Court finds that
Japanese law applies to this case. Further, the Court
interprets the Japanese Compensation Act to
channel all liability from third parties to the
Nuclear Operator. Because GE is not an Operator
and no exception applies, the Compensation Act
precludes all liability against GE. Thus, the Court
GRANTS GE’s Motion to Dismiss and DISMISSES
all of Plaintiffs’ claims against GE pursuant to the
Compensation Act.
TEPCO’S MOTION TO DISMISS

In its Motion to Dismiss, TEPCO argues that it
did not waive its personal jurisdiction defense, and
therefore this Court should dismiss Plaintiffs’
claims for lack of personal jurisdiction. TEPCO
MTD at 12–28. TEPCO also argues that new
developments, including the choice-of-law analysis
this Court should undertake, weigh in favor of
dismissing the claims under international comity.
TEPCO MTD at 28–43.
I.

Personal Jurisdiction

63a
Under Rule 12(h)(1) of the Federal Rules of
Civil Procedure, a defendant waives any personal
jurisdiction objection if it omits it from a previous
motion filed under Rule 12 or fails to raise the
issue in its responsive pleading. Fed. R. Civ. P.
12(h)(1); see also Glater v. Eli Lilly & Co., 712
F.2d 735, 738 (1983) (“It is clear under this rule
that defendants wishing to raise [the personal
jurisdiction] defense[ ] must do so in their first
defensive move, be it a Rule 12 motion or a
responsive pleading.”). An exception to this rule
exists when a defense or objection was unavailable
at the time the defendant filed its earlier motion or
responsive pleading. Fed. R. Civ. P. 12(g)(2).
TEPCO argues that under Ninth Circuit law
prior to Bristol-Myers Squib Co. v. Superior
Court, 137 S. Ct. 1773 (2017), TEPCO did not have
‘available’ to it the objection to personal jurisdiction
that it now asserts under Bristol-Myers when it filed
its prior motion to dismiss. TEPCO MTD at 19–23,
25–28.
In Bristol-Myers, a group of consumers brought
tort claims against the defendant (a pharmaceutical
company) in California state court, alleging
injuries from the use of the defendant’s drug. 137
S. Ct. at 1778. The 678 plaintiffs included 86
California residents and 592 non-California
residents from other states. Id. Although the
nonresident plaintiffs were not prescribed the drug
in California, injured in California, or treated for
their injuries in California, id., and the drug was
not manufactured, labeled, or packaged in

64a
California, id. at 1778, the California Supreme
Court found specific personal jurisdiction to exist.
Id. at 1778–79. Employing a “sliding scale
approach,” the California Supreme Court held
that, although the claims by the non-Californiaresident plaintiffs did not arise out of contacts in
the state, Bristol Myers distribution contract with a
California company co-defendant, as well as other
non-claim-related forum contacts “permitted the
exercise of specific jurisdiction based on a less
direct connection between [Bristol Myers]’s forum
activities and plaintiffs’ claims than might
otherwise be required.” Id. at 1778–79. The United
States Supreme Court reversed, finding “no
support for this approach” in its personal
jurisdiction jurisprudence. Id. at 1781. Instead,
the Court employed a “straightforward application
. . . of settled principles of personal jurisdiction,” id.
at 1783, in which specific jurisdiction over a claim
can only be exercised if there is an “affiliation
between the forum and the underlying controversy,
principally, an activity or an occurrence that takes
place in the forum State.” Id. at 1781 (quoting
Goodyear Dunlop Tires Operations, S.A. v. Brown,
564 U.S. 915, 919 (2011).
The Court is not convinced that the BristolMyers opinion constituted a change in the law
adequate to revive TEPCO’s personal jurisdiction
defense. TEPCO claims that its business
relationship with GE would have been enough to
assert personal jurisdiction over it under thencurrent Ninth Circuit precedent, which, according
to TEPCO, applied the same “sliding scale”

65a
approach the Supreme Court rejected. TEPCO
MTD at 20 (citing Yahoo! Inc. v. La Ligue Contre
le Racisme et L’Antisemitisme, 433 F. 3d 1199, 1210
(9th Cir. 2006) (en banc)). But in Bristol-Myers, the
Supreme Court specifically noted that it has
previously held that “‘a defendant’s relationship
with a . . . third party, standing alone, is an
insufficient basis for jurisdiction.’” Bristol-Myers,
137 S. Ct. at 1781 (quoting Walden v. Fiore, 571
U.S. 277, 286 (2014) (citing Rush v. Savchuk, 444
U.S. 320, 332 (1980) (“Naturally, the parties’
relationships with each other may be significant in
evaluating their ties to the forum. The requirements
of International Shoe, however, must be met as to
each defendant over whom a state court exercises
jurisdiction”)) (emphasis added). Indeed, the
Supreme Court has long held that “[d]ue process
requires that a defendant be haled into court in a
forum State based on [its] own affiliation with the
State, not based on the ‘random, fortuitous, or
attenuated’ contacts [it] makes by interacting with
other persons affiliated with the State.” Walden,
571 U.S. at 286 (quoting Burger King, 471 U.S. at
475).
Moreover, a fair reading of Yahoo! does not
support TEPCO’s contention that raising a
personal jurisdiction defense would have been
futile prior to Bristol-Myers. In Yahoo!, the Ninth
Circuit noted that, “[i]n a specific jurisdiction
inquiry, we consider the extent of the defendant’s
contacts with the forum and the degree to which
the plaintiff’s suit is related to those contacts. A
strong showing on one axis will permit a lesser

66a
showing on the other.” Yahoo! Inc., 433 F.3d at
1210. In the context of that case, this unremarkable
statement merely meant “[a] single forum state
contact can support jurisdiction if ‘the cause of action
. . . arises out of that particular purposeful contact of
the defendant with the forum state,’” id. (quoting
Lake v. Lake, 817 F.2d 1416, 1421 (9th Cir. 1987),
a holding not in disagreement with Bristol-Myers.
The Court is unable to find a case stretching Yahoo!
to find specific jurisdiction in a case factually
similar to Bristol-Myers. Thus, nothing in Yahoo!
convinces the Court that, had TEPCO raised a
personal jurisdiction defense earlier in the
litigation, the Court would have had no choice but to
assert jurisdiction over TEPCO on the current facts.
Because TEPCO previously filed a motion to
dismiss and failed to raise the personal jurisdiction
defense there, see ECF No. 26, TEPCO waived its
jurisdictional challenge and may not raise it here.
See Alvarez v. NBTY, Inc., 2017 WL 6059159, at
*6-7 (S.D. Cal. Dec. 6, 2017) (finding defendants
waived personal jurisdiction defense because
Bristol-Myers did not change Ninth Circuit law);
see also Sloan v. General Motors LLC, 287 F.
Supp. 3d 840, 854 (N.D. Cal. 2018) (same).
II.

Choice of Law

Like GE, TEPCO also requests that the
Court perform a choice-of-law analysis, which it
asserts will impact the international comity
analysis. TEPCO MTD at 30–38. Plaintiffs argue
that the choice of law analysis is not ripe for
determination and that California law will apply.

67a
Opp’n to TEPCO MTD at 36–37.
A.

Preliminary Choice-of-Law Issues

As they did in their Opposition to GE’s Motion,
Plaintiffs argue that the choice-of- law analysis is
not “ripe for determination” because the case
requires additional time for development. Id. at 36.
The Court already addressed––and rejected––this
argument above. See supra GE Motion to Dismiss
section II.A. The court will therefore conduct a
choice- of-law analysis as it pertains to the claims
against TEPCO.
B.

Choice-of-Law Analysis

1.

Differences in the Forum Laws

The first factor in California’s governmental
interest test asks whether the laws of the two
forums differ. TEPCO argues that Japanese and
California law differ in at least three significant
ways. TEPCO MTD at 32–35. First, under
Japanese law, the Compensation Act would be the
exclusive means of redress and strict liability would
apply for all aspects of the incident. Id. at 32 (citing
Compensation Act, art. 3). Under California law,
strict liability may also apply to an ultrahazardous activity theory based on the operation
and maintenance of the nuclear power plant. Id. at
34 n.14. But strict liability is not the only theory
Plaintiffs may raise under California law; for the
same construction and operation activities that
constitute the hazardous activity, negligence
principles may also be applied. Id. at 34.

68a
Second, the Compensation Act requires any
plaintiffs to establish a “high probability” of
causation. Id. at 33. This standard of causation
requires that “plaintiff[s] must show a likelihood of
70% or 80%.” Id. (citing Apr. 25, 2018 Declaration of
Yasuhei Taniguchi (“Taniguchi Decl.”) ¶ 26, ECF
No. 153-3). In contrast, California negligence
principles require “[p]laintiffs to establish that
their injuries were more likely than not caused by
radiation exposure,” which is a greater than 50%
likelihood. Id. (citing Jones v. Ortho Pharm. Corp.,
163 Cal. App. 3d 396, 403 (1985)).
Third, TEPCO argues that the Compensation
Act does not permit punitive damages. Id. at 33.
According to TEPCO, damages under the Act are
limited to compensatory damages and “do not
permit an award of additional sums for the purpose
of punishing the nuclear operator.” Id. (citing Apr.
25, 2018 Taniguchi Decl. ¶¶ 3–21). California law,
on the other hand, permits punitive damages for
both strict liability and negligence claims. Id. at 35
(citing Cal. Civ. Code § 3294).
Plaintiffs do not contest that the Compensation
Act conflicts with California law on these points.
And while Plaintiffs “do not concede that the
standards set forth by TEPCO are the proper
standards under Japanese law for this case,”
they raise no alternative interpretations and no
reasons why such an interpretation of Japanese
law would be consistent with California law.
Accordingly, the Court finds that the laws of
Japan and California conflict.

69a

2.

“True Conflicts” Analysis:

The
second
factor
in
California’s
governmental interest test requires the Court to
evaluate each jurisdiction’s interest in the
application of its law to this issue. In their
Opposition to TEPCO’s Motion, Plaintiffs make
no specific arguments regarding the interests of
either forum. See generally Opp’n to TEPCO MTD.
In addressing whether there is a true conflict as it
pertains to the claims against GE, the Court
determined that both California and Japan have
strong interests in applying their respective laws
to this case. See supra GE Motion to Dismiss
section II.B.(2). Nothing regarding the specific
laws and facts at issue in the claims against
TEPCO changes this analysis in any way. Thus,
the Court finds a true conflict exists.

3.

Comparative Impairment

The third and final step the court must take is
to determine which forum’s interests would be
“more impaired” if its law were not applied. The
Court’s previous analysis of this step with regard
to GE’s liability is applicable here as well, and
thus the Court concludes that Japan’s interests
would be “more impaired” if its law was not applied
to this matter.
In fact, when compared to the claims against
GE, Japan’s interests in applying its laws in the
case against TEPCO are even stronger. After the
FNPP accident, the Japanese
government
established the Nuclear Damage Compensation

70a
and Decommissioning Facilitation Fund (“NDF”),
providing over $75 billion dollars to TEPCO to
resolve claims arising from the accident. TEPCO
MTD at 41 (citing Declaration of Norihito
Yamazaki (“Yamazaki Decl.”) ¶ 27, ECF No. 15317). The Japanese government explained that if
United States’ law is applied, it could result in
inconsistent adjudication of claims, which would be
“highly corrosive to the integrity of the
compensation system,” not only for reasons of
fairness to the claimants, but also the continued
viability of funding of the NDF. Id. (citing
Government of Japan Amicus Brief, at 3–4).
Because Japan has an overwhelmingly strong
interest in applying its laws in this case, and
because those interests would be more impaired
than California’s, the Court determines that
Japanese law applies to the issue of TEPCO’s
liability.
III.

International Comity

International comity is an abstention doctrine
that permits federal courts to defer to the judgment
of an alternative forum where the issues to be
resolved are “entangled in international relations.”
Ungaro-Benages v. Dresdner Bank AG, 379 F.3d
1227, 1237 (11th Cir. 2004) (quoting In re
Maxwell Comm’n Corp., 93 F.3d 1036, 1047 (2d
Cir. 1996)). Courts must evaluate several factors,
including “the strength of the United States’
interest in using a foreign forum, the strength of
the foreign governments’ interests, and the
adequacy of the alternative forum.” Id. at 1238

71a
(citing cases).
In assessing the interests of the respective
countries, courts should consider five nonexclusive
factors: (1) the location of the conduct in question,
(2) the nationality of the parties, (3) the character of
the conduct in question, (4) foreign policy interests,
and (5) any public policy interests. Mujica v.
AirScan Inc., 771 F.3d 580, 604, 607 (9th Cir.
2014). Also relevant to the analysis is which
country’s law applies and whether those laws
conflict. Id. at 602–03. With respect to the third
element—adequacy of the foreign forum—the
focus should be on procedural fairness in the forum
and whether the opponent has presented specific
evidence of significant inadequacy. Id. at 607–08.
Previously, the Court held that, although “both
the U.S. and Japan have an interest in having this
suit heard within their forum[,] . . . [the] reasons for
maintaining jurisdiction of this case [were] more
compelling.” ECF No. 107 at 46. Consequently,
the Court “decline[d] to exercise its discretion in
dismissing this case under the doctrine of
international comity.” Id. In affirming that
decision, the Ninth Circuit noted in Cooper that
“further developments in the district court may
counsel in favor of dismissing Plaintiff’s lawsuit in
favor of a Japanese forum” 860 F.3d at 1201 n.12.
TEPCO argues that since the Ninth Circuit’s
decision, “several significant factors have tilted
the balance sharply in favor of a Japanese
court.” TEPCO MTD at 29. Specifically, TEPCO
argues that the outcome of the choice of law

72a
analysis, the Japanese Government’s objection to
the suit, and several recent findings by this Court in
the Bartel cases should sway this Court to dismiss
Plaintiffs’ claims on international comity grounds.
Id. at 30–43.
A.

Changes Since Ninth Circuit Decision:
Choice-of-Law

Following a choice-of-law analysis, the
country’s law that applies is relevant to the
international comity analysis. Ungaro-Benages,
379 F.3d at 1240; see also Mujica, 771 F.3d at 602
(“At least in cases considering adjudicatory comity,
we will consider whether there is a conflict between
American and foreign law as one factor in . . . the
application of comity.”).
Plaintiffs argue that if the Court determines
that Japanese law applies, that fact should not
weigh in favor of dismissal. They argue that while
some issues will likely turn on Japanese law, the
entire case will likely be decided under a mixedlaw framework. Opp’n to TEPCO MTD 38–39.
According to Plaintiffs, that puts this Court in as
good of a position as the Japanese court to rule on
the case. Moreover, Plaintiffs assert that, even if
Japanese law applies to all the major issues, this
Court is “fully capable” of applying that law in this
case. Id.
The Court appreciates this vote of confidence,
but these arguments have very little weight in the
comity analysis. And even if they did, it is
undercut by Plaintiffs’ own briefing. While

73a
Plaintiffs state that applying Japanese law will be
straightforward, they already disagree that the
standards TEPCO set forth in its Motion concerning
Japanese law are the correct standards. Id. at 27
n.10. Given this disagreement, this Court would be
forced to decide what the correct standards under
Japanese law are without the benefit of “any
familiarity with the substantive principles and
nuances of Japanese law” that will “inevitably
arise during the course of this complex litigation.”
TEPCO MTD at 39. The Court agrees that “[i]t
would be preferable to allow a Japanese court to
articulate and apply the pertinent principles of
Japanese law in the uniform and authoritative
manner that only the courts of Japan can do.” Id.
Based on the Ninth Circuits’ guidance
regarding the now-completed choice-of-law analysis
and the preference to have Japanese courts
articulate and apply important and pertinent
principles of Japanese law themselves, the Court
finds that this factor weighs in favor of dismissing
the case.
B.

Significant Changes Since Ninth
Circuit Decision: Japanese
Government’s Objection to this Suit

Prior to the Ninth Circuit appeal in these
proceedings, neither the Japanese government nor
the United States government expressed an interest
in the location of this litigation. This Court cited
that fact as a reason for maintaining jurisdiction,
and the Ninth Circuit subsequently noted that,
“when a country in question expresses no

74a
preference [to the location of the litigation], the
district
court
can
take
that
fact
into
consideration.” Cooper, 860 F.3d at 1206. When “a
foreign county[] request[s] that the United States
court dismiss a pending lawsuit in favor of a
foreign forum[, it] is a significant consideration
weighing in favor of dismissal.” Id. (citing Jota v.
Texaco, Inc., 157 F.3d 153, 160 (2nd Cir. 1998)).
During the appeal in the Ninth Circuit, the
Japanese government submitted an amicus brief
stating its strong objection to continuing this suit
in the United States and expressing its belief that
the suit should be dismissed in favor of the
Japanese forum. Id. Following the submission of
Japan’s amicus brief, the Ninth Circuit solicited the
views of the U.S. State Department, which
submitted an amicus brief in support of this
Court maintaining jurisdiction. Id. at 1207. The
Ninth Circuit thoroughly discussed each country’s
relevant policy interests. Id. at 1206–09. It found
that “Japan has an undeniably strong interest in
centralizing jurisdiction over FNPP-related claims,”
and that “the United States believes that
maintaining jurisdiction over this case will help
promote the [Convention on Supplementary
Compensation for Nuclear Damage], an interest
that encompasses all future claims arising from
nuclear incidents around the globe.”6 Id. at 1209.

In its amicus brief, the United States also noted that,
“certainly, [the district court] could choose to dismiss [this]
case based on international comity.” TEPCO MTD at 40

6

75a
The
Ninth
Circuit
concluded
that
these
“important, competing policy interests” create a
“difficult judgment call” for this Court. Id.
TEPCO argues that, since filing the amicus
brief in March 2016, Japan’s interests have only
grown stronger. The Japanese government has now
paid more than $76 billion to resolve more than
17,000 claims and approximately 160 court
proceedings through TEPCO’s “Nuclear Damage
Claim Dispute Resolution Center.”7 TEPCO MTD at
41. The sheer number of parties compensated
through the Japanese system, TEPCO argues,
increases Japan’s interest in ensuring there is
consistency in how plaintiffs are treated to
guarantee there are ample funds to maintain the
system. Id. at 41–42.
Weighing these interests, the Court concludes
that the United States and Japan both have
important, competing policy interest here. Because
the Japanese government has now made its
position known and Defendants have made strong
showings for why Japan’s foreign and public
policy interests would be harmed, however, the
Court finds that this factor now weighs slightly in
favor of dismissal.


(quoting U.S. Government’s amicus curiae brief in the Ninth
Circuit 16–17).

More than 440 court proceedings have been filed, while 160
have been adjudicated or settled. TEPCO MTD 41.
7

76a
C.

Significant Changes Since Ninth
Circuit Decision: Other Developments

TEPCO raises two other developments in
support of its argument. First, TEPCO points to
this Court’s decision in Bartel I, in which the Court
found TEPCO’s activities in California ended five
years before the incident and many years before the
litigation. This, TEPCO argues, is a change from
the Court’s finding that TEPCO “is a large
corporation with a significant physical presence in
the United States and is registered as a foreign
corporation in California.” ECF No. 107 at 41. The
Court does not agree that this fact changes its
previous analysis. When assessing the nationality
of the parties, this Court focused on the Plaintiffs’
U.S. citizenship, not just TEPCO’s ties to
California. Additionally, TEPCO does not refute its
significant ties to the United States in general,
which still weighs against dismissal.
Second, TEPCO argues that the nature of
the conduct now weighs in favor of dismissal.
Because Japanese law applies, the case is no longer
a “civil tort case regarding a Japanese company’s
negligence and personal injury to U.S. plaintiffs,”
as this Court previously found. Id. at 42. Instead,
this is a strict liability tort under Japanese law.
TEPCO MTD at 43. This is true, but it does not
change the Court’s previous finding that this factor
is neutral. A Japanese tort is still not a criminal case
or violation of international moral norms that
would weigh in favor of dismissal. Therefore, the
Court finds this also does not move the scale in

77a
favor of dismissal.
IV.

Conclusion

As the Ninth Circuit previously made clear,
this is a “close case” with competing interests
pointing in both directions. After further
developments, and with the benefit of the Ninth
Circuit’s guidance, the Court has now reweighed its
prior ruling on international comity. The location of
the conduct in question, as well as the nationality
of the parties, continues to weigh against dismissal;
the nature of the conduct and public policy interests
remains neutral. Now, however, after considering
the Japanese and United States governments’
views, the Court finds that the foreign and public
policy interests weigh toward dismissal. And
having conducted a choice-of-law analysis and
having determined that Japanese law applies, this
factor also weighs in favor of dismissal.
On balance, the
factors now weigh
Accordingly, the Court
to
Dismiss
and
PREJUDICE Plaintiffs’
international comity.

Court concludes that the
in favor of dismissal.
GRANTS TEPCO’s Motion
DISMISSES
WITHOUT
case against TEPCO under

CONCLUSION

Based on the foregoing, the Court (1) GRANTS
GE’s Motion to Dismiss (ECF No. 152) and
DISMISSES Plaintiffs’ TAC as to the claims
against GE; and (2) GRANTS TEPCO’s Motion to
Dismiss (ECF No. 153) and DISMISSES
Plaintiffs’ TAC WITHOUT PREJUDICE as to the

78a
claims against TEPCO. The Court dismisses the
complaint against TEPCO without prejudice so that
Plaintiffs may file their claims in the proper forum.
IT IS SO ORDERED

Dated: March 4, 2019

79a
APPENDIX C

United States Court of Appeals
for the Ninth Circuit
LINDSAY COOPER, ET AL,

Plaintiff-Appellants,
v.
TOKYO ELECTRIC POWER
COMPANY HOLDINGS, INC., AKA
TEPCO; GENERAL ELECTRIC
COMPANY; DOES, 1-200, inclusive,

Defendant-Appellees.
19-55295
Appeals from the United States District Court for
the Southern District of California in 3:12-cv-03032JLS-MSB, Judge Janis L. Sammartino.
ON PETITION FOR REHEARING EN BANC
***
Before: A. Wallace Tashima, Kim McLane Wardlaw,
and Jay S. Bybee, Circuit Judges.

80a
ORDER

The panel has voted to deny the appellants’
petition for rehearing. Judge Wardlaw voted to deny
the petition for rehearing en banc. Judges Tashima
and Bybee recommended denying the petition for
rehearing en banc.
The full court has been advised of the petition
for rehearing en banc and no judge has requested a
vote on whether the rehear the matter en banc. Fed.
R. App. P. 35.
The appellants’ petition for rehearing and
petition for rehearing en banc, filed, June 8, 2020,
are DENIED.

81a
APPENDIX D
United States Court of Appeals
for the Ninth Circuit
LINDSAY COOPER, ET AL,

Plaintiff- Appellees,
v.
TOKYO ELEC. POWER CO.
HOLDINGS, ET AL,

Defendant- Appellant,
SOLICITOR GENERAL OF THE UNITED STATES OF
AMERICA,
Real Party in Interest
15-56424
Appeals from the United States District Court for
the Southern District of California in 3:12-cv-03032JLS-MSB, Judge Janis L. Sammartino.
June 22, 2017
***
Before: A. Wallace Tashima, Kim McLane Wardlaw,
and Jay S. Bybee, Circuit Judges.

82a
Opinion by Judge Bybee.
BYBEE, Circuit Judge:
On March 11, 2011, a 9.0 earthquake and a
massive tsunami struck Japan’s northeastern coast.
The United States participated in a relief effort
known as Operation Tomodachi (Japanese for
“friend”). The plaintiffs in this putative class action
lawsuit are members of the U.S. Navy who allege
that they were exposed to radiation when deployed
near the Fukushima Daiichi Nuclear Power Plant
(“FNPP”) as part of Operation Tomodachi. The
earthquake and tsunami damaged the FNPP, causing
radiation leaks. Plaintiffs sued Defendant Tokyo
Electric Power Company, Inc. (“TEPCO”), the owner
and operator of the FNPP, in the Southern District
of California for negligence and other causes of action.
TEPCO moved to dismiss the case on the grounds
of international comity, forum non conveniens, the
political question doctrine, and the firefighter’s rule.
The district court denied the motion on all grounds,
but certified its order denying TEPCO’s motion to
dismiss for immediate appeal under 28 U.S.C. §
1292(b). We agreed to take the interlocutory appeal.
At this interlocutory stage in the proceedings, we
affirm the district court’s denial of TEPCO’s motion
to dismiss on all grounds. Further developments,
however, may require the district court to revisit
some of the issues that TEPCO raised in its motion
to dismiss.

83a
I.
A.

FACTS AND PROCEDURAL HISTORY

The FNPP Meltdown

The March 2011 earthquake and resulting
tsunami were nothing short of devastating. 1 Over
15,000 deaths were reported, and there was
immense damage to the region’s infrastructure.
Cleanup efforts continue to this day, over six years
later. One of the most alarming consequences of the
catastrophe was the damage to the FNPP. The
incident has been described as the worst nuclear
accident since Chernobyl. The FNPP consisted of six
boiling water reactors. At the time of the
earthquake, only units one through three were in
operation. The earthquake triggered an automatic
shutdown of the three operating units. Water from
the tsunami, however, disabled generators necessary
to cool the reactors, causing the three units to
melt down and leak radiation. Plaintiffs allege
that the first meltdown occurred five hours after the
earthquake and that units one through three exploded
that same day. They further allege that over 300
tons of contaminated water from the FNPP began
seeping into the sea after the meltdown.
On the afternoon of March 12, the day
following the earthquake, Plaintiffs arrived off the
coasts of Fukushima Prefecture aboard the aircraft
carrier U.S.S. Ronald Reagan and other vessels to
provide humanitarian aid. Plaintiffs allege that
TEPCO promulgated false information regarding the

We take the facts from Plaintiffs’ complaint and, for our
purposes, we assume them to be true.

1

84a
extent of the damage to the FNPP, misleading the
public, Japanese officials, and the U.S. military.
They allege that TEPCO’s management publicly
announced that there was no danger to those
participating in Operation Tomodachi, despite
knowing that there was a risk of radiation
exposure. Plaintiffs claim that they and U.S.
military officials were unaware of the extent of the
radiation leak and that they would not have been
deployed as close to the FNPP had TEPCO been
forthcoming about the damage. They further allege
that the U.S. military would not ordinarily discover
such radiation absent sufficient warning.
On March 14, two days after their arrival,
Plaintiffs allege that their vessels were repositioned
further away from the FNPP after U.S. officials
onboard the U.S.S. Ronald Reagan detected nuclear
contamination in the air and on an aircraft
operating near the FNPP. “Sensitive instruments”
aboard the U.S.S. Ronald Reagan discovered
measurable levels of radioactivity on seventeen
aircrew members returning from relief missions.
In the months following the earthquake,
Japan commissioned the Fukushima Nuclear
Accident Independent Investigation Commission (the
“Commission”) to investigate the incident. The
Commission determined that the meltdown was
foreseeable in light of the known tsunami risks in
the region and that TEPCO and the relevant
regulatory bodies failed to take adequate
precautions to prevent the incident. Though the
earthquake and tsunami were natural disasters, the

85a
Commission characterized the FNPP meltdown as
a “manmade” disaster. In 2013, TEPCO also
allegedly admitted that it could have avoided the
meltdown.
In an effort to compensate victims of the FNPP
meltdown, the Japanese government developed a
comprehensive scheme to deal with the millions of
claims resulting from the FNPP leak, giving
claimants the option to submit a claim directly to
TEPCO, to the newly established Nuclear Damage
Claim Dispute Resolution Center, or to a Japanese
court. These avenues for relief are available to all
victims, regardless of nationality. Over $58 billion
has been paid out to victims of the disaster. Brief of
Amicus Curiae the Government of Japan 1–2,
ECF No. 23. The Japanese government has
provided immense financial support to TEPCO to
keep TEPCO solvent. Although Plaintiffs could have
pursued their claims against TEPCO in Japan,
they chose to sue in the United States.
B.

District Court Proceedings

Each Plaintiff in the present suit alleges that he
or she was exposed to radiation during Operation
Tomodachi. Plaintiffs request a judgment compelling
TEPCO to establish a billion- dollar fund to cover
continuing medical monitoring costs. They also
request damages, including lost wages, noneconomic damages, and punitive damages.
In Plaintiffs’ First Amended Complaint (“FAC”),
they alleged that TEPCO and the Japanese
government conspired to keep the extent of the

86a
radiation leak secret. They further alleged that “the
U.S. Navy was lulled into a false sense of security,”
which led it to deploy Plaintiffs “without doing the
kinds of research and testing that would have
verified” the extent of the nuclear meltdown. The
district court found that adjudicating this claim
would
require
impermissible
scrutiny
of
discretionary military judgments and would also
require the court to evaluate communications
between the U.S. and Japanese governments
regarding the FNPP. Accordingly, the district court
dismissed the FAC under the political question
doctrine but granted Plaintiffs leave to amend.
Cooper v. Tokyo Elec. Power Co., Inc. (Cooper I),
990 F. Supp. 2d 1035, 1039–42 (S.D. Cal. 2013).
In the Second Amended Complaint (“SAC”),
Plaintiffs removed their conspiracy allegations and
relied instead on allegations that TEPCO was
negligent in operating the FNPP and in reporting the
extent of the radiation leak. TEPCO filed a motion to
dismiss, arguing that the SAC still presented a
political question because determining whether
TEPCO’s conduct was the proximate cause of
Plaintiffs’ injuries would require the court to
evaluate the Navy’s decision to deploy troops near
the FNPP. TEPCO also argued that, given
Japan’s extensive efforts to compensate FNPP
victims, the SAC should be dismissed under the
doctrines of international comity or forum non
conveniens. TEPCO further contended that the socalled firefighter’s rule, which bars first responders
from suing those who cause the emergency to
which they respond, barred Plaintiffs’ claims.

87a
The district court denied TEPCO’s motion to
dismiss.2 Shortly thereafter, TEPCO filed a motion
for reconsideration in light of our opinion in Mujica
v. AirScan, Inc., 771 F.3d 580 (9th Cir. 2014), which
provided additional guidance to district courts on
how to determine whether to dismiss a case on
international comity grounds. The district court
granted TEPCO’s motion for reconsideration, but
again denied TEPCO’s motion to dismiss. Cooper v.
Tokyo Elec. Power Co., Inc. (Cooper II), 166 F. Supp.
3d 1103 (S.D. Cal. 2015). The district court
concluded that the SAC’s restyling of Plaintiffs’
claims no longer implicated any political questions
because it focused on TEPCO’s negligence rather
than the military’s decision to deploy troops. Id. at
1117–24. The district court also rejected TEPCO’s
alternative theories for dismissal. Id. at 1126–28,
1130–40. Per TEPCO’s request, the district court
certified the issues for immediate appeal under 28
U.S.C. § 1292(b). Id. at 1141–43.
C.

Appellate Proceedings

On appeal, TEPCO urges us to reverse the
district
court’s
determinations
regarding
international comity, forum non conveniens, the
political question doctrine, and the firefighter’s rule.
The government of Japan, which had expressed no

The SAC contained ten causes of action, including claims
for negligence, strict liability, nuisance, and intentional infliction
of emotional distress. The district court granted TEPCO’s
motion to dismiss with respect to Plaintiffs’ claims of design
defect and intentional infliction of emotional distress but let the
remaining eight causes of action proceed.
2

88a
views on the location of this litigation to the district
court, also filed an amicus brief urging us to reverse
the district court’s decision and order the district
court to dismiss Plaintiffs’ claims so that Plaintiffs
can pursue their claims in Japan. In its brief, the
Japanese government expresses concern that foreign
lawsuits such as Plaintiffs’ could threaten the
viability of Japan’s continuing efforts to ensure that
all FNPP victims receive fair compensation.
In light of Japan’s brief, we solicited the United
States Department of State’s views on whether this
litigation should proceed in the United States. In
response, the United States filed an amicus brief
arguing that the district court did not err in allowing
Plaintiffs’ claims to proceed for the time being.
Specifically, the United States opines that allowing
Plaintiffs’ lawsuit to continue in the United States is
consistent with U.S. efforts to promote the
Convention on Supplementary Compensation for
Nuclear Damage (“CSC”).
The parties each filed supplemental briefs in
response to the United States’ position. General
Electric Co. (“GE”) 3 also filed an amicus brief
responding to the United States’ argument that
maintaining jurisdiction will help promote the CSC.
Both TEPCO and GE argue that, although it did
not enter into force until after Plaintiffs’ litigation
was already pending, the CSC strips all U.S. courts

GE is a defendant in the district court but not a party to this
appeal. Plaintiffs claim that GE is liable for defectively
designing the FNPP’s reactors.
3

89a
of jurisdiction over claims arising out of the FNPP
incident. If correct, TEPCO and GE’s argument
undermines the United States’ position that
maintaining jurisdiction in the United States will
help promote the CSC and provides an
independent basis for dismissing Plaintiffs claims.
II.

ANALYSIS

We begin by addressing whether the CSC
strips U.S. courts of jurisdiction over Plaintiffs’
claims.4
We then address TEPCO’s arguments
regarding
international
comity,
forum non
conveniens, the political question doctrine, and the
firefighter’s rule.
A.

Jurisdiction Under the CSC

The CSC is an attempt to create “a worldwide
liability regime” for dealing with nuclear accidents.
Convention on Supplementary Compensation for
Nuclear Damage, Preamble, opened for signature
Sept. 29, 1997, S. Treaty Doc. No. 107-21 (2002)
[hereinafter CSC]. One of the main goals of such a
regime is to control the nuclear energy industry’s
liability exposure, thus ensuring the continuing
viability of the industry, while at the same time
ensuring compensation for victims of nuclear
accidents. Prior to the CSC, there were two major

GE raised this argument in the district court, but the district
court has yet to rule on it. Because TEPCO and GE’s argument
questions our jurisdiction, we may consider it in the first
instance on appeal. See Allstate Ins. Co. v. Hughes, 358 F.3d
1089, 1093 (9th Cir. 2004) (“The court has a continuing
obligation to assess its own subject-matter jurisdiction . . . .”).
4

90a
conventions addressing liability for nuclear
accidents: the Paris Convention on Third Party
Liability in the Field of Nuclear Energy of July 1960
and the Vienna Convention on Civil Liability for
Nuclear Damage of May 1963. Both of these
conventions included a number of provisions aimed
at compensating victims of nuclear accidents while
keeping the nuclear energy industry viable, such as
imposing strict liability on operators of nuclear
installations, requiring those operators to maintain
insurance in certain amounts, permitting countries to
cap the liability of nuclear installation operators,
requiring countries to fund compensation for
nuclear damage should private insurance be
inadequate, and centralizing jurisdiction over claims
arising out of nuclear incidents in the country
where the nuclear incident occurred. Vienna
Convention on Civil Liability for Nuclear Damage
arts. II, V, VII, XI, May 21, 1963, 1063 U.N.T.S.
266; Paris Convention on Third Party Liability in
the Field of Nuclear Energy arts. 6–7, 10, 13, 15,
July 29, 1960, 956 U.N.T.S. 251. The United States
was not a party to either of these conventions, but
enacted similar measures in the Price-Anderson
Nuclear Industries Indemnity Act of 1957. See 42
U.S.C. § 2210.
To join the CSC, a country must be a party to the
Vienna or Paris Conventions or have laws (such as
the Price- Anderson Act) that meet the
requirements set forth in the CSC’s annex. The
CSC builds upon these prior conventions and
national laws by creating an international
supplementary compensation fund for victims of

91a
nuclear incidents. Under the CSC, contracting
countries are required to ensure the availability of
a certain amount of funds to compensate victims
of a nuclear incident that occurs within their
territories. CSC art. III. Beyond that amount, the
contracting countries will contribute to a
supplemental compensation fund. Id. Like the Paris
and Vienna Conventions, the CSC also provides
that “jurisdiction over actions concerning nuclear
damage from a nuclear incident shall lie only with the
courts of the Contracting Party within which the
nuclear incident occurs.” Id. art. XIII(1).
The CSC was set to enter into force ninety days
after “the date on which at least 5 States with a
minimum of 400,000 units of installed nuclear
capacity” ratified it. CSC art. XX(1). The CSC opened
for signature on September 29, 1997, at which time
the United States signed it. See Int’l Atomic Energy
Agency, Status Report on the Convention on
Supplementary Compensation for Nuclear Damage
(2016). The United States ratified the CSC in May
2008, id., but it was not until Japan signed and
ratified the CSC on January 15, 2015, almost four
years after the FNPP incident, that there were
enough parties to put the CSC into effect. Ninety
days later on April 15, 2015, the CSC entered into
force, almost two-and-a-half years after Plaintiffs
first filed this suit. Id.
TEPCO and GE do not argue that the entirety of
the CSC applies to the FNPP incident. Rather, they
acknowledge the general principle that “[u]nless a
different intention appears from the treaty or is

92a
otherwise established, its provisions do not bind a
party in relation to any act or fact which took place or
any situation which ceased to exist before the date
of the entry into force of the treaty with respect
to that party.” Vienna Convention on the Law of
Treaties art. 28, May 23, 1969, 1155 U.N.T.S. 331.5
Based on this principle, TEPCO and GE accept that
the CSC’s supplemental fund is unavailable for
nuclear incidents occurring before the CSC’s entry
into force, including the FNPP incident. Appellant’s
Opening Brief 28, ECF No. 14; Appellant’s
Supplementary Brief 10, ECF No. 98; Brief of
Amicus Curiae GE 11, ECF No. 96. TEPCO and GE
maintain, however, that Article XIII’s mandate
that “jurisdiction over actions concerning nuclear
damage from a nuclear incident shall lie only with the
courts of the Contracting Party within which the
nuclear incident occurs” applies to cases pending
before the CSC entered into force.
This is so, TEPCO and GE argue, because
jurisdictional provisions are not subject to limits on
retroactive application. In support of this contention,
TEPCO and GE cite a long list of cases explaining
that jurisdictional provisions do not retroactively
alter substantive rights, but only alter where
plaintiffs can go to obtain prospective relief.

Although the United States is not a party to the Vienna
Convention on the Law of Treaties, it acknowledges the nonretroactivity principle as an element of customary international
law. United States’ Brief 13 n.5, ECF No. 81; see Mora v. New
York, 524 F.3d 183, 196 n.19 (2d Cir. 2008) (“The Department of
State considers the Vienna Convention on the Law of Treaties
an authoritative guide to current treaty law and practice.”).
5

93a
Accordingly, TEPCO and GE argue that jurisdictionstripping provisions such as the one at issue here
presumptively apply to pending cases. See, e.g.,
Landgraf v. USI Film Prods., 511 U.S. 244, 274
(1994) (“We have regularly applied intervening
statutes conferring or ousting jurisdiction, whether
or not jurisdiction lay when the underlying conduct
occurred or when the suit was filed. . . . Application
of a new jurisdictional rule usually ‘takes away no
substantive right but simply changes the tribunal
that is to hear the case.’” (citation omitted)); Bruner
v. United States, 343 U.S. 112, 116–17 (1952)
(“This rule—that, when a law conferring
jurisdiction is repealed without any reservation as to
pending cases, all cases fall with the law—has been
adhered to consistently by this Court.”); Duldulao v.
INS, 90 F.3d 396, 399 (9th Cir. 1996) (“The
Supreme Court has long held that ‘when a law
conferring jurisdiction is repealed without any
reservation as to pending cases, all cases fall
within the law.’” (citation omitted)). TEPCO and
GE also argue that the same principle applies to
jurisdictional provisions in treaties. See, e.g., Third
Report on the Law of Treaties, [1964] 2 Y.B. Int’l L.
Comm’n 11, U.N. Doc. A/CN.4/167 (suggesting that
certain jurisdictional provisions in treaties apply
to any “dispute which exists between the parties
after the coming into force of the treaty” regardless
of whether “the dispute concerns events which
took place prior to that date.”). In short, because the
courts of Japan are undisputedly open to Plaintiffs,
and because Article XIII makes no reservation as to

94a
pending cases, TEPCO and GE argue that the CSC
strips us of jurisdiction over Plaintiffs’ claims.
We find this argument plausible, but ultimately
unpersuasive. Although jurisdictional provisions can
and often do apply to cases already pending when
those provisions go into effect, it is not true that we
always apply new jurisdictional provisions to
pending cases. Rather, we look at the jurisdictionstripping provision in the context of the statute or
treaty at issue, applying normal canons of
construction, to determine if the provision should
apply to pending cases. Hamdan v. Rumsfeld, 548
U.S. 557, 577 (2006) (“[Not] all jurisdiction-stripping
provisions—or even all such provisions that truly
lack retroactive effect—must apply to cases pending
at the time of their enactment. ‘[N]ormal rules of
construction,’ including a contextual reading of the
statutory language, may dictate otherwise.” (second
alteration in original) (citation omitted)); Lindh v.
Murphy, 521 U.S. 320, 326 (1997) (“In determining
whether a statute’s terms would produce a
retroactive effect, however, and in determining a
statute’s temporal reach generally, our normal rules
of construction apply.”); see also Sumitomo Shoji Am.,
Inc. v. Avagliano, 457 U.S. 176, 180 (1982) (“The
clear import of treaty language controls unless
‘application of the words of the treaty according to
their obvious meaning effects a result inconsistent
with the intent or expectations of its signatories.’”
(citation omitted)).
Applying normal rules of construction to Article
XIII, we do not believe that it strips U.S. courts of

95a
jurisdiction over claims arising out of nuclear
incidents that occurred prior to the CSC’s entry into
force.6 Two things bring us to this conclusion. First,
starting with Article XIII’s text, we find it
informative that the CSC gives exclusive jurisdiction
to “the courts of the Contracting Party within
which the nuclear incident occurs.” CSC art. XIII(1)
(emphasis added). The use of the present tense
suggests that the provision applies to future nuclear
incidents and does not include past incidents. One
would expect the drafters to have used the past tense
had they intended to alter jurisdiction over claims
arising out of nuclear incidents that occurred before
the CSC’s entry into force. Other paragraphs
within Article XIII also use the present tense,
similarly indicating that Article XIII refers only to
claims arising out of future nuclear incidents. See id.

For purposes of this analysis, we will assume that Article
XIII is self-executing. See Medellin v. Texas, 552 U.S. 491,
505–06 (2008) (explaining that a treaty “ordinarily ‘depends for
the enforcement of its provisions on the interest and the honor
of the governments which are parties to it,’” but that some
treaties “contain[] stipulations which are self- executing, that
is, . . . they have the force and effect of a legislative
enactment” (citation omitted)); Letter of Submittal for the
Convention on Supplementary Compensation for Nuclear
Damage at XV, August 7, 2001, S. Treaty Doc. No. 107-21
(“As with similar jurisdictional provisions in earlier treaties
submitted to the Senate for advice and consent to ratification,
it is anticipated that the provisions of Article XIII would be
applied without the need for further implementing legislation.”).
Because we conclude that, in any event, Article XIII does not
apply to claims arising out of the FNPP incident, we need not
decide this issue.
6

96a
art. XIII(2) (“Where a nuclear incident occurs within
the area of the exclusive economic zone of a
Contracting Party[,] . . . jurisdiction over actions
concerning nuclear damage from that nuclear incident
shall, for the purposes of this Convention, lie only
with the courts of that Party.” (emphasis added)); id.
art. XIII(3) (“Where a nuclear incident does not occur
within the territory of any Contracting Party[,] . . .
jurisdiction over actions concerning nuclear damage
from the nuclear incident shall lie only with the
courts of the Installation State.” (emphasis added)).7

7 TEPCO and GE counter that versions of the CSC in other
languages, which are equally authentic, see CSC art. XXVII,
use different verb tenses. The Spanish text, for example, uses
the phrase “haya ocurrido.” “Haya” is the present subjunctive
form of the Spanish verb “haber,” which in English means “to
have.” As TEPCO and GE note, the phrase “haya ocurrido”
means “has occurred.” In other words, the Spanish text grants
jurisdiction to the courts of the country where the nuclear
incident “has occurred,” not where it “occurs.” TEPCO and
GE suggest that this difference precludes us from giving much
weight to the English text’s use of the present tense.

We think that TEPCO and GE’s reliance on the Spanish text
is misplaced. The Spanish text’s use of the phrase “haya
ocurrido”—a subjunctive form that conveys a mood of
indeterminancy that has no direct English counterpart—does
not necessarily suggest that the CSC’s jurisdictional provision
encompasses pre-existing nuclear incidents. Even if the CSC
used the past tense and limited jurisdiction to “the courts of the
Contracting Party within which the nuclear incident occurred,”
that would not answer the question at issue here. In that case,
the use of the past tense only shows the temporal relationship
between the nuclear accident and the lawsuit, the former
obviously preceding the latter. But this wording leaves open

97a
Second, the CSC’s overall framework also
supports our conclusion that Article XIII does not
apply to claims arising out of nuclear incidents that
precede the CSC’s entry into force because we view
the promise of exclusive jurisdiction as a quid pro
quo for establishing a compensation fund. To accept
TEPCO and GE’s argument that the CSC’s
jurisdictional provision applies to the current case,
we would have to view Article XIII as a standalone provision, independent of the CSC’s remaining
provisions, to centralize jurisdiction over nuclear
damage claims in a single country. We cannot fairly
construe the CSC in this manner. Article XIII is
but one component of the compensation scheme
created in the CSC. The CSC’s title—The
Convention on Supplementary Compensation for
Nuclear Damage—suggests what the remainder of the
document makes clear: the CSC is, first and
foremost, concerned with creating an international
backstop for funding claims by victims of nuclear
incidents. The “Purpose and Application” section
reinforces that “[t]he purpose of this Convention is
to supplement the system of compensation provided
pursuant to” the Vienna and Paris Conventions
and national laws such as the Price-Anderson Act.
CSC art. II(1). To carry out its goal, the CSC creates
what the CSC itself refers to as a “system,” id. art.

the question whether the nuclear accident had to occur after
the CSC’s entry into force for the provision to apply. Even if
other languages make the answer to that question ambiguous,
our second point above compels our conclusion that the CSC
only applies to nuclear incidents occurring after the CSC’s entry
into force.

98a
II(2), or a “worldwide liability regime,” id., Preamble.
Nothing in the CSC suggests that one component of
that system, such as the jurisdictional provision at
issue here, would apply when the entire system does
not. The jurisdictional provision is not independent
of the compensation scheme, but is part of the
mechanism for effectuating that scheme.
Other provisions of the CSC confirm our reading
that Article XIII is not an independent agreement to
centralize litigation from a nuclear accident in a
single country, but a mechanism for administering
the supplemental compensation fund. A country
whose courts have jurisdiction under Article XIII
obtains
certain
rights
and
responsibilities.
Specifically, “the Contracting party whose courts
have jurisdiction shall inform the other Contracting
Parties of a nuclear incident as soon as it appears
that” domestic funds may be insufficient to
compensate victims. Id. art. VI. Once domestic funds
are exhausted, “the Contracting Party whose courts
have jurisdiction shall request the other Contracting
Parties to make available” the supplemental
compensation fund, and “the Contracting Party
whose courts have jurisdiction” has “exclusive
competence to disburse such funds.” Id. art. VII(1);
see also id. art. X(1) (“The system of disbursement by
which the [supplemental funds] are to be made
available and the system of apportionment thereof
shall be that of the Contracting Party whose courts
have jurisdiction.”). “The Contracting party whose
courts have jurisdiction” may also exercise certain
rights of recourse under the CSC. Id. art. IX(3).
Article XIII is more than just an agreement to

99a
centralize jurisdiction in one country; it is integral to
the CSC’s overall “system” for implementing the
supplemental fund.
Our interpretation of Article XIII also finds
support in a letter from Secretary of State Colin
Powell submitting the CSC to President George W.
Bush. That letter provides an article-by-article
explanation of the CSC. It explains that the CSC
“requires that all claims resulting from a covered
nuclear incident be adjudicated in a single forum.”
Letter of Submittal for the Convention on
Supplementary Compensation for Nuclear Damage
at VII, Aug. 7, 2001, S. Treaty Doc. No. 107-21
[hereinafter Letter of Submittal] (emphasis added).
It further provides that “after the United States
deposits its instrument of ratification to the CSC,
the effect of Article XIII will be to remove
jurisdiction from all U.S. Federal and State courts
over cases concerning nuclear damage from a
nuclear incident covered by the CSC except to the
extent provided in the CSC.” Id. at XV (emphasis
added); see also id. at XIV (“Article XIII determines
which Party’s courts shall have jurisdiction over
claims brought under the CSC . . . .” (emphasis
added)). In our view, the phrases “covered nuclear
incident” and “nuclear incident covered by the CSC”
most logically refer to nuclear incidents subject to all
of the CSC’s terms, and in particular to nuclear
incidents that are eligible for the supplemental
compensation fund. Thus, the United States’ view at
the time of ratification appears to be that Article
XIII applies only to nuclear incidents occurring after
the CSC’s entry into force. That is also the view that

100a
the United States expresses in its amicus brief. We
owe deference to this view.8 Sumitomo Shoji Am.,
Inc., 457 U.S. at 184–85 (“Although not conclusive,
the meaning attributed to treaty provisions by the
Government agencies charged with their negotiation
and enforcement is entitled to great weight.”).
The CSC’s text, structure, and ratification
history dictate that Article XIII’s jurisdictionstripping provision applies only to claims arising out
of nuclear incidents occurring after the CSC’s entry
into force. We conclude, therefore, that the CSC does
not strip us of jurisdiction over Plaintiffs’ claims.
B.

International Comity

TEPCO next contends that the district court
erred by not dismissing Plaintiffs’ claims on comity
grounds. We review the district court’s international
comity determination for an abuse of discretion and
will reverse only if the district court applies an
incorrect legal standard or if its “application of the
correct legal standard was (1) ‘illogical,’ (2)
‘implausible,’ or (3) without ‘support in inferences
that may be drawn from the facts in the record.’”

We also note that Japan filed an amicus brief in this appeal
urging the court to dismiss Plaintiffs’ claims, but did not cite the
CSC as a basis for that request. The amicus brief was filed in
February 2016, almost one year after the CSC’s entry into force.
Presumably, had Japan felt entitled to exclusive jurisdiction
over Plaintiffs’ claims pursuant to the CSC, it would have said
so. “When the parties to a treaty both agree as to the meaning
of a treaty provision, and that interpretation follows from the
clear treaty language, we must, absent extraordinarily strong
contrary evidence, defer to that interpretation.” Sumitomo Shoji
Am., Inc., 457 U.S. at 185.
8

101a

Mujica v. AirScan Inc., 771 F.3d 580, 589 (9th Cir.
2014) (quoting United States v. Hinkson, 585 F.3d
1247, 1262 (9th Cir. 2009) (en banc)).
“International comity ‘is the recognition which
one nation allows within its territory to the
legislative, executive or judicial acts of another
nation, having due regard both to international duty
and convenience, and to the rights of its own citizens
or of other persons who are under the protection of
its laws.’” Id. at 597 (quoting In re Simon, 153 F.3d
991, 998 (9th Cir. 1998)). There are two kinds of
international
comity:
prescriptive
comity
(addressing the “extraterritorial reach of federal
statutes”)
and
adjudicative
comity
(a
“discretionary act of deference by a national court to
decline to exercise jurisdiction in a case properly
adjudicated in a foreign state”). Id. at 598–99. This
case concerns the latter.
District courts deciding whether to dismiss a
case on comity grounds are to weigh (1) “the strength
of the United States’ interest in using a foreign
forum,” (2) “the strength of the foreign governments’
interests,” and (3) “the adequacy of the alternative
forum.” Id. at 603 (quoting Ungaro-Benages v.
Dresdner Bank AG, 379 F.3d 1227, 1238 (11th Cir.
2004)). Here, the district court correctly laid out this
legal standard, and the only question is whether the
district court’s decision not to dismiss Plaintiffs’
claims was illogical, implausible, or unsupported by
the record. Although this is a close case with
competing policy interests, we hold that the district
court did not abuse its discretion in deciding to

102a
maintain jurisdiction. For our convenience, we will
discuss together the interests of the United States
and Japan. We then consider the adequacy of a
Japanese forum.
1.

U.S. and Japanese interests

In Mujica, we expounded on how to assess the
United States’ and foreign governments’ interests:
The (nonexclusive) factors we should
consider
when
assessing
[each
country’s] interests include (1) the
location of the conduct in question, (2)
the nationality of the parties, (3) the
character of the conduct in question,
(4) the foreign policy interests of the
[countries], and (5) any public policy
interests.

Id. at 604, 607. The district court determined that
because the FNPP incident occurred in Japan, Japan
has a strong interest in this litigation. On the other
hand, the district court reasoned that Plaintiffs are
U.S. servicemembers, suggesting that the United
States also has an interest in this litigation. In
balancing the first two factors, the district court
concluded that the parties’ ties to the United States
outweighed the fact that the allegedly negligent
conduct occurred Japan. We agree with the district
court that, at least with respect to the first two
factors, there are competing interests. Under these
facts, we find these considerations not particularly
helpful in determining whether to dismiss Plaintiffs’
claims.

103a
With respect to the character of the conduct in
question, the district court determined that the
factor was neutral. The court found that Japan had
an interest in regulating its nuclear utilities and
compensating those injured by the FNPP incident,
but that the United States also had an “interest in the
safe operation of nuclear power plants around the
world, especially when they endanger U.S. citizens.”
Cooper II, 166 F. Supp. 3d at 1138. The district
court also rejected TEPCO’s argument that the
foreign policy interests of Japan and the United
States favored a Japanese forum. TEPCO argued
that the CSC’s jurisdiction-channeling provision, even
if not applicable of its own force, reflected a policy
judgment of centralizing claims arising out of
nuclear incidents in the courts of the country where
the nuclear incident occurred. The district court
gave little weight to the CSC because it saw no
evidence that maintaining jurisdiction would create
friction between the United States and Japan9 and

TEPCO suggests that the district court misstated the law by
requiring a showing that maintaining jurisdiction would create
diplomatic friction between the United States and Japan. We
do not view the district court’s opinion to suggest that actual
diplomatic friction is a prerequisite for dismissing a case on
international comity grounds. See Cooper II, 166 F. Supp. 3d
at 1139 (noting the lack of evidence that maintaining
jurisdiction would harm U.S.-Japanese relations as one
consideration). Although not a prerequisite for international
comity, whether maintaining jurisdiction would harm the
United States’ relationship with a foreign country is certainly
a relevant consideration. See Mujica, 771 F.3d at 609
(considering the United States’ interest in preserving its
diplomatic relationship with Colombia).
9

104a
because the CSC’s supplemental fund is unavailable
to Plaintiffs. Finally, the district court found that
there were public policy considerations cutting both
in favor of and against dismissing the case.
One of the reasons the district court cited for
maintaining jurisdiction was that neither Japan nor
the United States had expressed an interest in the
location of this litigation. Indeed, a foreign country’s
request that a United States court dismiss a pending
lawsuit in favor of a foreign forum is a significant
consideration weighing in favor of dismissal. See
Jota v. Texaco, Inc., 157 F.3d 153, 160 (2d Cir. 1998)
(“[I]nherent in the concept of comity is the
desirability of having the courts of one nation accord
deference to the official position of a foreign state, at
least when that position is expressed on matters
concerning actions of the foreign state taken within
or with respect to its own territory.”). By contrast,
when the country in question expresses no
preference, the district court can take that fact into
consideration. See Abad v. Bayer Corp., 563 F.3d 663,
668 (7th Cir. 2009) (finding it relevant that neither
the United States nor Argentina took a position on
where litigation should proceed).
Although Japan took no position in the district
court,10 Japan has not remained silent on appeal.
The government of Japan submitted an amicus brief

The record reflects that the Japanese government informed the
State Department of its objection to U.S. jurisdiction while
litigation was pending in the district court, but did not express
its views to the district court.
10

105a
urging us to reverse the district court. In its amicus
brief, Japan presents a compelling case that FNPPrelated claims brought outside of Japan threaten the
viability of Japan’s FNPP compensation scheme. In
dealing with claims arising out of the FNPP incident,
Japan has developed a set of universal guidelines
applicable to all claims brought in Japan. If
Plaintiffs’ lawsuit and others like it are permitted to
proceed in foreign countries, those courts might
apply different legal standards, which could result in
different outcomes for similarly situated victims.
That risk is especially troublesome to Japan because
the Japanese government finances TEPCO’s
compensation
payments,
which
are
being
administered through Japanese courts. As Japan
explained in its amicus brief, “The irony of the
situation is that this U.S. lawsuit against TEPCO is
possible only because the Government of Japan, as
part of its compensation system, ensured TEPCO’s
solvency, including by providing ongoing funds for
damage payments.” Brief of Amicus Curiae the
Government of Japan 3–4. Judgments originating in
American courts may well be inconsistent with the
overall administration of Japan’s compensation fund.
In light of Japan’s justifiable insistence that we
direct Plaintiffs to Japanese courts, we might well
have either reversed the district court’s decision to
maintain jurisdiction or remanded to the district
court for further consideration.
Because we became aware of Japan’s position by
way of an amicus brief on appeal, concerns of
fairness and thoroughness led us to seek the State
Department’s views. We asked for a Statement of

106a
Interest. In lieu of a Statement of Interest, the
United States submitted an amicus brief in support
of affirming the district court’s order. In its brief, the
United States expressed that it “has no clear
independent interest in Japan’s compensation
scheme beyond [its] general support for Japan’s
efforts to address the aftermath of Fukushima.”
United States’ Brief 12, ECF No. 81. That alone
would not be enough for us to conclude that the
comity doctrine does not apply to this case. But the
United States also makes a much more important
point about U.S. interests: allowing the suit to
continue in California is consistent with U.S.
interests in promoting the CSC.
The United States has a strong interest in
promoting the CSC’s widespread acceptance. As
explained above, the CSC was designed as a global
liability regime for handling claims arising out of
nuclear incidents, and its effectiveness naturally
depends on global, or at least widespread,
adherence. 11
The CSC creates an international
compensation fund to supplant domestic funding for

Unlike the Paris and Vienna Conventions, the CSC is
designed to attract even countries that do not generate
nuclear power. Letter of Submittal at VIII. Specifically, the
CSC requires that fifty percent of the supplemental
compensation fund be used to compensate damage occurring
outside of the installation state, including damage occurring
in a non- nuclear power generating country. CSC art. XI(1)(b).
This incentive for non-nuclear power generating countries was
designed to create “for the first time the potential for a nuclear
liability convention that will apply globally.” Letter of
Submittal at VIII.
11

107a
victims of nuclear incidents. CSC arts. III, IV. The
CSC cannot provide the robust supplemental
compensation fund it was intended to provide if only
a few countries contribute to the fund. The CSC also
grants contracting parties exclusive jurisdiction over
actions concerning nuclear incidents that occur
within their borders. CSC art. XIII. But this grant
of exclusive jurisdiction has little value if it binds
only a few countries. In short, the CSC cannot be
the global liability system it was intended to be
without widespread adherence, particularly from
developed nations. See Letter of Transmittal for
the Convention on Supplementary Compensation
for Nuclear Damage at IV, Nov. 15, 2002, S. Treaty
Doc. No. 107-21 (“[U]nder existing nuclear liability
conventions many potential victims outside the
United States generally have no assurance that they
will be adequately or promptly compensated in the
event they are harmed by a civil nuclear incident,
especially if that incident occurs outside their
borders or damages their environment. The
Convention, once widely accepted, will provide
that assurance.” (emphasis added)); see also Letter
of Submittal at VIII–IX (“[T]he CSC can strengthen
U.S. efforts to improve nuclear safety, because, once
widely accepted, the CSC will eliminate ongoing
concerns on the part of U.S. suppliers of nuclear
safety equipment and technology that they would
be exposed to damage claims by victims of a
possible future accident at a facility where they have
provided assistance.” (emphasis added)).
has

Thus, the United States, as a party to the CSC,
a strong interest in encouraging other

108a
countries, especially those with large nuclear
industries such as Japan, to join the CSC. As we
have discussed, one of the perquisites of joining the
CSC is the guarantee of exclusive jurisdiction over
nuclear incidents vis-à-vis other contracting
parties. See supra Section II.A. If a country knew
it could receive the benefit of the exclusive
jurisdiction provision by becoming a party to the CSC
after a nuclear incident has occurred within its
borders (as Japan did here), or even avoid foreign
jurisdiction altogether by virtue of international
comity, there would be less incentive to join the
CSC before a nuclear incident occurs. As the State
Department advised us in its brief:
The exclusive jurisdiction provision
forms part of a bargain in exchange for
robust, more certain and less
vexatious (e.g., the application of
strict liability without need to
establish fault) compensation for
victims of a potential incident. United
States policy does not call for
advancing one element of this system
in isolation from the other elements of
the Convention’s system.
For these two inextricably
interrelated interests to be fully
realized, it is essential that the
Convention be as widely adhered to
internationally as possible. Thus,
broad international adherence to the

109a
Convention is the ultimate U.S. policy
goal.
United States’ Brief 6–7. Accordingly, “[t]he United
States has no specific foreign policy interest
necessitating dismissal in this particular case.” Id. at
17. We understand the position of the United States
to be that, faced with the reality that there is no
guarantee of exclusive jurisdiction outside of the
CSC, more countries will accede to the CSC, thus
fostering the global liability regime the CSC was
designed to create. Indirectly, this suit makes the
case—and Japan has become the poster child—for
why recalcitrant countries should join the CSC.
In its supplemental brief in response to the
United States’ brief, TEPCO argues that the
United States has misapprehended its own foreign
policy interests. In support of this rather bold
assertion, TEPCO repeats its argument made in
the district court that the CSC merely codified the
longstanding U.S. policy of centralizing jurisdiction
over claims from nuclear accidents in a single
forum. TEPCO points to State Department
testimony before the Senate that, even before the
CSC, the State Department “would expect that if a
nuclear incident occurs overseas[,] U.S. courts would
assert jurisdiction over a claim only if they concluded
that no adequate remedy exists in the court of the
country where the accident occurred.” Treaties:
Hearing Before the S. Comm. on Foreign Relations,
S. Hearing No. 109-324, 109th Cong. 27 (2005)
(statement of Warren Stern, Senior Coordinator for
Nuclear Safety, Department of State). This may

110a
well have been the United States’ position prior to
the CSC’s ratification. In hopes that other countries
would do the same, the United States may have
preferred that U.S. courts not exercise jurisdiction
over claims arising out of foreign nuclear incidents.
But that policy appears to have changed. Now that
the United States has ratified the CSC, the State
Department takes the position that it would prefer
to keep exclusive jurisdiction as a bargaining chip to
encourage other nations to join the CSC. We owe
this view deference. See Mujica, 771 F.3d at 610
(“[S]hould the State Department choose
to
express its opinion on the implications of
exercising jurisdiction over particular petitioners in
connection with their alleged conduct, that opinion
might well be entitled to deference as the
considered judgment of the Executive on a
particular question of foreign policy.” (citation
omitted)); id. at 607 (“[C]ourts will not extend
comity to foreign proceedings when doing so would
be contrary to the policies . . . of the United States.”
(second alteration in original) (citation omitted)).
In light of these important, competing policy
interests, we conclude that the district court did not
abuse its discretion in weighing U.S. and Japanese
interests. Although Japan has an undeniably strong
interest in centralizing jurisdiction over FNPPrelated claims, the United States believes that
maintaining jurisdiction over this case will help
promote the CSC, an interest that encompasses all
future claims arising from nuclear incidents around
the globe. Competing policy interests such as these
require our district court judges to make difficult

111a
judgment calls, judgment calls committed to their
sound discretion. We recognize that the district
court did not have the benefit of the views of Japan
and the United States. We might, in this case, have
remanded to the district court to review its
judgment on this question in light of the briefs filed
by the two governments. We are not sure why
neither government decided to weigh in when the
district court was considering this question.
Nevertheless, the district court had before it the facts
that underlie the positions taken by Japan and the
United States, and we cannot say that the district
court abused its discretion.
2.

Adequacy of the alternative forum

Like the district court, we have no doubt that
Japan would provide an adequate alternative forum.
TEPCO is certainly subject to suit in Japanese
courts, and the doors of those courts are
undisputedly open to Plaintiffs. See Tuazon v. R.J.
Reynolds Tobacco Co., 433 F.3d 1163, 1178 (9th Cir.
2006) (“Generally, an alternative forum is available
where the defendant is amenable to service of
process and the forum provides ‘some remedy’ for
the wrong at issue.” (citation omitted)). We have
held that district courts have not abused their
discretion in holding that Japanese courts are an
adequate
alternative
forum,
despite
their
procedural differences with U.S. courts. See, e.g.,
Lockman Found. v. Evangelical All. Mission, 930
F.2d 764, 768–69, 769 n.3 (9th Cir. 1991). Plaintiffs
provide no evidence that Japanese courts would be
inadequate aside from unsubstantiated fears of bias

112a
against foreign claimants. The district court did not
abuse its discretion in finding that Japan would
provide an adequate alternative forum for resolving
Plaintiffs’ claims.
***
This is a difficult case that required the district
court to weigh a number of complex policy
considerations. Though there are strong reasons for
dismissing Plaintiffs’ claims in favor of a Japanese
forum, the district court did not abuse its discretion
in maintaining jurisdiction. Comity is not a doctrine
tied to our subject matter jurisdiction. As we have
explained:
Comity
is
not
a
rule
expressly derived from international
law,
the
Constitution,
federal
statutes, or equity, but it draws upon
various doctrines and principles that,
in turn, draw upon all of those sources.
It thus shares certain considerations
with international principles
of
sovereignty
and
territoriality;
constitutional doctrines such as the
political question doctrine; principles
enacted into positive law such as the
Foreign Sovereign Immunities Act of
1976; and judicial doctrines such as
forum non conveniens and prudential
exhaustion.

Mujica, 771 F.3d at 598 (citation omitted).
Accordingly, it is a “a doctrine of prudential

113a
abstention.” Id. Because comity is not a
jurisdictional decision, comity is not measured as of
the outset of the litigation; it is a more fluid doctrine,
one that may change in the course of the litigation.12
Should either the facts or the interests of the
governments change—particularly the interests of
the United States13—the district court would be free
to revisit this question.
C.

Forum Non Conveniens

The doctrine of forum non conveniens allows a
court to dismiss a case properly before it when
litigation would be more convenient in a foreign

We note that further developments in the district court may
counsel in favor of dismissing Plaintiffs’ lawsuit in favor of a
Japanese forum. For example, the district court has yet to
determine whether U.S. or Japanese law will govern Plaintiffs’
claims. Which country’s law applies is relevant to the
international comity analysis. See Ungaro-Benages, 379 F.3d
at 1240 (affirming a district court’s decision to dismiss a case
when the relevant conduct occurred in Germany and the case
involved issues of German law); cf. Mujica, 771 F.3d at 602 (“At
least in cases considering adjudicatory comity, we will consider
whether there is a conflict between American and foreign law as
one factor in . . . the application of comity.”)
12

Although the United States does not oppose Plaintiffs’ litigation,
its brief states that it has no foreign policy interest that requires
dismissal “at this time.” United States’ Brief 3. The United
States may change its position if the circumstances so merit.
See Sarei v. Rio Tinto, PLC, 671 F.3d 736, 756–57 (9th Cir.
2011) (en banc) (noting that the State Department initially
opposed U.S. jurisdiction over claims touching on foreign
relations with Papua New Guinea, but later withdrew its
opposition in light of changed country conditions), vacated on
other grounds, 133 S. Ct. 1995 (2013) (mem.).
13

114a
forum. Lueck v. Sundstrand Corp., 236 F.3d 1137,
1142 (9th Cir. 2001); see also Piper Aircraft Co. v.
Reyno, 454 U.S. 235, 255–56 (1981). “To prevail on
a motion to dismiss based upon forum non
conveniens, a defendant bears the burden of
demonstrating an adequate alternative forum, and
that the balance of private and public interest
factors favors dismissal.” Carijano v. Occidental
Petroleum Corp., 643 F.3d 1216, 1224 (9th Cir.
2011). We review the district court’s decision to
grant or deny a motion to dismiss on forum non
conveniens grounds for an abuse of discretion. Id.
Here, the district court did not abuse its discretion in
declining to dismiss this case.
1.

Adequacy of the alternative forum

The analysis used in evaluating the adequacy of
an alternative forum is the same under the doctrine
of forum non conveniens as it is under the doctrine of
international comity. Mujica, 771 F.3d at 612 n.25.
As we stated in our international comity analysis,
Japan provides an adequate alternative forum for
resolving Plaintiffs’ claims. See supra Section II.B.2.
2.

Private and public interest factors

To some extent, analysis of the private and
public interests factors also overlaps with the
analysis under international comity. See Mujica, 771
F.3d at 598 (explaining the relationship between
international comity and forum non conveniens).
However, the forum non conveniens analysis
introduces a presumption that litigation is
convenient in the plaintiff’s chosen forum when a

115a
domestic plaintiff sues at home. Carijano, 643 F.3d
at 1227. Defendants have the “heavy burden of
showing that the [plaintiff’s choice of] forum
results in ‘oppressiveness and vexation . . . out of all
proportion’ to the plaintiff’s convenience.” Id. (second
alteration in original) (quoting Piper, 454 U.S. at
241).
In this case, Plaintiffs are U.S. citizens, and their
decision to sue in the United States must be
respected. The district court properly took Plaintiffs’
choice of their home forum into consideration and
did not abuse its discretion in finding that other
private and public considerations did not outweigh
Plaintiffs’ interest in suing at home.
The private interest factors are
(1) the residence of the parties and
the
witnesses;
(2)
the
forum’s
convenience to the litigants; (3) access
to physical evidence and other sources
of proof; (4) whether unwilling
witnesses can be compelled to testify; (5)
the cost of bringing witnesses to trial;
(6) the enforceability of the judgment;
and (7) all other practical problems
that make trial of a case easy,
expeditious and inexpensive.Id. at 1229
(citation omitted).
The district court reasonably balanced these
private interest factors. The district court noted that
while most of TEPCO’s witnesses reside in Japan, all
Plaintiffs reside in the United States. Cooper II, 166

116a
F. Supp. 3d at 1132–33. It further found that it
would be more difficult for Plaintiffs to travel to
Japan given their alleged medical conditions. Id. at
1133. The district court agreed with TEPCO that
most of the relevant documents and physical proof
remained in Japan, and also that litigating in the
United States would make it more difficult to obtain
testimony from non-party witnesses located in Japan,
but did not believe that these considerations
outweighed Plaintiffs’ interest in suing at home. Id.
at 1133–35. In sum, “[b]ecause of the nature of
international litigation, each side would incur
expenses related to traveling and procuring
witnesses in either forum.” Id. at 1135 (emphasis
added). This was a reasonable determination.
The public interest factors relevant to a forum
non conveniens analysis include “(1) the local
interest in the lawsuit, (2) the court’s familiarity
with the governing law, (3) the burden on local
courts and juries, (4) congestion in the court, and (5)
the costs of resolving a dispute unrelated to a
particular forum.” Carijano, 643 F.3d at 1232
(citation omitted). The district court also reasonably
weighed the public interest factors and concluded
that they were neutral. It balanced Japan’s interest
in centralizing litigation in Japan with the United
States’ interest in compensating its military
servicemembers. Cooper II, 166 F. Supp. 3d at 1132–
36. It noted that this litigation would be burdensome
to either country’s courts. Id. at 1136. This
determination was neither illogical, implausible, nor
unsupported by the record.

117a
Of course, the policy considerations addressed in
the international comity discussion may also be
relevant here. But as we explained above, these
policy considerations did not require the district
court to dismiss this case on international comity
grounds. Nor do they require dismissal under forum
non conveniens. We therefore affirm the district
court’s decision not to dismiss Plaintiffs’ claims
under the forum non conveniens doctrine.
D.

The Political Question Doctrine

TEPCO next contends that the political question
doctrine bars Plaintiffs’ suit. It argues that the
Navy’s decision to deploy Plaintiffs near the FNPP
was a superseding cause of Plaintiffs’ injuries, and
that Plaintiffs, accordingly, cannot prove their
claims without asking the court to review
nonjusticiable military decisions. The district court
found that TEPCO’s superseding causation defense
did not render this case nonjusticiable. Cooper II,
166 F. Supp. 3d at 1119–24. We review de novo
the district court’s determination that the political
question doctrine does not bar Plaintiffs’ case. Corrie
v. Caterpillar, Inc., 503 F.3d 974, 979 (9th Cir.
2007).
1.

The political question doctrine framework

“The nonjusticiability of a political question is
primarily a function of the separation of powers.”
Baker v. Carr, 369 U.S. 186, 210 (1962). “The
conduct of the foreign relations of our government is
committed by the Constitution to the executive and
legislative—‘the political’—departments
of the

118a
government, and the propriety of what may be done
in the exercise of this political power is not subject
to judicial inquiry or decision.” Oetjen v. Cent.
Leather Co., 246 U.S. 297, 302 (1918). The Court
has cautioned, however, that “it is ‘error to suppose
that every case or controversy which touches
foreign relations lies beyond judicial cognizance.’”
Corrie, 503 F.3d at 982 (quoting Baker, 369 U.S. at
211). Rather, courts look to a series of factors to
determine whether a case presents a nonjusticiable
political question. As Baker explains:
Prominent on the surface of any case
held to involve a political question is
found [1] a textually demonstrable
constitutional commitment of the
issue
to
a
coordinate
political
department; or [2] a lack of judicially
discoverable
and
manageable
standards for resolving it; or [3] the
impossibility of deciding without an
initial policy determination of a kind
clearly for nonjudicial discretion; or [4]
the
impossibility
of
a
court’s
undertaking independent resolution
without expressing lack of the respect
due
coordinate
branches
of
government; or [5] an unusual need
for unquestioning adherence to a
political decision already made; or [6]
the potentiality of embarrassment
from multifarious pronouncements by
various departments on one question.

119a
369 U.S. at 217.
Typically, deciding whether a case presents a
nonjusticiable political question requires the court
simply to look at the complaint and apply the Baker
factors to decide whether there are any
nonjusticiable issues. Sometimes, however, and as is
the case here, no political questions are apparent
from the complaint’s face. Plaintiffs’ allegations that
TEPCO, an entity unaffiliated with the United
States government, was negligent in operating the
FNPP do not, on their face, trigger any of the six
Baker factors. But even when the face of a complaint
does not ask the court to review a political question,
issues “that are textually committed to the executive
sometimes lie just beneath the surface of the case.”
Harris v. Kellogg Brown & Root Servs., Inc., 724
F.3d 458, 465 (3d Cir. 2013). Such may be the case
when, as here, the defendant argues that the U.S.
military is responsible for all or part of a plaintiff’s
injuries. See id. Because “the political question
doctrine is jurisdictional in nature,” we must
evaluate these potential defenses and facts beyond
those pleaded in the complaint to determine whether
the case is justiciable. See Corrie, 503 F.3d at 979;
see also Harris, 724 F.3d at 466 (“[T]o avoid
infringing on other branches’ prerogatives in wartime defense-contractor cases, courts must apply a
particularly discriminating inquiry into the facts and
legal theories making up the plaintiff’s claims as
well as the defendant’s defenses.”); Taylor v. Kellogg
Brown & Root Servs., Inc., 658 F.3d 402, 409 (4th
Cir. 2011) (“[W]e are obliged to carefully . . . ‘look
beyond the complaint, and consider how [the

120a
plaintiff] might prove his claim and how [the
defendant] would defend.’” (citation, emphasis, and
alterations omitted)); Carmichael v. Kellogg, Brown
& Root Servs., Inc., 572 F.3d 1271, 1285 (11th Cir.
2009) (finding the political question doctrine
applicable where “any defense mounted by
[defendants] would undoubtedly cite the military’s
orders as the reason” for defendants’ actions); Lane v.
Halliburton, 529 F.3d 548, 565 (5th Cir. 2008) (“We
must look beyond the complaint, considering how the
Plaintiffs might prove their claims and how [the
defendant] would defend.”).
Thus, analyzing TEPCO’s contention that the
political question doctrine bars Plaintiffs’ claims
requires a two-part analysis. First, we must
determine whether resolving this case will require
the court to evaluate a military decision. Doing so
requires us to consider what Plaintiffs must prove to
establish their claim, keeping in mind any defenses
that TEPCO will raise. If step one reveals that
determining TEPCO’s liability will require the court
to evaluate a military decision, step two requires us
to decide whether that military decision is of a kind
that is unreviewable under the political question
doctrine. See Harris, 724 F.3d at 466 (“[A]
determination must first be made whether the case
actually requires evaluation of military decisions. If
so, those military decisions must be of the type that
are unreviewable because they are textually
committed to the executive.”); Lane, 529 F.3d at
560 (“First, [the defendant] must demonstrate that
the claims against it will require reexamination of a
decision by the military. Then, it must demonstrate

121a
that the military decision at issue . . . is insulated
from judicial review.” (second alteration in original)
(citation omitted)).
Although we have never expressly adopted this
two-part test, it is consistent with our precedent. For
example, in Corrie, the plaintiffs were family
members of individuals who were killed or injured
when the Israeli Defense Forces demolished homes
in the Palestinian Territories using bulldozers
manufactured by a U.S. defense contractor. 503
F.3d at 977. The plaintiffs sued the defense
contractor, arguing that it knew the bulldozers
would be used to demolish homes in violation of
international law. Id. Though the complaint
standing alone did not appear to raise a political
question, it turned out that the United States paid
for each of the bulldozers sold to the Israeli Defense
Forces pursuant to a congressionally enacted
program giving the executive discretion to finance
aid to foreign militaries. Id. at 978. We concluded
that resolving the plaintiffs’ claims would require us
to evaluate the United States’ decision to provide
military aid because it was “difficult to see how we
could impose liability on [the defense contractor]
without at least implicitly deciding the propriety of
the United States’ decision to pay for the bulldozers
which allegedly killed the plaintiffs’ family members.”
Id. at 982. Having determined that evaluating the
plaintiffs’ claims would require us implicitly to
evaluate the United States’ decision to pay for the
bulldozers, we concluded that the decision “to grant
military or other aid to a foreign nation is a political
decision inherently entangled with the conduct of

122a
foreign relations.” Id. at 983. In light of our
conclusion that we could not “intrude into our
government’s decision to grant military assistance to
Israel, even indirectly,” we affirmed the district
court’s dismissal of the plaintiffs’ claims under the
political question doctrine. Id. at 983–84.
Because determining whether a case raises a
political question requires a “discriminating inquiry
into the precise facts and posture of the particular
case,” Baker, 369 U.S. at 217, it is not always
possible to tell at the pleading stage whether a
political question will be inextricable from the case,
see Lane, 529 F.3d at 554. For example, in Lane, a
defense contractor recruited the plaintiffs to drive
trucks in Iraq. Id. While in Iraq, Iraqi insurgents
attacked the plaintiffs’ convoys resulting in deaths
and injuries to the plaintiffs. Id. at 555. The
plaintiffs argued that the contractor fraudulently
induced them into employment by falsely
representing that their work in Iraq would be
entirely safe. Id. They also asserted that the defense
contractor was negligent in carrying out the convoy.
Id. The defense contractor argued that the case
presented a nonjusticiable political question, and the
district court agreed and dismissed the case. Id. at
555–56.
On appeal, the Fifth Circuit reversed. The court
stressed that in order to dismiss a case on political
question grounds, “a court must satisfy itself that [a]
political question will certainly and inextricably
present itself.” Id. at 565. Though acknowledging the
potential for a political question to arise in the case,

123a
the court was not satisfied that addressing a political
question would be inevitable. The plaintiffs’ fraud
theory, for example, might have succeeded if the
plaintiffs could establish that the defense contractor
guaranteed the plaintiffs’ safety while knowing that
the plaintiffs were at a greater risk of harm than
they were led to believe. Id. at 567. The court also
permitted the plaintiffs’ negligence claims to proceed,
while noting that those claims “move precariously
close to implicating the political question doctrine,
and further factual development very well may
demonstrate that the claims are barred.” Id. But
given the lack of clarity at the pleading stage
regarding what duties the defense contractor owed
toward the plaintiffs while in Iraq, it was not certain
that a political question was inextricable from the
case. Id. Accordingly, the court remanded to the
district court for further factual development. Id. at
568; see also Carmichael, 572 F.3d at 1279 (noting
that factual developments during discovery aided the
district court in determining whether a political
question existed); McMahon v. Presidential Airways,
Inc., 502 F.3d 1331, 1361 (11th Cir. 2007) (rejecting
a defendant’s arguments that the political question
doctrine barred the plaintiffs’ claims because it was
not clear from the pleadings that a political question
existed).
Another consideration that may make it difficult
to determine in the early stages of litigation
whether a nonjusticiable political question exists is
a lack of clarity as to which state’s or country’s law
applies. See Harris, 724 F.3d at 474. Deciding
whether a political question is inextricable from a

124a
case necessarily requires us to know what the
plaintiff must prove in order to succeed. Although
there is often similarity between the tort regimes of
different jurisdictions, the elements of a particular
tort and the host of defenses available to the
defendant can vary in significant ways. See id.
(contrasting the tort laws of Pennsylvania,
Tennessee, and Texas). This leaves open the
possibility that a political question may arise under
the laws of one jurisdiction but not under the laws
of another. For example, in Harris, the Third Circuit
concluded that a political question would arise under
Tennessee or Texas law because their proportional
liability systems would require the court to
apportion fault among all possible tortfeasors,
including the military. Id. Doing so would require
the court to determine whether a particular military
decision was reasonable, which raised a political
question. In contrast, under Pennsylvania’s jointand-several liability system, it would be possible
to impose liability on the defense contractor without
needing to apportion any fault to the military or
otherwise review its decisions. Id. Thus, at least
where the potentially applicable bodies of law differ,
the district court must either decide what law applies
or conclude that a political question would arise
under any potentially applicable body of law before
it can dismiss a case as nonjusticiable.
2.

Analysis

At this stage in the litigation, we find ourselves
unable to undertake the “discriminating inquiry”
necessary to determine if this case presents a

125a
political question. Baker, 369 U.S. at 217. The
parties have agreed, and we assume for present
purposes, that the political question doctrine
prevents us from evaluating the wisdom of the
Navy’s decision to deploy troops near the FNPP. See
Corrie, 503 F.3d at 983 (“Whether to grant military
or other aid to a foreign nation is a political decision
inherently entangled with the conduct of foreign
relations.”); see also Gilligan v. Morgan, 413 U.S. 1,
10 (1973) (“The complex[,] subtle, and professional
decisions as to the composition, training, equipping,
and control of a military force are essentially
professional military judgments . . . .”); id. (“It would
be difficult to think of a clearer example of the type
of governmental action that was intended by the
Constitution to be left to the political branches . . . .
Moreover, it is difficult to conceive of an area of
governmental activity in which the courts have less
competence.”); Johnson v. Eisentrager, 339 U.S. 763,
789 (1950) (“Certainly it is not the function of the
Judiciary to entertain private litigation—even by a
citizen—which challenges the legality, the wisdom,
or the propriety of the Commander-in-Chief in
sending our armed forces abroad or to any particular
region.”). In other words, step two is not in dispute.
The dispute is whether Plaintiffs’ claims or TEPCO’s
superseding causation defense would actually
require the court to review the wisdom of the Navy’s
decisions during Operation Tomodachi.
Several considerations make it difficult for us to
tell at this stage in the proceedings whether the
district court would actually need to review the
Navy’s decisions. First, the district court has yet to

126a
undergo a choice-of-law analysis, and the parties
have briefed the issue assuming California law
applies. Without knowing what body of law applies—
whether it is California law, Japanese law, federal
common law, or something else—we cannot know
what Plaintiffs must demonstrate in order to prove
their claims or what defenses are available to
TEPCO. We cannot, therefore, decide with certainty
that a political question is inextricable from the case.
See Harris, 724 F.3d at 474–75.14
Even assuming California law applies, we are
unable to conclude at this juncture that TEPCO’s
superseding causation defense injects a political
question into this case. “California has adopted
sections 442–453 of the Restatement of Torts,
which define when an intervening act constitutes a
superseding cause.” USAir Inc. v. U.S. Dep’t of
Navy, 14 F.3d 1410, 1413 (9th Cir. 1994). Section
442 of the Restatement lays out several
considerations used to determine whether an
intervening force is a superseding cause.

TEPCO suggests that there are no material differences
between the potentially applicable bodies of law, making the
choice-of-law analysis irrelevant. In support of this argument,
TEPCO cites to only a few pages of the record providing a
brief summary of how Japanese tort law addresses causation.
Aside from that, the parties have not briefed the choice of
law issue. TEPCO may well be correct that the political
question doctrine will bar review irrespective of the choice of law,
but we will defer consideration of the matter until after the
parties fully brief the issue in the district court and the district
court makes a determination in the first instance.
14

127a
Restatement (Second) of Torts § 442 (Am. Law Inst.
1965). The parties primarily discuss two such
considerations. First, determining whether the
Navy’s actions were a superseding cause of
Plaintiffs’ injuries will require the district court to
determine whether the Navy’s actions were
foreseeable as a result of TEPCO’s negligence. As
we have explained our understanding of California
law,
[a] superseding cause must be
something more than a subsequent
act in a chain of causation; it must
be an act that was not reasonably
foreseeable at the time of the
defendant’s
negligent
conduct.
Moreover, even if the intervening act
is negligent, it is not a superseding
cause if the first actor should have
known that a third person might so
act.

USAir Inc., 14 F.3d at 1413 (citations omitted).
Even when a third party acts negligently, it may not
relieve the defendant of its own negligence where
the defendant could have anticipated the acts of
the third party. Rather, in that circumstance there
is “concurrent or contributory causation, where both
wrongful acts were necessary conditions of the
harm. That there was more than one proximate or
legal cause of the accident is important only for
the district court’s apportionment of damages.” Id.
at 1414 (citations omitted).

128a
The district court ruled that it was foreseeable
that Plaintiffs and other foreign responders would be
in the area to provide aid in the wake of the
earthquake and tsunami. Cooper II, 166 F. Supp. 3d
at 1121. TEPCO argues, and we agree, that the
proper inquiry is not whether it was foreseeable that
Plaintiffs would be in the area, but whether TEPCO,
in anticipation of its alleged negligence, could have
foreseen the Navy’s actions in response. Only if
TEPCO could not have foreseen the Navy’s actions
and the Navy’s actions caused the Plaintiffs’ injuries
would the Navy’s conduct break the chain of
proximate causation. But deciding whether a
particular
military
action
was
“reasonably
foreseeable” is not the same as requiring an
evaluation of whether that action was itself
reasonable. We cannot begin to resolve these
questions at this stage in the litigation because there
are basic factual disputes regarding the Navy’s
operations during Operation Tomodachi. 15 We

TEPCO makes much of Plaintiffs’ allegations that the
U.S.S. Ronald Reagan was initially positioned “two miles off the
coast,” while the Navy had been warned to stay at least “50
miles outside of the radius . . . of the [FNPP].” Appellant’s
Opening Brief 7. The SAC alleges, however, that the U.S.S.
Ronald Reagan was situated so as to provide relief in the city
of Sendai, which is located over fifty miles north of the FNPP.
Thus, it is possible that the U.S.S. Ronald Reagan was at once
two miles off the coast and fifty miles away from the FNPP.
Although other portions of the SAC suggest that the U.S.S.
Ronald Reagan was closer to the FNPP, where the U.S.S.
Ronald Reagan was situated is unclear from the record before
us, and further factual development is necessary to resolve
this issue.
15

129a
agree with the district court that it may “hear
evidence with respect to where certain ships were
located and what protective measures were taken”
without running afoul of the political question
doctrine. Cooper II, 166 F. Supp. 3d at 1123; see
Harris, 724 F.3d at 473 (“[T]he submission of
evidence related to strategic military decisions that
are necessary background facts for resolving a
case . . . is not sufficient to conclude that a case
involves an issue textually committed to the
executive.”).
Second, TEPCO relies on § 452(2) of the
Restatement (Second) of Torts, which provides:
“Where, because of lapse of time or otherwise, the
duty to prevent harm to another threatened by the
actor’s negligent conduct is found to have shifted
from the actor to a third person, the failure of the
third person to prevent such harm is a superseding
cause.” This provision
covers the exceptional cases in which,
because the duty, and hence the
entire responsibility for the situation,
has been shifted to a third person, the
original actor is relieved of liability for
the result which follows from the
operation of his own negligence. The
shifted responsibility means in effect
that the duty, or obligation, of the
original actor in the matter has
terminated, and has been replaced by
that of the third person.

130a
Restatement (Second) of Torts § 452 cmt. d. Even
assuming TEPCO is correct that the duty to protect
Plaintiffs shifted from TEPCO to the Navy, 16 it is
not clear that determining whether the duty shifted
would raise a political question. A determination
that someone other than TEPCO bore the
responsibility for Plaintiffs’ safety might simply
absolve TEPCO of liability to Plaintiffs. The district
court may not have to then decide whether the
Navy fulfilled its duty to Plaintiffs.
The political question doctrine does not currently
require dismissal. As the facts develop, it may
become
apparent
that
resolving
TEPCO’s
superseding causation defense would require the
district court to evaluate the wisdom of the Navy’s
decisions during Operation Tomodachi. But at this
point, that is not clear. Further district court
proceedings will help flesh out the contours of

The applicability of § 452(2) may hinge on facts that are not
clear from the record before us. The comments to § 452 note
that “[i]t is apparently impossible to state any comprehensive
rule as to when” the responsibility to prevent harm passes to
a third person, but they list various factors that play into the
determination. Restatement (Second) of Torts § 452 cmt. f
(stating that such factors include “the degree of danger and the
magnitude of the risk of harm, the character and position of the
third person who is to take the responsibility, his knowledge of
the danger and the likelihood that he will or will not exercise
proper care, his relation to the plaintiff or to the defendant, the
lapse of time, and perhaps other considerations”). As the
district court noted, the Navy’s “knowledge of the danger” is
unclear at this point, as is exactly how much time passed
between the meltdown and the Plaintiffs’ arrival. Cooper II, 166
F. Supp. 3d at 1122.
16

131a
whatever law the district court finds applicable.
TEPCO is free to raise the political question
doctrine again if and when further developments
demonstrate that a political question is inextricable
from the case.
E.

Firefighter’s Rule

Finally, TEPCO argues that the firefighter’s
rule bars Plaintiffs’ claims. The firefighter’s rule
originated at common law and “precluded
firefighters from suing those whose negligence
caused or contributed to a fire that, in turn, caused
the firefighter’s injury or death.” Vasquez v. N. Cty.
Transit Dist., 292 F.3d 1049, 1054 (9th Cir. 2002).
Despite its name, the firefighter’s rule extends to
more than just firefighters. See id. at 1054–55. It is
an open question under California law, however,
whether the firefighter’s rule applies to military
servicemembers. The district court declined to
extend the firefighter’s rule beyond domestic first
responders. Cooper II, 166 F. Supp. 3d at 1127. As
with the political question doctrine, the parties have
briefed this issue assuming California law will apply.
We decline the invitation to rule on this issue of
California law, one that may well require us to
certify a question to the California Supreme Court,
before the district court has determined what law
applies. It is unclear whether Japanese law has a
doctrine similar to the firefighter’s rule, and the
choice of law determination may therefore obviate
the need to decide whether California would extend
this common law doctrine to military servicemembers.
Accordingly, we provide no opinion as to whether

132a
the
firefighter’s
rule
applies
to
military
servicemembers and, if so, whether it bars Plaintiffs’
claims.
III.

CONCLUSION

We affirm the district court’s denial of TEPCO’s
motion to dismiss. As the case develops more fully,
however, the district court may reconsider dismissal
as a matter of comity or under the political question
doctrine or state law.
AFFIRMED.

133a
APPENDIX E

UNITED STATES DISTRICT COURT SOUTHERN
DISTRICT OF CALIFORNIA
LINDSAY COOPER, ET
AL,

Plaintiff
v.
TOKYO ELEC. POWER
CO.
HOLDINGS, ET AL,

Defendant.

Case No.: 12cv3032-JLS
(JLB)
AMENDED
ORDER
AFTER
RECONSIDERATION:
(1) GRANTING IN PART
AND
DENYING
IN
PART DEFENDANT’S
MOTION TO DISMISS,
(2)
DENYING
DEFENDANT’S
MOTION TO DISMISS
UNDER FORUM NON
CONVENIENS
AND
INTERNATIONAL
COMITY,
AND
(3)
GRANTING
MOTION
FOR CERTIFICATION
OF INTERLOCUTORY
APPEAL

Presently before the Court is Defendant Tokyo
Electric Power Company, Inc.’s (“TEPCO”) Motion
for
Reconsideration
or,
Alternatively,
for
Certification of Interlocutory Appeal Under 28 U.S.C.

134a
§1292(b). (Mot. Reconsideration, ECF No. 73.)
TEPCO asks the Court to reconsider its prior Order
granting in part and denying in part TEPCO’s Motion
to Dismiss Second Amended Complaint for Lack of
Subject Matter Jurisdiction and Failure to State a
Claim or, in the Alternative, to Dismiss under the
Doctrines of Forum Non Conveniens and
International Comity. (See SAC Order, ECF No. 69
(granting in part and denying in part TEPCO’s Mot.
to Dismiss, ECF No. 55.))
Having carefully considered the Parties’
arguments and the law, the Court (1) GRANTS
TEPCO’s
Motion
for
Reconsideration,
(2)
MAINTAINS its prior rulings, and (3) CERTIFIES
this case for interlocutory appeal. This Order
AMENDS and SUPERSEDES the Court’s prior
Order docketed as ECF No. 69.
FACTUAL AND PROCEDURAL BACKGROUND

This Order incorporates by reference the factual
and procedural background set forth in the
Court’s Nov. 26, 2013 Order dismissing
Plaintiffs’ First Amended Complaint (“FAC”)
without prejudice. (FAC Order, Nov. 26, 2013, ECF
No. 46.) This section presents a brief summary of the
most relevant facts in order to provide context for
the issues discussed below.
Plaintiffs are members of the U.S. military who
allege that they were injured by radiation exposure
when they were deployed near the FukushimaDaichi Nuclear Power Plant (“FNPP”) in Japan in
the aftermath of the disastrous earthquake and

135a
tsunami that struck that country on March 11, 2011.
On December 21, 2012 Plaintiffs initiated this
action against TEPCO, which owns and operates
the FNPP, and subsequently filed the FAC on June
4, 2013.
1 .

First Amended Complaint

Plaintiffs’ FAC alleged that TEPCO “conspired
and acted in concert with the Japanese
Government . . . to create an illusory impression
that the extent of the radiation that had leaked
from the site of the FNPP was at levels that would
not pose a threat” to human health and safety, and
that TEPCO “failed to alert public officials,
including the U.S. Navy, the Plaintiffs, and the
general public, to the danger of coming too close to
the FNPP.” (See FAC ¶¶ 70, 109, ECF No. 21.)
On November 26, 2013, the Court granted
TEPCO’s motion to dismiss the FAC, concluding
that subject matter jurisdiction was lacking because
Plaintiffs’ claims were non-justiciable under the
political question doctrine. (FAC Order 9, Nov. 26,
2013, ECF No. 46.) The Court determined that
adjudicating Plaintiffs’ claims would require
impermissible scrutiny of the U.S. military’s
discretionary judgments regarding deployment of
personnel and would also require evaluation of
the Japanese Government’s communications with
the U.S. Government regarding the FNPP. (Id. at
7–9.) The Court dismissed Plaintiffs’ claims with
leave to amend and declined to address TEPCO’s
arguments for dismissal on the merits or its

136a
arguments urging dismissal on the basis of forum
non conveniens and international comity.
2 .

Second Amended Complaint

On February 5, 2014, Plaintiffs filed the Second
Amended Complaint (“SAC”), omitting claims
grounded in TEPCO’s purported fraud and
misrepresentation, and instead relying on
allegations that TEPCO was negligent in the siting,
design, construction, and operation of the FNPP.
Plaintiffs maintain, inter alia, that TEPCO failed to
adhere to basic safety requirements in designing
and operating the FNPP, failed to take adequate
measures to prevent and minimize nuclear
accidents, and failed to develop a suitable
evacuation plan in case of emergency. (SAC ¶ 109,
ECF No. 50.) Plaintiffs further allege that TEPCO
ignored warnings that the FNPP was at risk of
significant damage from a tsunami, failed to make
necessary repairs to the plant’s cooling system, and
failed to carry out timely inspections of other
critical equipment. (Id. at ¶¶ 114, 118–19.)
Plaintiffs contended that because they no longer
relied on TEPCO’s affirmative representations and
fraud, the Court was not required to analyze any
decision made by the Executive Branch of the U.S.
Government, thereby avoiding the justiciability
issue.
TEPCO moved to dismiss once again, arguing
that Plaintiffs’ revised claims did not remedy the
deficiencies previously identified by the Court. (Mot.
to Dismiss 1, ECF No. 55.) TEPCO filed the
operative Motion to Dismiss Second Amended

137a
Complaint for Lack of Subject Matter Jurisdiction
and Failure to State a Claim or, in the Alternative,
to Dismiss under the Doctrines of Forum Non
Conveniens and International Comity. (Mot. to
Dismiss, ECF No. 55.) In addition, Plaintiff filed a
Response in Opposition (Plaintiff’s Resp. in Opp’n,
ECF No. 59.) and TEPCO filed a Reply in Support
(Reply ISO Mot. to Dismiss, ECF No. 62.) of the
Motion to Dismiss.
According to TEPCO, the new theory of liability
elaborated in Plaintiffs’ SAC remained inadequate
because it still relied on an account of causation of
injury that implicated the deployment decisions of
the U.S. Navy and high-level communications
between the Japanese and U.S. Governments,
thereby raising the same issues of justiciability that
warranted dismissal of the original pleading. (Id.)
In addition, TEPCO emphasized that Plaintiffs’
claims failed on the merits and that this suit should
be dismissed on the grounds of forum non
conveniens and international comity to allow for
litigation to proceed in Japan. (Id. at 4–6.)
Additionally Plaintiffs filed a Motion to Amend
Second Amended Complaint to Add Doe Defendants
and Doe Plaintiffs. (Mot. to File Am. Compl., ECF No.
65.) The Court considered TEPCO’s Response in
Opposition, (TEPCO’s Resp. in Opp’n, ECF No. 67.),
and Plaintiffs’ Reply in Support (Reply ISO Mot. to
File Am. Compl., ECF No. 68.) of the Motion to
Amend.
After oral argument the Court took both
matters under submission and on October 28,

138a
2014, the Court issued its Order granting in part
and denying in part TEPCO’s motion. (Order,
ECF No. 69.) The Court granted TEPCO’s motion
to dismiss Plaintiff’s strict liability and design defect
claims as well as Plaintiff’s claims on behalf of Doe
plaintiffs. (Id.) The Court denied TEPCO’s motion
to dismiss for lack of subject matter jurisdiction.
(Id.) In so deciding, the Court reasoned that
Plaintiffs’ amended theory of causation did not
implicate any of the Baker factors and that the
military judgment in this instance is not the kind
that warranted application of the political question
doctrine. (Id. at 9.) Further, the Court found that
Plaintiff adequately alleged proximate causation
as against TEPCO. (Id. at 12.) The Court
determined that the Firefighter’s Rule was not a
bar to recovery because it does not apply to
independent acts of misconduct which were not
the cause of a plaintiff’s presence at the scene. (Id.
at 13.) Lastly, the Court denied TEPCO’s motions
to dismiss under the doctrines of forum non
conveniens and international comity. (Id.)
3 .

Motion for Reconsideration, or Alternatively,
for Certification

Subsequently, TEPCO filed a Motion for
Reconsideration or, Alternatively, for Certification
of Interlocutory Appeal Under 28 U.S.C. §1292(b).
(Mot. Reconsideration, ECF No. 73.) Plaintiff filed a
Response in Opposition to (Opp’n Reconsideration,
ECF No. 84) and TEPCO filed a Reply in Support of
(Reply Reconsideration, ECF No. 90) the Motion.
TEPCO premises its Motion for Reconsideration on

139a
the grounds of (1) an intervening change in
controlling law in International Comity analysis
and (2) clear error with respect to the Court’s
Causation and Firefighter’s Rule analysis. (Mot.
Reconsideration 1–3, ECF No. 73-1.)
TEPCO requests that if the Court does not
reconsider its Order and dismiss the case, then the
Court should certify the Order (or an Amended
Order) for interlocutory appeal. The Court heard
oral argument regarding the motion on March12,
2015.
I.
1 .

RECONSIDERATION
Legal Standard

In the Southern District of California, a party
may apply for reconsideration “[w]henever any
motion or any application or petition for any order
or other relief has been made to any judge and has
been refused in whole or in part.” Civ. L. R. 7.1(i)(1).
The moving party must provide an affidavit setting
forth, inter alia, new or different facts which
previously did not exist. Id.
Generally, reconsideration of a prior order is
“appropriate if the district court (1) is presented with
newly discovered evidence, (2) committed clear error
or the initial decision was manifestly unjust, or (3) if
there is an intervening change in controlling law.”
Sch. Dist. No. 1J v. ACandS, Inc., 5 F.3d 1255, 1263
(9th Cir. 1993) (citation omitted). Reconsideration
is an “extraordinary remedy, to be used sparingly
in the interests of finality and conservation of
judicial resources.” Kona Enters., Inc. v. Estate of

140a

Bishop, 229 F.3d 877, 890 (9th Cir. 2000) (citation
omitted). Ultimately, whether to grant or deny a
motion for reconsideration is in the sound discretion
of the district court. Navajo Nation v. Norris, 331
F.3d 1041, 1046 (9th Cir. 2003) (citing Kona
Enters., 229 F.3d at 883). A party may not raise
new arguments or present new evidence if it could
have reasonably raised them earlier. Kona Enters.,
229 F.3d at 890 (citing 389 Orange St. Partners v.
Arnold, 179 F.3d 656, 665 (9th Cir. 1999)).
2 .

Analysis

TEPCO
premises
its
Motion
for
Reconsideration on the grounds of (1) an
intervening change in controlling law and (2) clear
error. (Mot. Reconsideration 1–3, ECF No. 73-1.)
The Court addresses each basis in turn.

A.

Intervening Change in Controlling Law

TEPCO alleges that an intervening change in
controlling
law
justifies
its
Motion
for
Reconsideration. (Id. at 9.) Specifically, TEPCO
argues that the Ninth Circuit’s decision in Mujica v.
AirScan, Inc., 771 F.3d 580 (9th Cir. 2014)—handed
down two weeks after this Court’s Order—
substantially alters the legal standard governing
international comity. (Id.) In its Order denying
dismissal based on international comity, the Court
relied on the three-part Ungaro-Benages test,
analyzing: (1) the strength of the U.S.’s interests in
using a foreign forum, (2) the strength of the foreign
government’s interests, (3) and the adequacy of the

141a
foreign forum. Ungaro-Benages v. Dresdner Bank
AG, 379 F.3d 1227, 1232 (11th Cir. 2004).
TEPCO argues that reconsideration is
warranted in light of the Ninth Circuit’s substantial
revision and elaboration of the factors to be
considered in evaluating the first two elements of
the
Ungaro-Benages
framework. 1
(Mot.
Reconsideration 10, ECF No. 73-1.) TEPCO notes
that while the court in Mujica endorsed UngaroBenages’ framework as a useful starting point, it
held that the framework lacked substantive
standards for assessing its three factors and did not
provide sufficient guidance to district courts. (Id. at
5.) The Mujica court articulated a five-factor test
that may be applied in assessing the interests of the
respective countries2 and TEPCO contends that the
Court should consider this guidance now. (Id.) With
respect to both the U.S. and foreign country’s
interests, the Ninth Circuit held that courts should
consider the nonexclusive factors including:

(1) the location of the conduct in
question, (2) the nationality of the


With respect to the third element—adequacy of the foreign
forum—the Mujica court held that the focus should be on
procedural fairness in the forum and whether the opponent has
presented specific evidence of significant inadequacy. Id. at
607–08. TEPCO states that Mujica did not change the standards
governing the adequacy of the foreign forum, and in any case,
the Court found Japan to be an adequate alternative forum.
1

The Mujica court held that the “proper analysis of foreign
interests essentially mirrors the consideration of U.S.
interests.” 771 F.3d at 607.

2

142a
parties, (3) the character of the conduct
in question, (4) the foreign policy
interests of the United States, and (5)
any public policy interests.

Mujica, 771 F.3d at 604, 607. Under a renewed
analysis using Mujica’s five factors, TEPCO
contends that the case should be dismissed.
Plaintiff responds that although Mujica clarified
how a district court should evaluate a comity claim, it
left unchanged the primary factors a court should
use in deciding the claim. (Opp’n 8, ECF No. 84.)
The Court AGREES with TEPCO that Mujica’s
holding is relevant in this case, and a renewed
analysis in light of the opinion is warranted.
Accordingly, the Court AMENDS its Order below to
incorporate the Mujica factors. (See infra pp. 39–49.)

B.

Clear Error

TEPCO contends that reconsideration is
warranted due to clear error in the Court’s Order
regarding its (1) superseding cause analysis and (2)
application of the Firefighter’s Rule. (Mot. for
Reconsideration 17, ECF No. 73-1.)
The Court AGREES with TEPCO that in light of
its allegations of clear error, a renewed analysis of
the Order is warranted. Accordingly, the Court
AMENDS its Order to incorporate the Parties’
supplemental arguments and to clarify its ruling.
(See infra pp. 8–24.)

C.

Conclusion

143a
Accordingly, the Court AMENDS the following
sections, taking into account the
parties
subsequent briefing on reconsideration: Subject
Matter
Jurisdiction,
Proximate
Causation,
Firefighter’s Rule, and International Comity.
II. TEPCO’S
MOTION
TO
DISMISS
PLAINTIFFS’ SAC FOR LACK OF SUBJECT
MATTER JURISDICTION AND FAILURE TO
STATE A CLAIM OR, IN THE ALTERNATIVE,
TO DISMISS UNDER THE DOCTRINES OF
FORUM
NON
CONVENIENS
AND
INTERNATIONAL COMITY
SUBJECT MATTER JURISDICTION

TEPCO moves to dismiss Plaintiffs’ SAC for lack
of subject matter jurisdiction, arguing that the SAC
raises nonjusticiable political questions.
1.

Legal Standard

A motion to dismiss pursuant to Federal Rule
of Civil Procedure 12(b)(1) challenges a court’s
subject matter jurisdiction. Federal district courts
are courts of limited jurisdiction that “may not grant
relief absent a constitutional or valid statutory
grant of jurisdiction” and are “presumed to lack
jurisdiction in a particular case unless the contrary
affirmatively appears.” A–Z Int’l v. Phillips, 323 F.3d
1141, 1145 (9th Cir. 2003) (internal quotations
omitted).
“[D]isputes involving political questions lie outside of
the Article III jurisdiction of federal courts.” Corrie v.
Caterpillar, Inc., 503 F.3d 974, 980 (9th Cir. 2007).

144a
The political question doctrine forecloses judicial
review of controversies which revolve around policy
choices constitutionally committed to Congress or the
Executive branch. Japan Whaling Ass’n v. Am.
Cetacean Soc., 478 U.S. 221, 230 (1986). Like other
doctrines of justiciability, such as standing,
mootness, and ripeness, the political question
doctrine is grounded in respect for the
Constitution’s separation of powers. See Baker v.
Carr, 369 U.S. 186, 210 (1962) (“The
nonjusticiability of a political question is primarily
a function of the separation of powers.”). A case
should be dismissed on political question grounds
if one of the following characteristics is present:
[1]
a
textually
demonstrable
constitutional commitment of the issue
to a coordinate political department;
[2] a lack of judicially discoverable and
manageable standards for resolving it;
[3] the impossibility of deciding
without
an
initial
policy
determination of a kind clearly for
nonjudicial
discretion;
[4]
the
impossibility of a court’s undertaking
independent
resolution
without
expressing lack of the respect due
coordinate branches of government; [5]
an unusual need for unquestioning
adherence to a political decision
already made; or [6] the potentiality of
embarrassment from multifarious
pronouncements
by
various
departments on one question.

145a

Id.
Determining whether a case involves a
nonjusticiable political question requires a
“discriminating inquiry into the precise facts and
posture of the particular case.” Id. at 217. Courts
must analyze “the particular question posed, in
terms of the history of its management by the
political branches, of its susceptibility to judicial
handling in light of its nature and posture in the
specific case, and of the possible consequences of
judicial action.” Id. at 211–12. While many cases
involving foreign relations or the military invoke
the political question doctrine, “it is error to suppose
that every case or controversy which touches foreign
relations lies beyond judicial cognizance.” Id. at 211.
Courts must determine, in light of the Baker
factors, “whether the military judgment is the
kind that warrants application of the political
question doctrine.” McMahon v. Presidential
Airways, Inc., 502 F.3d 1331, 1358 (11th Cir. 2007).
The court “must analyze [a plaintiff’s] claim as it
would be tried, to determine whether a political
question will emerge.” Carmichael v. Kellogg, Brown
& Root Servs., Inc., 572 F.3d 1271, 1281 (11th Cir.
2009) (citing Occidental of Umm al Qaywayn, Inc. v.
A. Certain Cargo of Petroleum, 577 F.2d 1196 (5th
Cir. 1978)).
2.

Analysis

TEPCO argues that the first, second, third,
and fourth Baker factors are implicated in

146a
Plaintiffs’ theory of causation, and that the Court,
therefore, lacks subject matter jurisdiction over this
case. (Mot. to Dismiss 16–17, ECF No. 55.)
Plaintiffs maintain that they have “redirected
the focus of their claims” away from TEPCO’s
alleged misrepresentations and fraud, and toward
TEPCO’s negligent acts and omissions prior to, and
during, the nuclear accident at the FNPP.
(Plaintiffs’ Resp. in Opp’n 6, ECF No. 59.) According
to Plaintiffs, because the SAC no longer rests on the
theory that TEPCO’s misrepresentations influenced
military judgments regarding deployment of
personnel and assets, the Court need not “stand in
judgment over any decision made by the Executive
Branch of the U.S. Government.” (Id. at 1.)
Plaintiffs contend that their action as amended is
now merely one for “ordinary negligence,” which can
be resolved through the application of “traditional
tort standards” that do not raise political questions.
(Id. at 10.) In particular, the SAC seeks to impose
liability for TEPCO’s “intentional and negligent
oversight in construction, design, regulatory
compliance, maintenance, training, emergency
readiness, emergency responses, and decision
making during the emergency.” (Id. at 11–12.)
TEPCO rejects this characterization of the SAC.
Despite Plaintiffs’ efforts to re- style their pleading
by dropping their cause of action for fraud, TEPCO
contends that Plaintiffs are nonetheless required to
“plead and prove that the chain of causation [of
injury] was not broken by the U.S. Navy’s
independent decisionmaking about where to locate

147a
the vessels and what protective measures to take.”
(Reply ISO Mot. to Dismiss 3, ECF No. 62.) Because
the Navy’s contribution to causation remains in
issue, TEPCO argues that the Court cannot
adjudicate Plaintiffs’ negligence claims without
implicating several of the Baker factors. TEPCO
asserts that Plaintiffs continue to rely on
concealment by TEPCO and the Japanese
government.
After reevaluating the “chain of causation” in
this case, the Court agrees with Plaintiffs that the
SAC as amended no longer requires the Court to
evaluate the discretionary actions of the U.S.
military or communications between the Japanese
and U.S. Governments. In reaching this decision
the Court must make a “discriminating inquiry into
the precise facts and posture” of this case.

A .

Factual Causation

Causation in fact is one necessary element in
causation analysis. See USAir, Inc. v. U.S. Dept. of
Navy, 14 F.3d 1410, 1413 (9th Cir. 1994) (citing
Maupin v. Widling, 192 Cal.App.3d 568, 237
Cal.Rptr. 521, 524 (Cal. Ct. App. 1987)).
As alleged, TEPCO’s negligence was a factual
cause of Plaintiff’s injuries. Plaintiffs allege that
TEPCO failed to adhere to basic safety
requirements in designing and operating the FNPP,
failed to take adequate measures to prevent and
minimize nuclear accidents, failed to develop a
suitable evacuation plan in case of emergency,
failed to make necessary repairs to the plant’s

148a
cooling system, failed to carry out timely inspections
of critical equipment, and ignored warnings that the
FNPP was at risk of significant damage from a
tsunami. (SAC ¶¶ 109, 114, 118–19, ECF No. 50.)
These negligent acts, in conjunction with the
earthquake and tsunami, led to the FNPP’s
ultimate failure which caused Plaintiffs and many
other people within the FNPP’s vicinity to fall ill.
The Navy’s decision to deploy personnel and
assets in support of Operation Tomodachi is also a
factual cause of Plaintiff’s injuries. Accepted as true,
the SAC states that the Navy transported Plaintiffs
into the vicinity of the FNPP in response to the
earthquake and tsunami in order to provide
humanitarian relief to Japan. Aside from
transporting Plaintiffs into the area, the executive
branch had no role in the chain of causation for
Plaintiffs’ injuries as alleged in the SAC.

B .

Proximate Causation

TEPCO contends that the U.S. military’s
contribution to causation should limit its liability in
this case. If the U.S. military’s actions were a
superseding cause that cut off TEPCO’s liability,
TEPCO’s allegedly negligent acts or omissions
were not a proximate cause of Plaintiffs’ injuries.
See USAir, 14 F.3d at 1413.

(i)

Legal Standard

149a
The doctrine of proximate causation limits
liability. 6 Witkin, Summary 10th (2005) Torts,
Cause in Fact and Proximate Cause s. 1186, p. 553
(2012). In certain situations where the defendant's
conduct is an actual cause of plaintiff’s harm, the
defendant will nevertheless be absolved where there
is an independent intervening act that was not
reasonably foreseeable. Id.; Farr v. NC Mach. Co.,
186 F. 3d 1165, 1169 (9th Cir. 1999) (“the doctrine
of superseding intervening cause is at bottom an
expression of the requirement of foreseeability”
(citing Robert E. Keeton, Legal Cause In the Law of
Torts 38–41 (1963)); See Akins v. Sonoma Cnty., 67
Cal. 2d 185, 199 (1967) (Whether defendant is liable
“revolves around a determination of whether the
later cause of independent origin . . . was
foreseeable by the defendant or, if not foreseeable,
whether it caused injury of a type which was
foreseeable”). A superseding cause must be
something more than a subsequent act in a chain of
causation:
It must be an act that was not
reasonably foreseeable at the time of
the defendant's negligent conduct.
Moreover, even if the intervening act
is negligent, it is not a superseding
cause if the first actor should have
known that a third person might so act.

USAir, 14 F.3d at 1413 (citing Restatement
(Second) of Torts § 447(a)); Earp v. Nobmann, 122
Cal.App.3d 270, 175 Cal.Rptr. 767, 780 (Cal. Ct. App.
1981).

150a
California has adopted sections 442 through 453
of the Restatement (Second) of Torts. USAir, 14 F.3d
at 1413. These sections discuss whether an
intervening force should be considered a
“superseding cause” thereby limiting an actor’s
liability for harm which his antecedent negligence
was a substantial factor in bringing about.
Restatement (Second) of Torts §§ 440–53 (1965).
Relevant considerations include:
(a) the fact that its intervention brings
about harm different in kind from
that which would otherwise have
resulted from the actor's negligence; (b)
the fact that its operation or the
consequences thereof appear after the
event to be extraordinary rather than
normal in view of the circumstances
existing at the time of its operation; (c)
the fact that the intervening force is
operating independently of any
situation created by the actor's
negligence, or, on the other hand, is
or is not a normal result of such a
situation; (d) the fact that the
operation of the intervening force is
due to a third person's act or to his
failure to act; (e) the fact that the
intervening force is due to an act of a
third person which is wrongful toward
the other and as such subjects the
third person to liability to him; (f) the
degree of culpability of a wrongful act

151a
of a third person which sets the
intervening force in motion.
Usually, “the failure of a third person to act
to prevent harm to another threatened by the
actor’s negligent conduct is not a superseding cause
of such harm.” Id. § 452(1). However, section 452(2)
covers the exceptional case where the entire
responsibility for a situation has been shifted to a
third party:
Where, because of lapse of time or
otherwise, the duty to prevent harm to
another threatened by the actor’s
negligent conduct is found to have
shifted from the actor to a third
person, the failure of the third person
to prevent such harm is a superseding
cause.
Where a third person has the opportunity to
take affirmative action to avert the threatened
harm, various factors should be considered, including:
“the degree of danger and the magnitude of the risk
of harm, the character and position of the third
person who is to take responsibility, his knowledge
of the danger and the likelihood that he will or will
not exercise proper care, his relation to the plaintiff
or to the defendant, the lapse of time, and perhaps
other considerations.” Restatement (Second) of
Torts § 452(2) cmt. f.

(ii)

Analysis

152a
TEPCO argues that the Navy’s independent
decision to send the U.S.S. Reagan to Japan was a
superseding cause of Plaintiffs’ harm, which limited
TEPCO’s liability by breaking the chain of
proximate causation. To determine whether the
Navy’s decision was a superseding cause, TEPCO
argues that the Court will be required to evaluate
the discretionary decisions of military commanders,
which would invoke a political question and deprive
the Court of subject matter jurisdiction.
As a threshold matter, the Court notes that
superseding cause is usually a factual issue that
would be determined by a jury. See Benefiel v.
Exxon Corp., 959 F.2d 805, 808 (9th Cir. 1992).
However in the instant case, TEPCO argues that
where the military’s discretionary decision making
is a step in the chain of causation of injury, the
inquiry into whether the Navy’s decision could be a
superseding cause would necessarily raise a
nonjusticiable political question, thus depriving the
Court of jurisdiction. Although TEPCO argues that
under these circumstances the inquiry itself raises a
non-justiciable political question, the Court must
look at the nature and extent of the military’s
involvement and decide whether it is the type of case
where a political question is necessarily implicated.
See McMahon, 502 F.3d 1331 (11th Cir. 2007) (not all
cases involving the military are necessarily
foreclosed by the political question doctrine).

(a)

Foreseeability

153a
At the outset, TEPCO argues that “it was not
foreseeable that the most sophisticated military in
the world [would] place its servicemembers ‘two
miles’ from the FNPP and do so after Unit 1 had
already exploded and the risk of radiation was wellknown.” (Mot. Reconsideration 18, n.5, ECF No. 731(citing NY Times articles which came out the day
of and the day after the tsunami when Plaintiffs
allegedly arrived off the coast of Japan).)
On the other hand, Plaintiffs argue that TEPCO
was aware of the risks of engaging in an ultrahazardous activity, aware of the applicable safety
standards, aware of the potential for an earthquake,
aware that in the past, the U.S. and other allies had
provided humanitarian aid in the aftermath of
earthquakes and other emergencies, and that harm
to foreign relief workers in the vicinity was
foreseeable. (Opp’n Reconsideration 24–25, ECF No.
84.) Plaintiffs argue that TEPCO’s unstated
assertion is that the Navy was negligent in entering
the radioactive zone. (Id. at 26.) However, Plaintiffs
allege that upon discovering the increasing
radioactivity, the Military Command ordered its
fleet further out to sea. (Id.) Plaintiffs contend that
it is unreasonable to believe that Military
Command would knowingly place itself and its
crewmembers in a zone of life-threatening
radioactivity. (Id.)
At this early stage in the proceedings, TEPCO
does not persuade the Court that the U.S. military’s
decision-making could constitute a superseding
cause of Plaintiffs’ injuries. It is foreseeable that as

154a
a result of an improperly designed and maintained
nuclear plant, people present in the vicinity would
be adversely affected by radiation. Likewise, the
Navy’s presence in this scenario was foreseeable. In
the aftermath of a natural disaster, it is foreseeable
that foreign military and aid-workers would be
among those in the vicinity.
It would be
improper to shift the entire responsibility from
TEPCO to the Navy where the Navy’s actions were a
foreseeable consequence of the very negligence
alleged against TEPCO. “In line with the
fundamental rule of foreseeability, the courts have
largely abandoned the effort to construct a rule of
law that exculpates the first actor merely because a
second actor has discovered the danger and could
avoid it.” Dan B. Dobbs, Paul T. Hayden and Ellen
M. Bublick, The Law of Torts 213 (2d ed.).
Even if TEPCO claims that the Navy was
somehow negligent, “it is not a superseding cause
if the first actor should have known that a third
person might so act” or if the action of the third party
was
not
highly
extraordinary
given
the
circumstances.
USAir, 14 F.3d at 1413;
Restatement (Second) of Torts § 447. The SAC
alleges that the Navy’s actions were reasonable.
Plaintiffs contend that once the U.S.S. Reagan
detected unsafe levels of radiation, the ship
withdrew from the area. Further, TEPCO presents
no facts showing the U.S. military’s precautions
were inadequate or unreasonable. TEPCO only
points out that the Navy is a sophisticated entity
with the independent capability of knowing the
risks incident to a natural disaster. (Mot. to

155a
Dismiss 25, ECF No. 55.) As discussed above, the
Navy’s actions were foreseeable, they appear to be
reasonable in light of Plaintiffs’ SAC, and they do not
overwhelm and supplant TEPCO’s negligence.

(b)

Third Party’s Failure to Prevent Harm

In addition, although TEPCO did not initially
rely on the Restatement, in its Motion for
Reconsideration
TEPCO
states
that
its
“superseding cause argument is embodied by
section 452(2)”: Third Person’s Failure to Prevent
Harm. (Id. at 20.) TEPCO argues that the factors as
outlined in the Restatement’s comment show that
the Navy’s decision to send servicemembers into
this dangerous situation may act as a superseding
cause and litigation of this case will therefore
require an inquiry into the Navy’s decision making.
(Id. at 22.) First, TEPCO states that the Navy’s
character and position enabled it to take
responsibility to prevent Plaintiffs from radiation.
(Id.) Second, TEPCO argues, it is unlikely that the
Navy would not exercise proper care. (Id.) Third, the
Navy has complete control over servicemembers and
a duty to care for and protect them. (Id.) Fourth,
TEPCO contends that the lapse of time makes it
clear that the Navy had actual knowledge of the
danger of radiation. (Id.)
The Court is not persuaded by TEPCO’s “third
party failure to prevent harm” argument. Analysis
of the relevant factors does not establish that the
Navy’s actions constituted a supervening cause and
that duty shifted from TEPCO to the Navy. First,
the degree of danger and the magnitude of the risk

156a
of harm were great because TEPCO was conducting
the ultra-hazardous activity of running a nuclear
power plant. In addition, the Navy’s knowledge of
the danger is unclear at this stage in this litigation.
Although there appears to have been general
knowledge of the potential nuclear leak, the extent
of the leak and the magnitude of danger were likely
unknown, especially given the close time frame
between the disaster and the Navy’s arrival. Even
assuming the Navy knew of the existence of the
leak, it is likely that the Navy exercised proper care
over the servicemembers. Next, although the Navy
was in the position to take responsibility for the
care of the servicemembers, it is not mutually
exclusive that the Navy acted reasonably and that
harm also resulted. In addition, the Navy had no
relationship with TEPCO. Lastly, there was only a
short lapse of time between the disaster and the
Navy’s arrival, within one day, and this was
amidst an ongoing humanitarian disaster.

(c)

Baker Factors

Moreover, in light of the specific factual posture
of this case, as discussed above, the Court does not
find any Baker factors or separation of powers
concerns to be implicated. While deployment
decisions regarding military personnel operating in
a disaster zone are essentially professional military
judgments, and therefore could implicate a political
question, here no military judgments need be
reviewed. The crux of the case is not whether the
decision to deploy or the actions taken during the
deployment were reasonable. The Navy’s choices

157a
only incidentally come into play as a potential
affirmative defense to Plaintiffs’ theory of
negligence, and as discussed above, that theory is
likely not viable.
The first Baker factor “is primarily concerned
with direct challenges to actions taken by a
coordinate branch of the federal government. Lane v.
Haliburton, 529 F.3d 548, 560 (5th Cir. 2008). Here,
Plaintiffs are not challenging the executive decision
to offer aid to Japan or questioning U.S. foreign
relations decisions. Next, in resolving this case, the
Court will rely on well-established tort standards
for judging a private corporation’s negligence, and
thus the second Baker factor is not implicated.
Plaintiffs ask the court to judge TEPCO's
policies and actions, not those of the military or
Executive Branch, and accordingly, the third Baker
factor is not implicated. To recover, Plaintiffs do not
need this Court to evaluate the Executive's
longstanding policy of deploying military to assist
with humanitarian aid. All parties accept that the
Executive acted within its discretionary authority to
deploy the U.S.S. Reagan to support the
humanitarian mission in Japan. (See RT 29, ECF
No. 99.) TEPCO's “intended defense has not been
shown as legitimately implicating this broad, policybased decision.” See Lane, 529 F.3d at 563.
And unlike the other cases presented before the
court where the circumstances were thoroughly
pervaded by military judgments and decisions, here,
the allegedly negligent conduct is easily separated
from the actions of the U.S. Navy both temporally

158a
and factually. Cf. Carmichael, 572 F.3d at 1282–83
(suit against military contractor related to driver’s
negligence
in
an
Iraqi
convoy
accident
nonjusticiable because convoy controlled by U.S.
military); Corrie, 503 F.3d at 980 (Palestine
nationals suing private corporation for selling
bulldozers to Israel where bulldozers approved and
paid for by U.S.); Taylor v. Kellogg Brown & Root
Servs., Inc., 658 F.3d 402 (4th Cir. 2011) (political
question barred negligence claim against military
contractor working in combat zone when
unauthorized military personnel interfered with
repair of electrical box). TEPCO is not a military
contractor or otherwise under the control or
direction of the United States.
Were the actions of TEPCO and the military so
intertwined that to question TEPCO’s decisions
would necessarily question the Navy’s decisions,
any contribution to causation could very well raise a
nonjusticiable political question. However, it is
unclear from TEPCO’s briefing and oral argument
how resolving this case would question or impose
upon the discretionary decisions of the executive
branch. (See RT 22-38, ECF No. 99.) TEPCO thinks
that in hearing this case, the Court would have to
question how the mission was conducted. However,
at this point, the Court thinks it could hear
evidence with respect to where certain ships were
located and what protective measures were taken
without passing judgment on the executive’s
decisions. Therefore, the fourth Baker factor is not
implicated. Accordingly, because the Court finds
that Plaintiffs’ amended theory of causation does

159a
not implicate any of the Baker factors, the Court
need not delve into the discretionary decisions of
the executive branch, and the military judgment in
this instance does not warrant application of the
political question doctrine.
The Court notes that Plaintiffs substantively
changed their theory of the case in the SAC in order
to alleviate the Court’s justiciability concerns.
Plaintiffs’ FAC relied on the Japanese Government
and TEPCO’s deception regarding the condition of
the FNPP. Plaintiffs’ alleged a chain of causation
involving TEPCO’s communications with the Navy
and the Navy’s reliance on those misrepresentations.
This necessarily included the issue of whether the
Navy
justifiably
relied
on
TEPCO’s
misrepresentations and whether the Navy made an
informed decision in deploying personnel near the
FNPP. See Corrie, 503. F.3d at 983 (“Whether to
grant military or other aid to a foreign nation is a
political decision inherently entangled with the
conduct of foreign relations.”). Accordingly, the
Court dismissed the FAC as nonjusticiable.
However, the SAC omits these allegations. The
SAC no longer alleges that had it not been for
TEPCO’s distribution of false information regarding
radiation levels at the FNPP, military commanders
would have adopted a different course of action.
Similarly, the SAC no longer alleges that “but for
TEPCO’s allegedly wrongful conduct, the military
would not have deployed personnel near the FNPP
or would have taken additional measures to protect
service members from radiation exposure.” (Order 7,

160a
Nov. 26, 2013, ECF No. 46.) Moreover, Plaintiffs no
longer specifically allege that the Japanese
Government was TEPCO’s ‘co-conspirator’ in
providing misleading information to the Navy, (Mot.
to Dismiss 18, ECF No. 55.), and, the Court
therefore need not examine the Japanese
Government’s disclosures to the U.S. military. (See
Reply in Supp. 7–9, ECF No. 62.)
The “residual factual allegations asserting (1)
TEPCO’s affirmative misrepresentations that the
conditions at the reactor complex were within safe
limits, and (2) that the radioactive release was
far more dangerous than TEPCO communicated,
are not the basis of Plaintiff’s claims in the SAC.”
(Resp. in Opp’n 11, ECF No. 59.) TEPCO argues
throughout its motion to dismiss that these
statements continue to support its political
question defense. However, these allegations,
“although included in the SAC,” are not the basis
for Plaintiffs current claims as is evident from the
briefing and oral argument. TEPCO’s motion to
dismiss for lack of subject matter jurisdiction is
therefore DENIED.
FAILURE TO STATE A CLAIM
1.

Legal Standard

Federal Rule of Civil Procedure 12(b)(6) permits
a party to raise by motion the defense that the
complaint “fail[s] to state a claim upon which relief
can be granted.” The Court evaluates whether a
complaint states a cognizable legal theory and
sufficient facts in light of Federal Rule of Civil

161a
Procedure 8(a), which requires a “short and plain
statement of the claim showing that the pleader is
entitled to relief.” Although Rule 8 “does not require
‘detailed factual allegations,’ . . . it [does] demand[]
more than an unadorned, the-defendant-unlawfullyharmed-me accusation.” Ashcroft v. Iqbal, 556 U.S.
662, 129 S. Ct. 1937, 1949 (2009) (quoting Bell Atl.
Corp. v. Twombly, 550 U.S. 544, 555 (2007)). In
other words, “a plaintiff’s obligation to provide the
‘grounds’ of his ‘entitle[ment] to relief’ requires
more than labels and conclusions, and a formulaic
recitation of the elements of a cause of action will
not do.” Twombly, 550 U.S. at 555 (citing Papasan v.
Allain, 478 U.S. 265, 286 (1986)). “Nor does a
complaint suffice if it tenders ‘naked assertion[s]’
devoid of ‘further factual enhancement.’” Iqbal, 129
S. Ct. at 1949 (citing Twombly, 550 U.S. at 557).
“To survive a motion to dismiss, a complaint
must contain sufficient factual matter, accepted as
true, to ‘state a claim to relief that is plausible on
its face.’” Id. (quoting Twombly, 550 U.S. at 570);
see also Fed. R. Civ. P. 12(b)(6). A claim is facially
plausible when the facts pled “allow[] the court to
draw the reasonable inference that the defendant is
liable for the misconduct alleged.” Id. (citing
Twombly, 550 U.S. at 556). That is not to say that
the claim must be probable, but there must be
“more than a sheer possibility that a defendant has
acted unlawfully.” Id. Facts “‘merely consistent with’
a defendant’s liability” fall short of a plausible
entitlement to relief. Id. (quoting Twombly, 550 U.S.
at 557). Further, the Court need not accept as true
“legal conclusions” contained in the complaint. Id.

162a
This review requires context-specific analysis
involving the Court’s “judicial experience and
common sense.” Id. at 1950 (citation omitted).
“[W]here the well-pleaded facts do not permit the
court to infer more than the mere possibility of
misconduct, the complaint has alleged—but it has
not ‘show[n]’—‘that the pleader is entitled to relief.’”
Id. Moreover, “[f]or a complaint to be dismissed
because the allegations give rise to an affirmative
defense[,] the defense clearly must appear on the
face of the pleading.” McCalden v. Ca. Library Ass’n,
955 F.2d 1214, 1219 (9th Cir. 1990) (internal
quotation marks omitted).
Where a motion to dismiss is granted, “leave to
amend should be granted ‘unless the court
determines that the allegation of other facts
consistent with the challenged pleading could not
possibly cure the deficiency.’” DeSoto v. Yellow
Freight Sys., Inc., 957 F.2d 655, 658 (9th Cir.
1992) (quoting Schreiber Distrib. Co. v. Serv-Well
Furniture Co., 806 F.2d 1393, 1401 (9th Cir. 1986)).
In other words, where leave to amend would be
futile, the Court may deny leave to amend. See
Desoto, 957 F.2d at 658; Schreiber, 806 F.2d at
1401.
2 .

Analysis

TEPCO moves to dismiss each of Plaintiffs’
asserted causes of action for failure to state a claim
for which relief could be granted. The Court
considers each of TEPCO’s arguments in turn.

A.

Proximate Causation

163a
TEPCO contends that Plaintiffs fail to satisfy
the crucial element of proximate causation, such
that all nine of their claims must be dismissed
because there is no plausible connection between
TEPCO’s allegedly wrongful conduct and Plaintiffs’
injuries. TEPCO relies on the same argument
discussed above regarding the U.S. military’s role
in causation and its unlikely reliance on TEPCO’s
representations. (Mot. to Dismiss 21, ECF No. 55.)
As discussed above, the Court finds that Plaintiffs
have sufficiently pled proximate causation. As
alleged, Plaintiff’s harms were directly caused by
TEPCO’s negligence and Plaintiffs no longer contend
that the military based its decision to deploy on
TEPCO’s representations.
Additionally, the Court finds TEPCO’s reliance
on the Ninth Circuit’s decision in Galen v. Cnty. of
L.A., 477 F.3d 652 (9th Cir. 2007), and the First
Circuit’s decision in Jacob v. Curt, 898 F.2d 838 (1st
Cir. 1990), to be misplaced. TEPCO contends that
“when the decisionmaking of a government body is
an essential step in the chain of causation of injury,
a plaintiff’s burden to plead and prove proximate
causation requires a showing that the government’s
decisionmaking was not the result of its own
independent judgment.” (Mot. to Dismiss 21, ECF
No. 55.)
In both cases, plaintiffs sued individuals who
had made statements leading to a later independent
government decision. In Galen, the court identified
that California law vests judicial officers with “the
exclusive authority to enhance or reduce bail.” 477

164a
F.3d at 663. Therefore, a deputy’s recommendation
with respect to setting bail could not subject that
deputy to liability for the judicial officer’s decision.
Id. In Jacob, the court held that a researcher could
not be found liable for a foreign government’s
decision to close a health clinic because of the
researcher’s prior article criticizing the clinic. 898
F.2d at 839. In Galen and Jacob, due to the nature
of the successive independent decisions, the
government officials who made the subsequent
decisions were the exclusive proximate cause of
plaintiffs’ harm. In both cases, the courts held that
the independent government decisions were
superseding causes that broke the chain of
causation.
The situation before the Court is factually and
legally distinguishable from these two cases. As
alleged, TEPCO’s negligence was unrelated to the
Navy’s decision to offer aid to Japan. As discussed
previously, the Navy’s decision to offer aid to Japan
and to transport servicemembers into the area as
part of that mission did not supplant TEPCO’s
allegedly negligent behavior. The Court finds that
the SAC sufficiently alleges that TEPCO’s
negligence was a proximate cause of Plaintiffs’
injuries. Accordingly, the Court DENIES TEPCO’s
motion to dismiss on this basis.

B .

Firefighter’s Rule

TEPCO contends that Plaintiffs’ recovery is
barred under the “firefighter’s rule,” because as
professional rescuers, they cannot recover for
injuries caused by a hazard incident to the situation

165a
to which they responded. (Mot. to Dismiss 22, ECF
No. 55.) TEPCO maintains that Plaintiffs, as
members of the U.S. Armed Forces participating in
Operation Tomodachi, were acting as professional
rescuers and are therefore covered by the
“firefighter’s rule.” (Id. at 23 (citing Maltman v.
Sauer, 530 P.2d 254, 257–58 (Wash. 1975).)
TEPCO argues that the same event which drew
the Navy also caused, in combination with another’s
tortious conduct, a further consequence that
harmed the responders. (Mot. Reconsideration 24,
ECF No. 73-1.) TEPCO argues that this factual
situation is evident in several cases and that the
Firefighter’s Rule consistently bars liability.
TEPCO contends that the case that most squarely
addresses this fact pattern is White v. Edmond, 971
F.2d 681 (11th Cir. 1992), in which the plaintiff
firefighter responded to a fire and then, as a direct
result of the fire, the allegedly negligently designed
shock absorbers on a Volvo in the garage exploded
and injured the firefighter. Id. at 682–83. The Court
held that the Fireman’s Rule barred suit against
the manufacturer because the “possibility of an
unexpected explosion” was within the range of
“anticipated risks of firefighting.” Id. at 689.
TEPCO points to a distinction within the cases
where a defect manifests itself coincident with
rather than because of the event. (Id. at 25–26.) For
example, in Stapper v. GMI Holdings, Inc., 73 Cal.
App. 4th 787 (1999), the plaintiff firefighter was
injured when, during the course of a house fire, the
defendant’s allegedly defectively designed garage

166a
door opener malfunctioned and plaintiff was
trapped in the garage. Id. at 790. The Court noted
that, because the plaintiff alleged that the door
malfunction was not caused by the fire, plaintiff’s
claim was not barred by the firefighter’s rule. Id. at
793 n.2; see also Lipson v. Superior Court, 31 Cal.
3d 362 (1982) (explaining firefighter’s rule would
not apply to a gasoline tank explosion which
occurred independently of an electrical fire which
was responsible for a fireman’s presence at the
house) and Rowland v. Shell Oil Co., 179 Cal. App.
3d 399 (1986) (where truck driver failed to properly
handle his vehicle and it tipped over, leading in
turn to a “chemical spill” from the vehicle, the court
held that the negligence that triggered the accident
was not independent of the resulting spill, and
therefore the firefighter’s ultrahazardous-liability
claim for injuries incurred while responding to the
spill were barred by the firefighter’s rule).
Here, TEPCO argues, the negligence was not
independent of the tsunami/earthquake, but a
shared underlying cause of Plaintiffs’ injuries. (Mot.
Reconsideration 26, ECF No. 73-1.) Further,
TEPCO argues that the Navy knew of the risk of
radiation, so it was reasonable to anticipate the
harm and therefore it was a risk inherent in
responding to the natural disaster. (Id. at 26–27.)
Accordingly, because Plaintiffs’ injuries were due to
a shared underlying cause created by defendant and
the condition that brought the rescuer to the scene,
the Firefighter’s Rule should be a bar to liability. (Id.
at 27.) However, Plaintiffs contend that the
firefighter’s rule does not apply to them because a

167a
nuclear meltdown is not a risk inherent in offering
humanitarian assistance. See Solgaard v.Guy F.
Atkinson Co., 6 Cal.3d 361, 369 (1971). Further, the
firefighter’s rule does not bar recovery for
independent acts of misconduct which were not the
cause of the plaintiff’s presence on the scene.
Donahue v. S.F. Hous. Auth., 16 Cal.App.4th 658,
663 (1993).
Although TEPCO draws on similarities between
certain cases and the current situation, the Court
agrees with Plaintiffs that the SAC is not barred by
the firefighter’s rule. First, there is no authority
extending the application of the Firefighter’s Rule
outside of the context of domestic first responders
such as firefighters or police officers.34 The Court
will not extend the Firefighter’s Rule to this type of
circumstance absent authority to do so. Second, the
cases on which TEPCO relies are distinguishable
based on the scope of the scene and the
associated scope of risk. In contrast to providing
humanitarian aid to a country after a natural
disaster, when a firefighter or police officer
responds to a fire or a car accident, the geographic
area is limited and the anticipated risks are

3

TEPCO cites to Maltman v. Sauer, to support the proposition
that “Army servicemembers responding to accidents” are
barred by the Firefighter’s Rule. 530 P.2d 254, 257–58 (Wash.
1975). The Court finds this broad statement to be misleading. In
Maltman, an army helicopter was dispatched to a car accident
scene in Washington state as part of the Military Assistance to
Safety and Traffic rescue program. (Id. at 256.) Subsequently
the helicopter crashed en route to the accident. (Id.)
4

168a
confined to that fixed situation. In light of the facts
of this case, the Court finds that radiation exposure
due to a private corporation’s negligence was not a
risk inherent in the Navy’s mission of providing
humanitarian assistance, including: supplying
food, water, and emergency shelter. Accordingly,
the Court DENIES TEPCO’s motion to dismiss
Plaintiffs’ claims on this basis.

C.

TEPCO’s Duty of Care with Respect to
Plaintiffs’ Claims of Negligence, Negligence
Per Se, Res Ipsa Loquitur, Failure to Warn,
and Nuisance

TEPCO argues that Plaintiffs’ claims for
negligence, failure to warn, and nuisance must be
dismissed because TEPCO owed no duty of care
to Plaintiffs. TEPCO relies on two arguments in
support of it’s contention. First, there was no need to
warn the U.S. military about potential radiation
because “it would be inappropriate, as a matter of
substantive tort law, for the court to recognize an
innovative judge-made duty of foreign sovereigns
and foreign entities to provide disclosures to
other sovereigns in the context of a large-scale
humanitarian crisis.” (Mot. to Dismiss 25, ECF No.
55). Second, TEPCO contends that it had no duty to
warn a sophisticated entity such as the Navy
regarding known risks of operating in a disaster zone
especially as the U.S.S. Reagan had nuclear
detection capabilities. (Id.) Both of these arguments
appear to be only related to TEPCO’s duty to warn
the U.S. military in the context of negligence.
TEPCO does not address any independent duty

169a
owed to Plaintiffs as individuals in the area. (Reply
ISO Mot. to Dismiss 14, ECF No. 6.) Further, TEPCO
does not address the merits of Plaintiffs’ Strict
Products Liability Failure to Warn or Nuisance
claims.5
Plaintiffs respond by arguing that TEPCO owed
an absolute duty to all persons within the vicinity
of the FNPP. (Plaintiff’s Resp. in Opp’n 18, ECF
No. 59.) As discussed above, the SAC alleges a chain
of causation independent from the decisions made
by the Navy. Thus, TEPCO owed Plaintiffs the
same duty of care it owed to those in the vicinity of
the FNPP in reasonably operating the FNPP.
TEPCO’s two arguments have no bearing on
whether it owed a duty to the individual
servicemembers. In light of the Court’s decision
regarding causation and the Parties’ arguments, the
Court DENIES TEPCO’s motion to dismiss
Plaintiffs’ claims on this basis.

D.

Actual and Justifiable Reliance

TEPCO moves to dismiss Plaintiffs’ negligence
claim arguing that the claim is based in large part
on negligent misrepresentation and argues that
Plaintiff did not demonstrate actual and
justifiable reliance. (Mot. To Dismiss 26, ECF No.
55.) Plaintiffs contend that this issue is irrelevant
because they are not asserting a negligent
misrepresentation claim. (Plaintiff’s Resp. in Opp.

The Court has serious concerns that Plaintiffs claims for Strict
Liability Failure to Warn and Nuisance cannot stand as a
matter of law.
5

170a
24, ECF No. 59.) Because Plaintiffs are pursuing
no such claim, the Court DENIES as moot TEPCO’s
motion to dismiss Plaintiffs’ negligence claim on
this basis.

E.

Strict Liability for Design Defect

A strict liability for design defect claim has four
elements: (1) the product is placed on the market, (2)
there is knowledge that it will be used without
inspection for defect, (3) the product is defective,
and (4) the defect causes injury. Nelson v. Sup. Ct.,
50 Cal. Rptr. 3d 684, 688 (Cal. Ct. App. 2006).
TEPCO moves to dismiss Plaintiffs’ strict
liability design defect claim, arguing that Plaintiffs
fail to allege facts supporting the claim that the
FNPP is a product “placed on the market.” (Mot. to
Dismiss 28, ECF No. 55.) Because the FNPP is a
nuclear power facility that was owned by TEPCO at
all times and was never transferred to a different
“user,” TEPCO argues that Plaintiffs’ design defect
claim must fail. (Id. at 28–29.) Plaintiffs argue that
Defendants placed the electricity from the FNPP on
the market which was stored and manufactured in
the FNPP and that this should lead to strict
liability for design defect. (Plaintiff’s Resp. in Opp’n
31, ECF No. 59.)
Plaintiff’s design defect claim lacks merit.
Plaintiffs may not ignore elements of the design
defect cause of action simply because it would make
sense to apply liability in light of the potential for
injury to the public. Plaintiffs do not persuasively
explain how a design defect claim is viable in light

171a
of these facts. The product, electricity, was not
defectively designed and did not cause Plaintiff’s
injuries. The FNPP was evidently not a product
“placed on the market.” The alleged defects in
storage and design do not support a defective design
claim. Accordingly, the Court GRANTS TEPCO’s
motion to dismiss Plaintiffs’ design defect claim
WITH PREJUDICE because Plaintiffs can not
cure the defects in this claim by alleging
additional facts consistent with their pleading.

F.

Intentional Infliction of Emotional Distress
(“IIED”)

A claim for IIED requires (1) extreme and
outrageous conduct by the defendant with the
intention of causing emotional distress, (2) the
plaintiff’s suffering severe emotional distress, and
(3) actual and proximate causation of the emotional
distress. Potter v. Firestone Tire & Rubber Co., 863
P.2d 795, 819 (Cal. 1993). Thus, “it is not enough
that the conduct be intentional and outrageous. It
must be conduct directed at the Plaintiff.” Id. This
distinguishes IIED from negligent infliction of
emotional distress. Id. at 820.
TEPCO contends that Plaintiffs’ claim for IIED
fails for two reasons: (1) the federal statutory
scheme for compensating victims of nuclear
incidents, known as the Price-Anderson Act,
prohibits claims for emotional distress in the absence
of physical injury, suggesting that common law
liability should not provide recovery in such cases
either; and, (2) Plaintiffs do not allege facts
establishing that TEPCO engaged in “extreme and

172a
outrageous conduct” or that any such conduct was
“directed at” Plaintiffs, two necessary elements of
the IIED cause of action. (Mot. to Dismiss 29–30,
ECF No. 55). Plaintiffs maintain that the PriceAnderson Act does not apply to foreign
producers of nuclear power. (Resp. in Opp’n 24–25,
ECF No. 59).
Plaintiffs also contend that
TEPCO’s degree of negligence rises to the level
of extreme and outrageous. (Id. at 25.) Plaintiffs
make no effort to respond to TEPCO’s argument that
no conduct was “directed at” Plaintiffs, a
prerequisite for imposing liability for IIED.
Plaintiffs’ IIED claim lacks merit. Plaintiffs
attempt to cast TEPCO’s alleged negligence as
extreme and outrageous conduct. However,
negligence is insufficient to state a claim for IIED.
Plaintiff must establish intentional conduct or
reckless disregard. Potter, 863 P.2d 795 at 819.
Plaintiffs also fail to allege facts sufficient to
establish that TEPCO engaged in any conduct
specifically “directed at” them. Because IIED
imposes liability for ambiguous injuries that are
easily feigned, Plaintiffs may not recover in the
absence of facts indicating that the defendant’s
conduct specifically targeted them and sought to
cause them harm. There is no plausible way to claim
that TEPCO engaged in any conduct directed at
the U.S. servicemembers. Much of the alleged
negligence occurred years before the Plaintiffs were
deployed and they never had any contact with
TEPCO other than suffering from the radiation.

173a
Accordingly, the Court GRANTS TEPCO’s
motion to dismiss Plaintiffs’ IIED claim WITH
PREJUDICE.

G.

Strict Liability for Ultrahazardous Activities

TEPCO also moves to dismiss Plaintiffs’ claim
for strict liability for injuries resulting from an
inherently dangerous activity. TEPCO makes a
similar argument as with the IIED claim that the
Price-Anderson Act prohibits strict liability claims
for releases of radiation below federal limits, and
suggests that common law liability should not
provide recovery absent pleading that their
exposure to radiation exceeded federal limits. (Mot.
to Dismiss 32–33, ECF No. 55.) Second, TEPCO
argues that the Convention on Supplementary
Compensation for Nuclear Damage (“CSCND”)
specifies that all claims concerning nuclear
accidents should be resolved in the country where
the accident occurred. (Id. at 33–34.) TEPCO
apparently concedes that operation of a nuclear
power facility is an inherently dangerous or
“ultrahazardous” activity. (Reply ISO Mot. to
Dismiss 18 n. 7, ECF No. 62 (TEPCO’s Motion
assumed arguendo that the operation of a nuclear
power plant qualifies as an ultrahazardous
activity).) Plaintiffs again argue that the PriceAnderson Act does not apply to a foreign nuclear
operator and that the CSCND is not yet in force and
has not been ratified by Japan. (Plaintiff’s Resp. in
Opp. 24–25, 29–30, ECF No. 59.) Also, Plaintiffs
argue that TEPCO’s activities meet the criteria of
abnormally dangerous. (Id. at 27–29.)

174a
The
Court
finds
TEPCO’s
arguments
unpersuasive. TEPCO offers no legal support for
applying the Price-Anderson Act by analogy to a
foreign corporation and the Court declines to do so.
Also, the Court will not dismiss a claim that is
sufficiently pled because of the pending CSCND.
Accordingly, the Court DENIES TEPCO’s motion
to dismiss the strict liability for ultra-hazardous
activity claim.

H.

Loss of Consortium

TEPCO moves to dismiss Plaintiffs’ loss of
consortium claim arguing that since Plaintiffs’ tort
claims fail there is no valid loss of consortium cause
of action. (Mot. to Dismiss 34, ECF No. 55.)
Plaintiffs clarify that a tort claim and a spouse’s loss
of consortium claim are separate claims. (Plaintiff’s
Resp. in Opp’n 31–32, ECF No. 59.) Because the
Court finds that Plaintiffs have stated a claim for
which relief may be granted for several tort claims,
the loss of consortium claim survives.
MOTION TO DISMISS CLAIMS ON BEHALF OF
DOE PLAINTIFFS

Finally, TEPCO moves to dismiss the claims
purportedly brought by Plaintiffs on behalf of “John
& Jane Does 1-70,000.” (Mot. to Dismiss 34, ECF No.
55.) TEPCO argues that this is an impermissible
attempt by Plaintiffs’ counsel to bring claims on
behalf of “placeholder plaintiffs” so as to buy time
while they try to drum up 70,000 future clients. (Id.
at 34–35.) Additionally, TEPCO states that this
designation is inappropriate in the context of a

175a
class action because absent class members are not
formal parties which could be designated as Doe
parties. (Reply ISO Mot. to Dismiss 18–19, ECF No.
62.) Plaintiffs insist that they are seeking to certify a
class action and that Defendant’s motion to dismiss
the John and Jane Does is premature. (Plaintiff’s
Resp. in Opp’n 32–33, ECF No. 59.)
The continued use of “placeholder plaintiffs” is
likely unjustified and inappropriate at this point
as Plaintiffs have had over two years to name
additional parties. Absent class members are not
formal parties which can be designated as
pseudonymous Doe plaintiffs. Accordingly, the Court
GRANTS TEPCO’s motion to dismiss the claims on
behalf of the “DOE” plaintiffs.
FORUM NON CONVENIENS
1.

Legal Standard

“A federal court has discretion to decline to
exercise jurisdiction in a case where litigation in a
foreign forum would be more convenient for the
parties.” Lueck v. Sundstrand Corp., 236 F.3d
1137, 1142 (9th Cir. 2001) (citing Gulf Oil Corp. v.
Gilbert, 330 U.S. 501, 504 (1947)). “The doctrine of
forum non conveniens is a drastic exercise of the
court's ‘inherent power’ because, unlike a mere
transfer of venue, it results in the dismissal of a
plaintiff's case.” Carijano v. Occidental Petroleum
Corp., 643 F.3d 1216, 1224 (9th Cir. 2011). TEPCO
bears the burden of proving the Plaintiffs’
choice of forum results in “‘oppressiveness and
vexation . . . out of all proportion’” to Plaintiffs’

176a
convenience. Id. at 1227 (quoting Piper Aircraft Co.
v. Reyno, 454 U.S. 235, 241 (1981). Where the
plaintiff is a U.S. citizen, a court should afford more
deference to the plaintiff’s choice of a U.S. forum and
should assume the forum is convenient. Id. “While
a U.S. citizen has no absolute right to sue in a U.S.
court, great deference is due plaintiffs because a
showing of convenience by a party who has sued in
his home forum will usually outweigh the
inconvenience the defendant may have shown.”
Contact Lumber Co. v. P.T. Moges Shipping Co., 918
F.2d 1446, 1449 (9th Cir. 1990).
To dismiss on the ground of forum non
conveniens, a court must examine: “(1) whether an
adequate alternative forum exists, and (2) whether
the balance of private and public interest factors
favors dismissal.”
Id. (citations omitted).
An
adequate alternative forum is available to the
plaintiff when (1) the defendant is amenable to
service of process in the foreign forum and (2) the
foreign forum provides the plaintiff with a
satisfactory remedy. Id. at 1225. Only where the
remedy provided is “clearly unsatisfactory” is this
second requirement not met.
Id. (citing Lueck,
236 F.3d at 1144.).
Courts must consider the following private
interest factors: “(1) the residence of the parties and
witnesses; (2) the forum’s convenience to the litigants;
(3) access to the physical evidence and other sources
of proof; (4) whether unwilling witnesses can be
compelled to testify; (5) the cost of bringing witnesses
to trial; (6) the enforceability of the judgment; and (7)

177a
all other practical issues that make trial of a
case easy, expeditious, and inexpensive.” Id. at
1229. Courts also must consider the following
public interest factors: (1) local interest of the
lawsuit; (2) the court’s familiarity with governing
law; (3) the burden on local courts and juries; (4)
congestion in the court; and, (5) the costs of
resolving a dispute unrelated to this forum. Id. at
1232.
2 .

Analysis

TEPCO moves to dismiss on the basis of forum non
conveniens, arguing that this case should be heard
in
a
Japanese
court.
TEPCO
provides
documentation in support of its request, detailing
the customs and practices of the Japanese legal
system and examining the factors that would
complicate trial of this action in a U.S. court.

A.

Adequate Alternative Forum

To begin with, TEPCO maintains that Japan’s
court system is an adequate alternative forum
because TEPCO is unquestionably subject to
jurisdiction and amenable to process in Japan, and
because Plaintiffs would be able to recover for their
injuries under Japanese tort law, assuming their
claims are meritorious.6 According to TEPCO, “[t]he
Japanese judicial system is held in high regard and
has consistently been found to be adequate for

TEPCO emphasizes that Plaintiffs could also file a special
statutory cause of action that provides for recovery from a
nuclear operator for injuries resulting from a nuclear incident.
6

178a

forum non conveniens purposes.” (Mot. to Dismiss.
38, ECF No. 55.)
Plaintiffs deny that Japan is an adequate
alternative forum, arguing that they “will be denied
a fair and impartial proceeding, due to the highly
sensitive and politicized circumstances surrounding
TEPCO.” (Plaintiff’s Resp. in Opp’n 36, ECF No. 59).
Additionally, Plaintiffs contend that they will be
unable to receive a fair trial because of the lack of
discovery and jury trials available to Plaintiffs in
Japan. (Id.) Plaintiffs rely on the declaration of two
Japanese attorneys and discuss a Japanese case
rejecting an appeal to evacuate school children
suffering from radiation illness. (Id. at 34–35.)
The Court agrees with TEPCO that Japan is an
adequate alternative forum. There is no doubt that
TEPCO is amenable to service in Japan. Further,
Japanese courts are well-respected and independent
of government control and Plaintiffs provide no
evidence to the contrary. Courts in this Circuit have
not previously rendered Japan an inadequate forum,
despite the country’s more limited discovery system
and lack of jury trials. Lockman Found v.
Evangelical Alliance Mission, 930 F.2d 764, 768 (9th
Cir. 1991); Philippine Packing Corp. v. Maritime Co.
of Philippines, 519 F.2d 811, 812 (9th Cir. 1975) (per
curiam); Creager v. Yoshimoto, No. 05-1985, 2006
WL 680555, at *2 (N.D. Cal. Mar. 14, 2006). Further,
Plaintiffs’ concerns about the secrecy law are
unpersuasive in light of the Japanese Government’s
statements indicating it would be inapplicable to a
case like this. (Reply ISO Mot. to Dismiss 20, ECF

179a
No. 62 (“the Japanese government has specifically
stated that the [privacy] Act does not apply to . . .
information concerning nuclear power plant
accidents.”).) Because the Court finds that Japan is
an adequate alternative forum, the Court must next
balance various private and public factors and
dismiss the case if the Japanese forum would
be more convenient for the Parties.

B .

Balancing of Private Interests

TEPCO argues that the relevant private interest
factors all indicate that Japan is the appropriate
forum for this action. Plaintiffs disagree. The Court
considers each private interest factor in turn.

(i)

Residence of the Parties and Witnesses

TEPCO argues that Japan is where the
overwhelming majority of the witnesses reside.
(Mot. to Dismiss. 40, ECF No. 55.) TEPCO
maintains that Japan is the more convenient forum
for the litigants because all current and former
TEPCO officers and employees that they expect to
testify are located in Japan, as are nearly all of
the Japanese Government officials and private
citizens that were involved in the response to the
FNPP meltdown. (Id.) TEPCO emphasizes that,
not only will it be difficult or impossible to produce
many non-party witnesses for trial, but it will also be
extremely challenging to obtain even pre-trial
deposition testimony from them in light of Japan’s
restrictions on taking depositions for use in foreign
litigation. Further, TEPCO argues that although
Plaintiffs are all located in the U.S., Plaintiffs’

180a
testimony is unnecessary at the liability stage, such
that there is no need for them to travel to the forum
at this time. If it eventually becomes necessary for
Plaintiffs to provide testimony regarding their
injuries, TEPCO indicates that Japanese courts
have established procedures for
procuring
testimony from parties located overseas who cannot
travel to Japan.
Plaintiffs insist that this factor favors a U.S.
forum. Plaintiffs argue that all of the service
members named as plaintiffs in this action are
located in the U.S. and that TEPCO even has a
Washington, D.C. office. (Plaintiff’s Resp. in Opp’n
37, ECF No. 59). Plaintiffs downplay the
inconvenience of seeking deposition or trial
testimony from witnesses residing in Japan,
arguing that these procedural obstacles will
primarily affect Plaintiffs, not TEPCO.
The presence of numerous non-party witnesses
in Japan weighs in favor of dismissal. The
difficulty of accessing these witnesses will affect
both parties and, in any case, the principal
consideration is the convenience of the witnesses.
Plaintiffs’ residence in the U.S. and distance from
Japan favors retaining the case. However,
plaintiff’s testimony will likely play a minimal role in
the initial, critical stages of the proceeding and
would be more important during the damages portion
of trial. Overall, the Court finds that this factor is
neutral. Plaintiffs all reside in the U.S. and TEPCO’s
witness mostly reside in Japan. Each side has
established that it would be inconvenient for them to

181a
conduct proceedings in the opposite country.
However, the Court dos not find it this factor to
clearly weigh in favor of one side or the other.

(ii)

Forum’s Convenience to the Litigants

TEPCO does not separately address this factor
in its motion to dismiss. Plaintiffs maintain that
their choice of forum is entitled to substantial
deference. (Plaintiff’s Resp. in Opp’n 39, ECF No.
59). Plaintiffs argue that it would be “simply
impossible” for them to pursue their cases in Japan.
(Id. at 40.) They attach numerous declarations to
their opposition detailing their “radiation related
injuries,” which they claim would prevent them
from traveling to Japan at all. (Id. at 40–44.) On
the other hand, Plaintiffs argue, TEPCO has a long
history of doing business in the U.S. and would not
be inconvenienced by litigating in a U.S. forum.
This factor strongly favors retaining jurisdiction
in this forum. Plaintiffs would be comparatively
disadvantaged if they were required to file suit in
Japan and likely would not proceed with their
claims. The comparative hardship for Plaintiffs is
much greater than it would be for TEPCO given the
alleged medical conditions and ability to travel. On
the other hand, TEPCO could necessarily defend itself
in this forum, albeit at a significant cost.

(iii)

Access to the Physical Evidence and
Other Sources of Proof

TEPCO contends that the critical documents
that will be needed in this suit are nearly all
located in Japan. (Mot. to Dismiss. 44, ECF No. 55.)

182a
Although TEPCO concedes that the U.S. Navy may
have some important documents, TEPCO argues that
the Navy is unlikely to disclose those documents
in either forum. (Id. at 45.) Additionally, TEPCO
argues that information from the Japanese
government may be necessary to adjudicate
Plaintiffs’ claims and that the Japanese government
may refuse to disclose this information or make
witnesses available in a U.S. court. (Id. at 46–47.)
TEPCO contends that with respect to documents
outside of TEPCO’s possession and located in Japan,
a U.S. forum could not obtain them, even by letters
rogatory, since Japanese judges have no
authority to compel document production for
foreign litigation.
Plaintiffs insist that the key inquiry is which
forum will facilitate access to documents, rather
than where the documents themselves are located.
(Plaintiff’s Resp. in Opp’n 45, ECF No. 59).
Plaintiffs argue that TEPCO will be required to
produce documents in its possession and control if
this suit proceeds in this Court, such that access to
documents does not favor a Japanese forum. (Id.)
This is especially true given the prevalence of
electronic documents and current technology. (Id. at
45–46.) Moreover, Plaintiffs claim that there is no
evidence indicating that TEPCO will have difficulty
obtaining documents held by the Japanese
Government or by other non-parties. (Id. at 46.)
And, “Plaintiffs have no intention to compel
documents from the Japanese government.” (Id.)
Plaintiffs maintain that TEPCO cannot meet its
high burden of proving that the current forum is

183a
inadequate by relying on mere speculation. The
Court finds that this factor is neutral. While this
suit arises from a nuclear incident at the FNPP and
most of the operative facts took place in Japan,
many of the obstacles TEPCO identifies would be
present no matter where the litigation takes place. It
is true that because TEPCO is subject to
personal jurisdiction in the Southern District, it
would be required to turn over all of the documents in
its
possession.
These
documents
would
undoubtedly be the most important source of
information in this litigation and would be
available in the District Court. Although the
majority of the relevant documents and physical
proof remain in Japan, TEPCO has not satisfied its
burden of proving that litigation in California would
be oppressive or vexing.

(iv)

Whether Unwilling Witnesses Can Be
Compelled to Testify

TEPCO argues that U.S. courts have no
ability to compel testimony from unwilling nonparty witnesses located in Japan, such as Japanese
Government officials, former TEPCO officers, and
other potential witnesses. TEPCO’s argument is
that many witnesses, which might be willing to
testify in a Japanese court, would not do so in a U.S.
court. Further, what little could be done by way of
letters rogatory would be burdensome and
expensive compared to the summary procedures
available in Japan. According to TEPCO, this means
that critical witnesses will be unavailable in the U.S.
forum, indicating that a Japanese forum is highly

184a
preferable to a fair and unbiased determination of
this action. Plaintiffs argue that there is nothing
to suggest that Japanese Government officials or
former TEPCO directors and employees would be
unwilling to testify or to cooperate with this
litigation.
The Court agrees with TEPCO that the
difficulties in obtaining testimony from non-party
witnesses located in Japan, and outside of TEPCO’s
control, weigh in favor of a Japanese forum.
Plaintiffs err in continuing to argue that these
challenges are not relevant to TEPCO’s ability to
present a defense.
As these witnesses can be
conveniently accessed in a Japanese forum, but can
be accessed only with difficulty, if at all, in this
Court, this factor favors dismissal.

(v)

The Cost of Bringing Witnesses to Trial

TEPCO contends that the presence of witnesses
and evidence in Japan would make a trial in this
Court very costly, requiring significant travel
expenses for TEPCO employees to attend trial and
for TEPCO’s U.S. counsel to conduct depositions of
non- party witnesses at the U.S. Embassy in Japan.
Accordingly, TEPCO argues that this factor favors
dismissal.
Plaintiffs maintain, on the other hand, that they
would incur several hundred thousand dollars in
travel expenses in order to try this case in Japan.
Plaintiffs claim that they would have to fly all 80
individual named plaintiffs, at least 40 treating
physicians, and many expert damages witnesses to

185a
Japan, far outweighing any expenses that TEPCO
might incur to fly a few officers or employees to the
U.S. (Plaintiffs’ Resp. in Opp’n 48, ECF No. 59).
Travel to Japan would take a “physical and
psychological toll” on Plaintiffs, as well as a
financial one, whereas Plaintiffs claim that TEPCO
is a “multi-billion dollar company” that can easily
afford the costs of defending itself in this forum. (Id.)
Because of the nature of international litigation,
each side would incur expenses related to traveling
and procuring witnesses in either forum. Although
Plaintiffs might incur additional expenses to retain
counsel in Japan, it is not at all clear that they
would be required to travel to Japan to testify if it is
inconvenient for them to do so, especially in the
initial stages of litigation. (see Supp. Decl. of Prof.
Yasuhei Taniguchi ¶¶ 6, 13–17, ECF No. 43-1)
(detailing procedures for procuring testimony from
willing witnesses overseas who cannot travel to
Japan). However, any willing witnesses in Japan
would almost certainly have to travel to the U.S.
for trial or provide pre-trial depositions through
the expensive and cumbersome process specified by
Japanese law. However, the Japanese deposition
process is feasible and is not a bar for litigating in
the District Court. It is also unlikely that Plaintiffs
would be required to procure the number of
witnesses and experts they detail in their Opposition.
Therefore, the Court finds this factor to weigh only
slightly in favor of dismissing the case.

(vi)

Enforceability of the Judgment

186a
TEPCO is headquartered in Tokyo, Japan and
also has significant assets in the U.S. Accordingly,
any judgment rendered against TEPCO either in
Japan or in the U.S. would be enforceable. This
factor is therefore neutral.

(vii) Other Practical Problems
TEPCO argues that translation costs would be
high if this case is tried in the U.S., as most of
the witnesses associated with TEPCO or with
the Japanese Government would have to testify in
Japanese and most of the relevant documents will
also be in Japanese.
(Mot. to Dismiss. 51,
ECF No. 55.)
Plaintiffs
respond
that
translation to English would be necessary in a
Japanese forum in order to “apprise and include”
Plaintiffs, and that testimony from U.S. military
witnesses would also have to be translated into
Japanese. (Plaintiffs’ Resp. in Opp’n 50, ECF No.
59). Plaintiffs insist that translation costs are “an
expected cost of litigating in a global world.” (Id.)
This factor is neutral. The available documents
and testimony pertaining to liability are all likely
to be in Japanese, while Plaintiffs will have
English-language materials and witnesses as well.
The translation costs may be higher in this forum,
however the Court does not find this to be a
decisive factor in light of the necessary costs of
translation in either forum.

C .

Balancing of Public Interests

187a
TEPCO contends that the relevant public
interest factors also favor dismissal. The Court
considers each in turn.

(i)

Local Interest in the Lawsuit

TEPCO argues that Japan has the strongest
interest in this dispute because the Japanese
Government has enacted several measures to
provide compensation to those harmed by the FNPP
incident. (Mot. to Dismiss. 52–53, ECF No. 55.)
Moreover, TEPCO observes that the Japanese
Government, through its instrumentality, the
Nuclear Damage Liability Facilitation Fund, is now
TEPCO’s principal shareholder and has committed
billions of dollars in aid to TEPCO to ensure that it
is able to pay out compensation to those affected by
the FNPP incident. (Id. at 53–54.) TEPCO
emphasizes that the Japanese Government has
been “heavily involved in the overall response to the
earthquake, the tsunami, and the FNPP accident,”
such that no interest in this forum can “compare to
the singular importance of the FNPP accident to
Japan and its Government.” (Id. at 54–55.)
Plaintiffs maintain that the U.S. has a strong
interest in seeing that its service members are
compensated for their injuries. (Plaintiffs’ Resp. in
Opp’n 52, ECF No. 59). In particular, because many
of the Plaintiffs reside in the Southern District, this
Court in particular has a strong interest in
providing resolution for them. Plaintiffs point to the
myriad institutions dedicated to caring for military
veterans as evidence that the U.S. is interested in
ensuring that “those who have served . . . receive

188a
benefits for [their] service.” (Id.) Plaintiffs deny that
Japan’s efforts to centralize compensation for
victims of the tsunami support dismissal because
the allegations of negligence distinguish Plaintiffs
from other Japanese citizens who were merely
harmed by a natural catastrophe. (Id.)
Japan has an interest in adjudicating claims
arising from the March 11, 2011 earthquake and
tsunami that devastated large swaths of the
country as evidenced by Japan’s large investment in
responding to the disaster. The U.S. also has a
strong interest in seeing that members of the Armed
Forces are compensated for their service. Especially
as it is the V.A. system and the U.S. taxpayers who
will ultimately pay for the injuries to Plaintiffs. The
Court thinks that both countries have a strong
interest in this litigation. This factor slightly
favors retaining jurisdiction because of the strong
interest
in
providing
compensation
for
servicemembers and the ultimate costs of medical
treatment lying with U.S. taxpayers.

(ii)

Court’s Familiarity with the Governing
Law

The parties do not address this factor. Although
TEPCO does not concede the applicability of
California law, TEPCO does not suggest at any point
that Japanese law would govern the dispute if the
Court retained jurisdiction. In all likelihood, the
Court would be applying some version of U.S. law,
be it maritime law, federal common law, or
California state law. Accordingly, this factor weighs
against dismissal.

189a

(iii)

Remaining Public Interest Factors:
Burden on Local Courts and Juries,
Congestion in the Court, Costs of
Resolving a Dispute

The parties hardly touch upon the remaining
public interest factors, suggesting that these issues
need not substantially affect the Court’s inquiry.
Although litigating this case in this forum would add
to an already busy docket and would require time and
resources to be dedicated to the matter, these
factors alone do not justify dismissal. Moreover,
litigating in Japan would impose significant costs on
the Japanese judicial system. Accordingly, these
factors are neutral.

D .

Summary and Conclusion

In sum, although Japan is an adequate
alternative forum, the balance of the private and
public interest factors suggests that it would be
more convenient for the parties to litigate in a U.S.
court. Accordingly, the Court DENIES TEPCO’s
motion to dismiss on this basis.
INTERNATIONAL COMITY

Lastly, TEPCO argues that the doctrine of
international comity warrants dismissal of this
action in favor of a Japanese forum.
1.

Legal Standard

International comity is an abstention doctrine
that permits federal courts to defer to the judgment
of an alternative forum where the issues to be
resolved are “entangled in international relations.”

190a

Ungaro-Benages v. Dresdner Bank AG, 379 F.3d
1227, 1237 (11th Cir. 2004) (quoting In re Maxwell
Comm’n Corp., 93 F.3d 1036, 1047 (2d Cir. 1996)).
Adjudicatory comity can be viewed as a
“discretionary act of deference by a national court to
decline to exercise jurisdiction in a case properly
adjudicated in a foreign state.” Mujica v. AirScan,
Inc., 771 F.3d 580, 599 (9th Cir. 2014). Courts
consider whether to dismiss or stay the action
based on “the strength of the United States’
interest in using a foreign forum, the strength of
the foreign governments’ interests, and the
adequacy of the alternative forum.” Id. at 603
(citing Ungaro- Banages, 379 F.3d at 1238).
In assessing the interests of the respective
countries, courts should consider five nonexclusive
factors:

(1) the location of the conduct in

question, (2) the nationality of the
parties, (3) the character of the
conduct in question, (4) foreign policy
interests, and (5) any public policy
interests.

Id. at 604, 607. With respect to the third element—
adequacy of the foreign forum—the focus should be
on procedural fairness in the forum and whether
the opponent has presented specific evidence of
significant inadequacy. Id. at 607–08.
2 .

Analysis

191a
TEPCO contends that the interests of the U.S.,
Japan, and the international community support
consolidating Plaintiffs’ claims in Japan in light of
the Japanese Government’s comprehensive scheme
for providing relief to individuals harmed by the
FNPP incident.

A .

United States and Japanese Interests

(i)

Location of the Conduct in Question
and Nationality of the Parties

Courts have “afforded far less weight, for comity
purposes, to U.S. or state interests when the
activity at issue occurred abroad.” Id. at 605 (citing
cases involving foreign plaintiffs). The court must
consider “whether any of the Parties are United
States citizens or nationals, and also whether they
are citizens of the relevant state.” Id. This factor,
together with the location of the conduct,
determines the overall strength of the connection to
the U.S. and the justification for adjudicating the
matter in U.S. courts. Id. at 605–06. The Court
affords the most weight to these factors.
Although TEPCO’s allegedly negligent actions
took place in Japan, the Court finds that the overall
strength of the connection to the U.S. weighs
heavily in favor of maintaining the case in the
Southern District.
The Plaintiffs, as U.S. citizens, have an
undeniably strong connection to the U.S. As U.S.
citizens and servicemembers, Plaintiffs argue that
they expect and should receive full protection and
care under the laws of the United States. (Opp’n

192a
Reconsideration 14, ECF No. 84.) Plaintiffs are
United States citizens who allege that they were
harmed by TEPCO, and accordingly, the U.S. has
an interest in maintaining the suit in this country
and providing a forum for Plaintiffs to seek relief.
See Burger King Corp. v. Rudzewicz, 471 U.S. 462,
473 (1985).
While TEPCO is correct that each country has
an interest in adjudicating the case based on the
citizenship of the Parties, 7 TEPCO is a large
corporation with a significant physical presence in
the United States and is registered as a foreign
corporation in California. Whereas, Plaintiffs are
individuals who have no connection to Japan, many
suffering from alleged illnesses that might prohibit
international travel. It would be far more
reasonable for TEPCO to litigate in the U.S. than for
Plaintiffs to litigate in Japan. In light of the Parties’
connections to the U.S. and the global nature of the
harm, the Court finds a strong justification for
retaining the case in the Southern District.
Furthermore, California also has a strong interest in
adjudicating Plaintiffs’ claims as many of the
Plaintiffs are California residents.

(ii)

Character of Conduct in Question


TEPCO argues that this factor is neutral because TEPCO
is a Japanese corporation and Plaintiffs are U.S. citizens.
(Mot. Reconsideration 12, ECF No. 73-1.)
7

193a
In evaluating the nature of the conduct in
question, the court should ask whether the conduct
is “civil or criminal; whether it sounds in tort,
contract, or property; and whether the conduct is a
regulatory violation or is a violation of
international norms against torture, war crimes, or
slavery.” Mujica, 771 F.3d at 606. These “inquiries
may inform our judgment of the importance of the
issue” to the United States, California, or Japan,
because “[t]he closer the connection between the
conduct and the core prerogatives of the sovereign,
the stronger that sovereign’s interest.” Id.
TEPCO argues that the alleged conduct is not a
human rights violation nor aimed at harming
American commerce. (Mot. Reconsideration 13, ECF
No. 73-1.) Further, TEPCO contends that the
negligence and strict liability claims do not
implicate the core prerogatives of the U.S., rather
the nature of the claims implicate Japan’s
“prerogative to regulate its domestic utilities and
power plants.” (Id.) TEPCO argues that Japan has
shown its prerogative by addressing the situation at
the FNPP and establishing a centralized system for
prompt resolution of damage claims. (Id.) In
contrast, Plaintiffs argue that although the
meltdown had a catastrophic impact on Japan, the
impact of TEPCO’s negligence did not remain in
Japan. (Opp’n Reconsideration 15, ECF No. 84.)
Plaintiffs argue that the U.S. has a strong interest
in regulating the safety of nuclear power facilities
domestically and internationally, and that the U.S.
is also the largest governmental provider of
humanitarian aid in the world. (Id. at 16.)

194a
This is a civil tort case regarding a Japanese
company’s negligence and personal injury to U.S.
Plaintiffs. The Court agrees with TEPCO that
Japan has an interest in regulating its nuclear
utilities, compensating those injured by one of its
domestic corporations, and that the effects of the
FNPP meltdown were more significant in Japan
where the majority of damage occurred. However,
the U.S. also has an interest in the safe operation of
nuclear power plants around the world, especially
when they endanger U.S. citizens. This factor is not
particularly helpful to the Court’s analysis and, on
balance, is fairly neutral.

(iii) Foreign Policy Interests
The Court should also take cognizance of both
the U.S. and Japanese foreign policy interests.
Mujica, 771 F.3d at 606. A Court “must respect the
Constitution’s commitment of the foreign affairs
authority to the political branches.” Id. U.S.
interests weigh against hearing cases that would be
harmful to U.S. foreign policy. Id.
TEPCO argues that the U.S.’s ratification of the
Convention on Supplementary Compensation for
Nuclear Damage (the “CSCND” or “Convention”)
reflects a long- expressed policy that “all claims
arising from a nuclear incident are handled in a
comprehensive and coordinated fashion by
centralizing all such claims in the courts of the
country where the nuclear incident occurred.” (Mot.
to Dismiss 57–58, ECF No. 55.) The CSCND, which
was ratified by the U.S. in 2006, provides that
“jurisdiction over actions concerning nuclear

195a
damage from a nuclear incident shall lie only with
the courts of the Contracting Party within which
the nuclear incident occurs.” (Id. at 58.) According
to TEPCO, both the CSCND and the comments of
Executive officials regarding the Convention make
clear that the U.S. has an interest in seeing that
claims for damages from a nuclear incident are
consolidated in the country where the incident
occurred, even if that means that U.S citizens are
diverted to a foreign court system. (Id. at 58–59.)
TEPCO also contends that just recently, the
Japanese Diet approved the CSCND. (Mot.
Reconsideration 14, ECF No. 73-1.)
Accordingly,
because the “exclusive territoriality principle” is
now an official element of U.S.-Japanese foreign
relations policy, TEPCO argues that the Court must
defer to that policy judgment. (Id.) TEPCO concedes
that the CSCND itself may not require dismissal,
but argues that it reflects a policy judgment
independent of the treaty. (Reply Reconsideration 7,
ECF No. 90.)
Although TEPCO points to the CSCND as
evidence of U.S. foreign policy interest in support of
declining jurisdiction, the Court gives it minimal
weight. First, TEPCO does not provide any evidence
that the Court’s jurisdiction of this lawsuit would in
any way harm U.S.-Japanese foreign relations. (RT
16–17, ECF No. 99.) In response to the Court’s
inquiry during oral argument, TEPCO discussed
that a global regime for resolving nuclear civil
litigation would have many benefits for the U.S.,
including: facilitating efforts by U.S. agencies to
use nuclear suppliers overseas, allowing nuclear

196a
suppliers to compete for the growing market in
other countries, increasing jobs in the U.S., helping
the balance of payments, helping the U.S. nuclear
infrastructure, allowing U.S. nuclear suppliers to
be leaders in technology, and
providing
incentives for students to go into nuclear technology.
(Id. at 16.) In order to achieve these goals under the
CSCND, TEPCO stated that courts where the
incident occurred must have exclusive jurisdiction.
(Id. at 16–17; Collins Decl. 26, ECF No. 90-3.)
Although TEPCO explains the policy goals
behind the CSCND and notes the importance of
“respect for the courts of another nation,” the Court
is not persuaded that hearing this case would be
harmful to U.S. foreign policy. This is especially so
because the CSCND has not yet been ratified. (RT
15, ECF No. 99.) Further, the Court gives less
weight to this policy of limiting liability because the
supplemental remedy written into the treaty is not
yet available to these Plaintiffs. (See Collins Decl.
30, ECF No. 90-3 (Under the CSCND, “there will be
substantial compensation, and . . . rules that allow
victims to get compensation quickly and without
litigating questions like fault or negligence”).)
TEPCO contends that if the Court harbors
doubts about whether the strength of the U.S.
interests favor dismissal, it would be appropriate to
solicit the views of the U.S. Department of State.
(Mot. Reconsideration 17, ECF No. 73-1 (citing Mujica,
771 F.3d at 610, 612.).) The Court notes that neither
the Japanese nor the U.S. government has
expressed interest in the location of this litigation.

197a

See Mujica, 771 F.3d at 611. At this time, in its
discretion, the Court will not solicit the views
of the U.S. government because it would cause
unnecessary delay and TEPCO’s arguments
provide adequate information on the issue.

(iv) Public Policy Interests
Lastly, the Court may also weigh U.S.,
California, and Japanese public policy interests.
Mujica, 771 F.3d at 607. Courts will respect
differences in foreign practices so long as the
variances do not violate strongly held state or
federal public policy. Id. TEPCO claims that
allowing this lawsuit to be heard in a U.S. court is
inconsistent with Japanese public policy interests.
(Mot. Reconsideration 15, ECF No. 73-1.) Further,
TEPCO states that if the Court does consider the
countries’ respective financial interests, Japan has
a stronger financial interest because a majority of
TEPCO’s shares are now owned by the Nuclear
Damage Liability and Decommissioning Facilitation
Corporation (“NDF”), which is an agency or
instrumentality of the Japanese government. (Mot.
Reconsideration 16, ECF No. 73-1.) The Japanese
government has funded, through the issuance of
bonds to the NDF, $37.8 billion in aid to
compensate for nuclear damage. (Id.)
Plaintiffs contend that without relief, Plaintiffs,
the U.S., and U.S. taxpayers would ultimately bear
the burden of paying for Plaintiffs’ care. Plaintiffs
also argue that TEPCO has not been forthcoming
about the FNPP meltdown, such that dismissal in
deference to Japan’s interests would be improper.

198a
Further, Plaintiffs argue that the U.S. has a strong
public policy in favor of nuclear safety. (Opp’n
Reconsideration 20, ECF No. 84.) Plaintiffs note
that in furtherance of this policy, the U.S., both
domestically and internationally, has signed and
ratified a number of conventions. (Id.) Plaintiff
states that these conventions set out protocols and
standards; however there is neither regulatory
oversight nor means of enforcement. (Id.) Next,
Plaintiff contends that it has long been public policy
to award punitive damages as a means of deterring
private corporations from recklessly endangering
the public. (Id. at 21.) Plaintiffs argue that in light
of the international concerns and the U.S.’s
dedication to providing humanitarian assistance,
public policy favors retaining the case. (Id.) Lastly,
to the extent that jurisdiction is appropriate;
Plaintiffs should be permitted to bring their claims
in the forum of their choice.
On balance, the Court finds that both countries
have public policy interests in litigating the case
and that neither side makes especially compelling
arguments with respect to this factor. Accordingly,
the Court finds that the public policy interests of
the U.S. and Japan are neutral and do not weigh in
favor of dismissal.

B .

Adequacy of the Japanese Forum

The standards for evaluating the adequacy of a
forum are the same under the international comity
doctrine as they are under forum non conveniens
analysis. See Jota v. Texaco Co., 157 F.3d 153, 160
(2d Cir. 1998). Neither party adds any argument

199a
regarding this factor. As discussed above, the
Court finds Japan to be an adequate alternative
forum.

C .

Summary and Conclusion

Accordingly, the Court finds that both the U.S.
and Japan have an interest in having this suit
heard within their forum. TEPCO has pointed to
several reasons supporting dismissal of the
present claims; and the Court concedes that some
of TEPCO’s arguments are persuasive. However, the
reasons for maintaining jurisdiction of this case are
more compelling, namely the Parties strong
connection with this forum. The Court finds that
the United States has a strong interest in hearing
this case and declines to exercise its discretion
in dismissing this case under the doctrine of
international comity.
III. PLAINTIFFS’ MOTION TO AMEND

Plaintiffs seek leave to amend the SAC to add
four Doe Defendants: General Electric, EBASCO,
Toshiba, and Hitachi. Plaintiffs also wish to add
additional servicemember plaintiffs. Plaintiffs
assert that they only recently “discovered the
nature and extent of conduct of the Doe
Defendants giving rise to liability and causation
of Plaintiffs’ harms, damages, injuries and losses.”
(Mot. to File Am. Compl. 3, ECF No. 65.) Plaintiffs
allege that each of the four Doe Defendants was
responsible in part for the design, procurement,
maintenance, management, or servicing of the
FNPP. (Id.)

200a
1 .

Legal Standard

Leave to amend should be freely given “when
justice so requires.” Fed. R. Civ. P. 15(a)(2). But
while the rule should be interpreted extremely
liberally, leave should not be granted automatically.
Jackson v. Bank of Haw., 902 F.2d 1385, 1387 (9th
Cir. 1990). The opposing party bears the burden of
demonstrating why denial is necessary. A trial court
may deny a motion for leave to amend based on
various factors, including bad faith, undue delay,
prejudice to the opposing party, futility of
amendment, and whether the party has previously
amended. Foman v. Davis, 371 U.S. 178 (1962).
2.

Analysis

TEPCO argues that the Court should deny
Plaintiffs’ Motion to Amend SAC as futile because of
the previously discussed justiciability issue.
However, as the Court finds that the SAC is not
barred by the political question doctrine, this
argument is not persuasive. TEPCO does not
address the other Foman factors. The burden fell
on TEPCO to demonstrate that leave to amend
would be inappropriate. Because TEPCO failed to
meet that burden and did not establish the presence
of any of the five Foman factors, the Court finds no
reason to deny leave to amend. However, the Court
does not accept as filed the third amended
complaint, attached as Exhibit A. Rather, Plaintiffs
shall amend in light of the Court’s rulings in this
Order.
IV. CERTIFICATION FOR INTERLOCUTORY

201a
APPEAL

TEPCO also requests that if the Court does not
reconsider its Order and dismiss the case, then the
Court should certify the Order (or an Amended
Order) for interlocutory appeal.
1.

Legal Standard

Pursuant to 28 U.S.C. § 1292(b):
When a district judge, in making in a
civil action an order not otherwise
appealable under this section, shall be
of the opinion that such order
involves a controlling question of law
as to which there is substantial ground
for difference of opinion and that an
immediate appeal from the order may
materially advance the ultimate
termination of the litigation, he shall
so state in writing in such order.
The Court of Appeals which would
have jurisdiction of an appeal of such
action may thereupon, in its discretion,
permit an appeal to be taken from
such order.
The Ninth Circuit cautions that district courts
should only certify an interlocutory appeal in “rare
circumstances” because “[s]ection 1292(b) is a
departure from the normal rule that only final
judgments are appealable, and therefore must be
construed narrowly.” James v. Price Stern Sloan,
Inc., 283 F.3d 1064, 1067 n.6 (9th Cir. 2002). Thus,
certification pursuant to section 1292(b) is

202a
appropriate “only in exceptional situations.” In re
Cement Antitrust Litig., 673 F.2d 1020, 1026 (9th
Cir. 1982) (citing U.S. Rubber Co. v. Wright, 359
F.2d 784, 785 (9th Cir. 1966) (per curiam); Milbert v.
Bison Labs., 260 F.2d 431, 433–35 (3d Cir. 1958)). The
party seeking the interlocutory appeal bears the
burden of establishing that the requirements for
certification are met. Couch v. Telescope Inc., 611
F.3d 629, 633 (9th Cir. 2010).
2 .

Analysis

A.

Controlling Question of Law

“To meet the requirement that the proposed
interlocutory appeal raises a controlling question of
law, the moving party must show ‘that resolution of
the issue on appeal could materially affect the
outcome of litigation in the district court.’” Hawaii
ex rel. Louie v. JP Morgan Chase & Co., 921 F. Supp.
2d 1059, 1065 (D. Haw. 2013) (quoting In re Cement
Antitrust Litig., 673 F.2d at 1026). “Controlling
questions of law include ‘determination[s] of who are
necessary and proper parties, whether a court to
which a cause has been transferred has jurisdiction,
or whether state or federal law should be applied.’”
Id.
The Court FINDS a controlling question of law
exists here. If the Ninth Circuit were to find that
TEPCO’s causation analysis does not invoke a
political question—as this Court decided in its
October 28, 2014 Order—then this Court would
maintain jurisdiction. If, however, the Ninth
Circuit were to hold that the Court lacks subject

203a
matter jurisdiction, this Court could no longer
hear the case as against TEPCO. Further, if the
Ninth Circuit were to find the Firefighter’s Rule was
an absolute bar to TEPCO’s liability, the case would
be terminated as against TEPCO. Accordingly, the
Ninth Circuit’s resolution of this issue “could
materially affect the outcome of [this] litigation”
because it would affect whether the Court has
jurisdiction. Thus, a controlling question of law is
at issue.

B .

Substantial Ground for Difference of Opinion

There is a “substantial ground for difference of
opinion” if “there is a genuine dispute over the
question of law that is the subject of the appeal.”
In re Cement Antitrust Litig., 673 F.2d at
1026. Such a dispute exists, for example, if the
circuits are in disagreement and the court of appeals
in which the district court sits has not decided the
issue, the issue involves complicated questions of
foreign law, or the issue is a novel and difficult one
of first impression. Couch, 611 F.3d at 633.
“However, just because a court is the first to rule on
a particular question or just because counsel
contends that one precedent rather than another is
controlling does not mean” that sufficient grounds
exist. Id.
TEPCO argues that there are substantial
grounds for a difference of opinion as to application
of the political question doctrine and the firefighter’s
rule. (Mot. Reconsideration 24, ECF No. 73-1.)
TEPCO points out that the Court found these issues
to be close and difficult based on the tentative

204a
ruling which was altered in the ultimate Order.
(Id.) Plaintiffs, on the other hand, argue that the
issues do not elicit a substantial ground for
difference of opinion. (Opp’n Reconsideration 30, ECF
No. 84.)
The Court FINDS that there is a substantial
ground for difference of opinion on this question due
to the novelty and complexity of the issue.

C.

Materially
Advances
the
Termination of the Litigation

Ultimate

Certification “materially advances the ultimate
termination of the litigation” when “allowing an
interlocutory appeal would avoid protracted and
expensive litigation,” saving both the court and the
parties “unnecessary trouble and expense.” In re
Cement Antitrust Litig., 673 F.2d at 1026; Hawaii
ex rel. Louie, 921 F. Supp at 1067 (quoting United
States v. Adam Bros. Farming, Inc., 369 F. Supp. 2d
1180, 1182 (C.D. Cal. 2004)).
Given the potential burdens of litigating the
transnational and novel claims presented in this
extraordinarily large and complex litigation,
TEPCO argues that the Court should seek guidance
from the Ninth Circuit now as to threshold legal
issues which could end the case. (Mot.
Reconsideration 28, ECF No. 73-1.) Plaintiff, on the
other hand, argues that an interlocutory appeal
would delay the litigation and unduly impact
Plaintiffs who are dying and battling cancers and
other illnesses allegedly caused by TEPCO’s
negligence. (Opp’n Reconsideration 30, ECF No. 84.)

205a
The Court FINDS that resolution of this issue
would materially advance the ultimate termination
of this litigation. If the lawsuit proceeded and
then TEPCO successfully appealed this Court’s
determination regarding the lack of subject matter
jurisdiction or the firefighter’s rule, much time and
expense would be wasted by all of the parties,
Plaintiffs included.

D .

Conclusion

For the reasons stated above, the Court
GRANTS TEPCO’s Motion for Certification of
Interlocutory Appeal. The Court has concerns as to
the wording of the issues proposed by TEPCO in
its Motion. Therefore the Parties shall take this
Amended Order into account and confer and file a
joint statement of the issues to be certified on
appeal on or before June 26, 2015.
CONCLUSION

1.

The Court GRANTS TEPCO’s Motion for
Reconsideration.

2.

The Court GRANTS TEPCO’s motion to
dismiss Plaintiffs’ strict liability for design
defect and IIED claims WITH PREJUDICE.
Additionally, the Court GRANTS TEPCO’s
motion to dismiss the SAC’s claims on
behalf of “Doe” plaintiffs. Plaintiffs’ other
claims survive.

3.

The Court DENIES TEPCO’s Motion to
Dismiss under the doctrines of forum non
conveniens and international comity.

206a

4.

The Court does not disturb its prior Order
GRANTING Plaintiffs Motion to Amend
their SAC. Plaintiffs timely filed an
amended pleading.

5.

The Court GRANTS TEPCO’s Motion for
Certification of Interlocutory Appeal. The
Court has concerns as to the wording of the
issues proposed by TEPCO in its Motion.
Therefore the Parties shall take this
Amended Order into account and confer and
file a joint statement of the issues to be
certified on appeal on or before June 26, 2015.

IT IS SO ORDERED.
DATED: June 11, 2015

Honorable Janis L. Sammartino
United States District Judge

207a
APPENDIX F

No. 15-56424
IN THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
LINDSAY R. COOPER, et al.,

Plaintiffs-Appellees,
v.
TOKYO ELECTRIC POWER COMPANY, INC.,

Defendant-Appellant.
On Appeal from the United States
District Court for the Southern
District of California
BRIEF FOR THE UNITED STATES IN SUPPORT
OF NEITHER PARTY AND IN SUPPORT OF
AFFIRMANCE OF THE ORDER BELOW

BRIAN J. EGAN

Legal Adviser Department of State 2201 C St. NW
Washington, DC 20520

208a
JENNIFER M. O’CONNOR

General Counsel Department of Defense 1600
Defense Pentagon
Washington, DC 20301
BENJAMIN C. MIZER

Principal Deputy Assistant Attorney General
LAURA E. DUFFY

United States Attorney
DOUGLAS N. LETTER

Director
SHARON
KAERSVANG

SWINGLE

DANA

Attorneys, Appellate Staff Civil Division,
Room 7216
U.S.
Department
of
Justice
950
Pennsylvania Avenue NW Washington, DC
20530
(202) 307-1294

209a
TABLE OF CONTENTS
Page(s)

INTRODUCTION AND INTERESTS OF
THE UNITED STATES AS AMICUS
CURIAE

1 [216a]

STATEMENT

4 [219a]

ARGUMENT

9 [224a]

I.
The district court did not abuse its
discretion in declining to dismiss this
case on the basis of international comity

9 [224a]

II.
The district court did not abuse its
discretion in declining to dismiss this
case on the basis of forum non
conveniens

17 [232a]

III.
This Court should refrain from
addressing
the
political
question
doctrine at this preliminary stage
without the benefit of a choice-of-law
analysis

21 [236a]

IV.
The Court should not reach the
“firefighter’s rule” absent a choice-of-law
analysis

25 [240a]

CONCLUSION

26 [241a]

CERTIFICATE OF COMPLIANCE
CERTIFICATE OF SERVICE

210a
TABLE OF AUTHORITIES
Cases: ..........................
Page(s)

Aktepe v. United States,
105 F.3d 1400 (11th Cir. 1997) ..................22 [237a]

Alperin v. Vatican Bank,
410 F.3d 532 (9th Cir. 2005) ......................22 [237a]

Argueta v. Banco Mexicano, S.A.,
87 F.3d 320 (9th Cir. 1996) ........................20 [235a]

Bi v. Union Carbide Chems. & Plastics Co.,
984 F.2d 582 (2d Cir. 1993) .......................12 [227a]

Carijano v. Occidental Petroleum Corp.,
643 F.3d 1216 (9th Cir. 2011) ....................18 [233a]

Contact Lumber Co. v. P.T. Moges Shipping Co.,
918 F.2d 1446 (9th Cir. 1990) ....................18 [234a]

Corrie v. Caterpillar, Inc.,
503 F.3d 974 (9th Cir. 2007) ......................23 [238a]

Creative Tech., Ltd. v. Aztech Sys. Pte., Ltd.,
61 F.3d 696 (9th Cir. 1995)...................18, 20 [233a]

Downing v. Abercrombie & Fitch,
265 F.3d 994 (9th Cir. 2001) ................ 23, 24 [238a]

Ehrlich v. Am. Airlines, Inc.,
360 F.3d 366 (2d Cir. 2004) .......................13 [228a]

El-Shifa Pharm. Indus. Co. v. United States,

211a
607 F.3d 836 (D.C. Cir. 2010) ....................22 [237a]

Escambia Cty. v. McMillan,
466 U.S. 48 (1984) ......................................22 [238a]

Gilligan v. Morgan,
413 U.S. 1 (1973) ........................................21 [236a]

Gutierrez v. Advanced Med. Optics, Inc.,
640 F.3d 1025 (9th Cir. 2011) ...................19 [234a]

Harris v. Kellogg Brown & Root Servs., Inc.,
724 F.3d 458 (3d Cir. 2013) ..................22, 24 [237a]

Hilton v. Guyot,
159 U.S. 113 (1895) ......................................9 [224a]

Lipson v. Superior Court,
644 P.2d 822 (Cal. 1982) ............................25 [240a]

Loya v. Starwood Hotels & Resorts Worldwide, Inc.,
583 F.3d 656 (9th Cir. 2009) ......................18 [234a]

Lueck v. Sundstrand Corp.,
236 F.3d 1137 (9th Cir. 2001) ……....…….17, 18,
20, 21 [233a, 235a, 236a]

Maxwell Commc’n Corp. ex rel. Homan,
93 F.3d 1036 (2d Cir. 1996) .........................9 [224a]

Mujica v. AirScan Inc.,
771 F.3d 580 (9th Cir. 2014),

cert. denied 136 S. Ct. 690 (2015) ............. 9, 10, 20
[224a, 225a, 235a]

212a

New York v. United States,
505 U.S. 144 (1992) ....................................23 [238a]

Northwest Austin Mun. Util. Dist. No. One v.
Holder,
557 U.S. 193 (2009) ....................................22 [238a]

Piper Aircraft Co. v. Reyno,
454 U.S. 235 (1981) ....................................21 [236a]

Saldana v. Occidental Petroleum Corp.,
774 F.3d 544, 553 (9th Cir. 2014) ..............22 [237a]

Tuazon v. R.J. Reynolds Tobacco Co.,
433 F.3d 1163 (9th Cir. 2006) ..................19 [ 234a]

Ungaro-Benages v. Dresdner Bank AG,
379 F.3d 1227 (11th Cir. 2004) .................12 [227a]

United States v. Hinkson,
585 F.3d 1247 (9th Cir. 2009) ...................10 [225a]

USAir Inc. v. U.S. Dep’t of Navy,
14 F.3d 1410 (9th Cir. 1994) ................ 24, 25 [239a]

Wong v. Ilchert,
998 F.2d 661 (9th Cir. 1993) ……….…...…23 [238a]

Wu Tien Li-Shou v. United States,
777 F.3d 175 (4th Cir. 2015) …………...….22 [237a]

213a
Treaties:

Convention on Supplementary Compensation for
Nuclear Damage,
IAEA Doc. INFCIRC/567 (July 22, 1998) ............ 6,
14, 15 [221a]
Vienna Convention on the Law of Treaties, 1155
U.N.T.S. 331,
(May 23, 1969) ………………………...….....13 [228a]
Legislative Materials:

S. Exec. Rep. No. 109-15 (2006) ........................... 5, 6,
7, 15 [220a, 221a, 222a, 231a]
S. Treaty Doc. No. 107-21 (2002) ) ................... 7 [222a]

Treaties: Hearing Before the S. Comm. on Foreign
Relations,
109th Cong. (2005). ) ......................... 7, 16, 17 [222a]
Other Authorities:

Dep’t of Def., Final Report to the Congressional
Defense Committees in Response to the Joint
Explanatory Statement Accompanying the
Department of Defense Appropriations Act, 2014,
“Radiation
Exposure,”
(June
19,
2014),
www.health.mil/ReferenceCenter/Reports/2014/06/19/
Radiation-Exposure-Report ................ 24, 25 [240a]

Draft Articles on the Law of Treaties with
commentaries, Yearbook of the Int’l Law
Comm’n,
1966,
vol.
II

214a
http://legal.un.org/ilc/texts/instruments/english/com
mentaries/
1_1_1966.pdf) ............................................. 14 [229a]

215a
INTRODUCTION AND INTERESTS OF THE
UNITED STATES AS AMICUS CURIAE

The United States respectfully submits this
amicus brief in response to the Court’s order of
September 26, 2016. In declining to dismiss this
litigation, the district court weighed the interests of
U.S. military servicemembers in litigating their
claims in a U.S. court against the interests of the
private defendant and the Government of Japan in
having disputes arising out of the nuclear accident
at the Fukushima-Daiichi power plant adjudicated
in a Japanese forum. This case thus touches upon
strong U.S. interests, both because of our Nation’s
enduring relationship with Japan, a longstanding
and essential ally, and because plaintiffs in this
action are members of the U.S. military allegedly
harmed while deployed on a humanitarian mission,
and their family members.
The humanitarian mission at issue in this case,
Operation Tomodachi, evinces the strong ties
between this country and the country of Japan.
Japan is an essential strategic, political, and
economic ally and partner of the United States.
The United States applauds the Government of
Japan’s impressive efforts to provide recovery for
damages caused by the nuclear accident at the
Fukushima- Daiichi power plant, including through
the creation of an administrative compensation
scheme that has paid over $58 billion in claims. The
United States also applauds Japan’s decision to
become a party to the Convention on Supplementary

216a
Compensation for Nuclear Damage (Convention),
pursuant to which jurisdiction over litigation
regarding future nuclear incidents causing nuclear
damage in Japan would be exclusive to a Japanese
forum.
Nevertheless, as explained further in the
Argument section of this brief, the United States
does not believe that the district court abused its
discretion in declining to dismiss this case under
the doctrines of international comity and forum
non conveniens. In its comity analysis, the district
court correctly stated this Circuit’s law. The
district court weighed the interests of the private
defendant and the Government of Japan in having
these cases resolved in a Japanese forum, as well
as the interests of the U.S. plaintiffs in having
their claims heard in a U.S. court. Although the
United States recognizes Japan’s desire to have
these cases decided in a uniform manner, Japan’s
remedial scheme is not exclusive on its own terms;
the United States did not play a role in developing
the remedial scheme; and plaintiffs are U.S.
citizens rather than Japanese nationals. These
differences distinguish this case from cases in
which courts have held that international comity
requires dismissal of claims brought in a U.S.
forum. Nor does the Convention on Supplementary
Compensation for Nuclear Damage reflect a policy
that the State in which a nuclear incident occurred
must be the exclusive forum for adjudicating claims
of civil liability when the Convention does not apply
to the incident. While the United States strongly
values its relationship with Japan, it does not have

217a
a foreign policy interest in the specific subject
matter of this litigation that requires dismissal at
this time.
For similar reasons, the United States does not
believe that the district court abused its discretion
in declining to dismiss the claims on forum non
conveniens grounds. The district court ruled that
the interests of U.S. citizens in litigating in a home
forum outweighed the interests supporting
adjudication of this dispute in a Japanese forum.
This was not an abuse of discretion.
The Court’s order also invited the United States
to address the political question doctrine and the
“firefighter’s rule.” In the view of the United States,
however, it is premature for the United States (and
this Court) to address the potential application of
those doctrines to the claims in this case. Their
applicability depends on the law that governs the
claims and defenses in this action, but no choice-oflaw analysis has yet been conducted by the district
court. The United States notes that, to the extent
ruling on a plaintiff’s claims would require
a
judicial inquiry into the reasonableness of military
commanders’ decisions regarding deployment of U.S.
troops, which involves balancing risks of a
deployment decision against the benefits of mission
objectives, those claims would be nonjusticiable
under the political question doctrine. However,
judicial restraint and constitutional avoidance
principles counsel in favor of conducting a choice-oflaw analysis prior to deciding whether plaintiffs’
claims against the private defendant are justiciable,

218a
or addressing a novel question of first impression
under state law.
STATEMENT
A.
Japan is one of the United States’ most
important economic partners and strategic allies. It
hosts approximately 50,000 U.S. servicemembers at
bases in Japan under bilateral arrangements,
including the 1960 Treaty of Mutual Cooperation
and Security. In the context of complex security
threats to both countries, the strength of the U.S.–
Japan alliance is central to U.S. foreign policy
objectives in the Asia-Pacific region. Our two
countries also share essential values, including a
commitment to democracy and the rule of law.
Operation Tomodachi, involving humanitarian
support by U.S. troops in the midst of a dire
emergency, was a tangible example of the strength
and the benefits of the U.S.– Japan alliance.
B.
Japan is also a valuable economic partner
to the United States, and represents the United
States’ fourth-largest export market and its fourthlargest source of imports. In 2014, our two-way
goods and services trade exceeded $279 billion. The
United States is the largest foreign investor in
Japan, accounting for 29% of Japan’s total inbound
stock of foreign direct investment, and Japan
consistently provides a large volume of foreign direct
investment to the United States. Japan was the
largest source of foreign direct investment in the
United States in 2013 and 2014, and the second
largest in 2015. Japanese firms employ an
estimated 839,000 personnel in the United States,

219a
and U.S. companies employ an additional 600,000
people whose jobs are directly tied to exports to
Japan. The United States and Japan also cooperate
broadly on nuclear energy issues, encompassing both
close commercial ties among our companies and
bilateral government-to-government engagement.
On issues relating to Fukushima, for example, the
U.S. Department of Energy leads an interagency
Bilateral Commission on Civil Nuclear Cooperation.
Both the United States and Japan
are parties to
the Convention on Supplementary Compensation for
Nuclear Damage, a multilateral treaty regime
designed to address compensation for nuclear
damage from nuclear incidents.
C .
The United States took a leading role in
the creation of the Convention on Supplementary
Compensation for Nuclear Damage, in order to
establish a global framework for providing for
compensation for nuclear damage from nuclear
incidents.

The Convention operates to ensure an effective
recovery mechanism for victims of nuclear damage
from nuclear incidents, while simultaneously
protecting U.S. suppliers of nuclear technology
from potentially unlimited liability arising from
their activities in foreign markets. See S. Exec.
Rep. No. 109-15, at 2, 8 (2006). The Convention
channels liability to the operator of a nuclear
facility in the State Party where the incident
occurred. See id. at 2; Int’l Atomic Energy Agency,
Convention on Supplementary Compensation for
Nuclear Damage, IAEA Doc. INFCIRC/567, art.

220a
XIII (July 22, 1998). The Convention also helps
ensure the availability of prompt and adequate
compensation for victims, including U.S. nationals
who might be affected by an incident outside the
United States. See S. Exec. Rep. No. 109-15, at 2.
The Convention accomplishes these goals by (1)
providing for strict liability for nuclear accidents,
see Convention art. II(1)(a), (b); id. annex, art. 3; (2)
requiring a State Party in whose territory an
incident takes place to provide at least a minimum
amount of funds to compensate victims without
regard for their nationality, domicile, or residence,
id. art. III(1), (2); and (3) making a multilateral
supplemental compensation fund available where
damage exceeds that amount, to be funded by the
States Parties to the Convention, id. arts. III(1)(b),
IV.
These provisions work together to create an
interlocking “system.” Convention art. II(2). For
U.S. interests in the Convention to be fulfilled, the
regime established by the treaty must be viewed in
its entirety. The exclusive jurisdiction provision
forms part of a bargain in exchange for robust,
more certain and less vexatious (e.g., the
application of strict liability without need to
establish fault) compensation for victims of a
potential incident. United States policy does not
call for advancing one element of this system in
isolation from the other elements of the
Convention’s system.
For these two inextricably interrelated interests
to be fully realized, it is essential that the

221a
Convention be as widely adhered to internationally
as possible. Thus, broad international adherence to
the Convention is the ultimate U.S. policy goal. See
S. Treaty Doc. No. 107-21, at III-IV (2002). The
United States led the effort to negotiate the
Convention and has been the leading proponent of
the treaty regime. Treaties: Hearing Before the S.
Comm. on Foreign Relations, 109th Cong. 20-22, 26
(2005) (2005 Hearing). From the perspective of the
United States, the Convention is preferable to other
international treaty regimes aimed at addressing
nuclear incidents, which would require sweeping
changes to U.S. tort law. See S. Exec. Rep. No. 10915, at 2.
The Convention was ratified by Japan in
January 2015, and entered into force in April
2015.1 Because the Convention was not in force at
the time of events underlying plaintiff’s claims,
those events are not covered under the Convention.
D .
In March 2011, a devastating
earthquake and tsunami struck Japan. In
keeping with the strong ties between the United
States and Japan, U.S. troops provided
immediate humanitarian aid to victims of this
natural disaster. Plaintiffs are members of the
U.S. military who assert that they were
deployed in the vicinity of Fukushima to provide
humanitarian aid to the victims of the
earthquake and tsunami, and their families.


See
https://www.iaea.org/Publications/Documents/Conventions/supc
omp_ status.pdf.
1

222a
ER 804, 816 (Second Am. Comp.).
The earthquake and tsunami ultimately led to
the meltdown of three reactors at the FukushimaDaiichi nuclear power plant, which was operated by
the private defendant. Plaintiffs allege that they
were exposed to radiation during the humanitarian
operation and, as a result, are at risk for various
radiation-related illnesses. See, e.g, ER 804, 84546 (Second Am. Compl.).
Plaintiffs filed this tort suit against the Tokyo
Electric Power Company, Inc. (TEPCO) and other
defendants in the United States District Court for
the Southern District of California. TEPCO moved
to dismiss plaintiffs’ second amended complaint on
the basis of international comity, forum non
conveniens, the political question doctrine, and a
doctrine of California law known as the
“firefighter’s rule.” The district court denied the
motion to dismiss, and this Court accepted
TEPCO’s interlocutory appeal.
Following oral argument, this Court called for
the views of the United States on the issues in this
appeal. Specifically, this Court requested the views
of the United States on the application of the
doctrine of international comity, forum non
conveniens, the political question doctrine, and the
“firefighter’s rule.”

ARGUMENT

223a
I .

The district court did not abuse its discretion
in declining to dismiss this case on the basis
of international comity.

A.
Comity is “the recognition which one
nation allows within its territory to the legislative,
executive, or judicial acts of another nation, having
due regard both to international duty and
convenience, and to the rights of its own citizens, or
of other persons who are under the protection of its
laws.” Hilton v. Guyot, 159 U.S. 113, 164 (1895).
One strand of comity is “adjudicatory comity,”
pursuant to which a U.S. court “‘as a discretionary
act of deference’” declines to exercise jurisdiction
over a case on the basis that it is more properly
decided in a foreign forum. Mujica v. AirScan Inc.,
771 F.3d 580, 599 (9th Cir. 2014), cert. denied 136 S.
Ct. 690 (2015) (quoting In re Maxwell Commc’n Corp.
ex rel. Homan, 93 F.3d 1036, 1047 (2d Cir. 1996)).

Under governing Ninth Circuit law, a court
addressing adjudicatory comity weighs “several
factors, including [1] the strength of the United
States’ interest in using a foreign forum, [2] the
strength of the foreign governments’ interests, and
[3] the adequacy of the alternative forum.” Mujica,
771 F.3d at 603 (brackets in original). This Court
has set out the following nonexclusive list of factors
relevant to ascertaining U.S. and foreign interests:
“(1) the location of the conduct in question, (2) the
nationality of the parties, (3) the character of the
conduct in question, (4) the foreign policy interests of
the United States, and (5) any public policy
interests.” Id. at 604; see also id. at 607 (indicating

224a
that “[t]he proper analysis of foreign interests
essentially mirrors the consideration of U.S.
interests”). The Executive Branch’s view of its
interests is also entitled to “serious weight” and due
deference. Id. at 610. This Court reviews the
district court’s decision for abuse of discretion. Id. at
589.2
In the view of the United States, the district
court did not abuse its discretion in declining to
dismiss this case under this test. The district court
accurately identified Mujica as a recent statement of
the governing law in this circuit and applied the
relevant factors to the facts of this case. As the
district court acknowledged, TEPCO is a Japanese
corporation and its actions took place in Japan.
Japan therefore has an interest in this litigation.
Plaintiffs are U.S. citizens, however, who have

In describing the abuse of discretion standard for review of
the denial of dismissal on international comity grounds,
Mujica states that the district court’s application of the
correct legal rule must be upheld unless the application is
“illogical,” “implausible,” or “without ‘support in inferences
that may be drawn from the facts in the record.’” 771 F.3d at
589. The United States respectfully suggests that this
articulation of the abuse of discretion standard, which was
derived from cases reviewing a district court’s factual findings
under a clearly erroneous standard, see United States v.
Hinkson, 585 F.3d 1247, 1259, 1262 (9th Cir. 2009) (en banc),
sets too high a bar for overturning a district court’s resolution
of the mixed questions of law and fact underlying a comity
determination. However, in this case, the district court did not
abuse its discretion under either articulation of the standard.
2

225a
chosen to litigate this case in a U.S. forum. This
factor weighs against dismissal.
B .
The foreign policy and public policy
interests here do not require a holding that the
district court abused its discretion. As described
above, Japan is an important ally and a valuable
partner. In addition, the United States applauds
Japan’s efforts to provide adequate and timely
compensation for claims following Fukushima, as
detailed in Japan’s amicus brief filed with this Court.
Japan Br. 2-3. Japan has informed the Court that
2.4 million claims have been resolved under its
scheme and that it has paid approximately $58
billion in compensation.3 Japan Br. 2. These factors,
however, are not a sufficient basis to conclude that
the district court abused its discretion here.

Japan’s remedial scheme differs in critical ways
from remedial schemes as to which U.S. courts have
applied principles of adjudicatory comity. Most
significantly, while the United States acknowledges
Japan’s concerns that adjudication of claims outside
its compensation scheme might undermine that
scheme, Japan does not assert that the scheme is
exclusive on its own terms. There is no provision of
Japanese law foreclosing lawsuits arising out of the

To the government’s knowledge, this compensation has been
for economic damages, and Japan has not yet had the
opportunity to decide a claim for personal injuries arising from
radiation exposure under this scheme. However, this is
apparently due to the economic nature of the harms suffered,
not to the inability of the compensation scheme to address an
injury claim if one were brought.
3

226a
Fukushima disaster to which a U.S. court is asked to
give force and effect. Cf. Bi v. Union Carbide Chems.
& Plastics Co., 984 F.2d 582, 585-86 (2d Cir. 1993)
(dismissing suit brought by Indian mass tort victims
for lack of standing where Indian law gave the
Indian government the exclusive right to represent
victims of the disaster and the Indian government
had agreed to a global settlement). Additionally, the
United States was not involved in the creation of
Japan’s compensation system and is not party to any
bilateral or multilateral agreement recognizing or
seeking recognition for Japan’s compensation
system as an exclusive remedy. Cf. Ungaro-Benages
v. Dresdner Bank AG, 379 F.3d 1227, 1231, 1239
(11th Cir. 2004) (dismissing on comity grounds
where “the United States agreed to encourage its
courts and state governments to respect the
Foundation as the exclusive forum for claims from
the National Socialist era” and “consistently
supported the Foundation as the exclusive forum”).
The United States has no clear independent
interest in Japan’s compensation scheme beyond our
general support for Japan’s efforts to address the
aftermath of Fukushima. Under
these
circumstances, the district court could have
reasonably determined that the interest in providing
U.S. service members a U.S. forum for their claims
was not outweighed by the interest in having the
Japanese system address all claims arising out of
the Fukushima nuclear accident.
C .
The Convention on Supplementary
Compensation for Nuclear Damage does not evince a

227a
public policy of the United States or Japan that
would render the district court’s comity ruling an
abuse of discretion. On the contrary, the district
court’s decision in this case is consistent with U.S.
interests in promoting the Convention.
The Convention entered into force after the
Fukushima nuclear accident, so it does not apply to
this case on its own terms. 4 As a general rule,
“[u]nless a different intention appears from the
treaty or is otherwise established, its provisions do
not bind a party in relation to any act or fact which
took place or any situation which ceased to exist
before the date of the entry into force of the treaty
with respect to that party.” Vienna Convention on
the Law of Treaties, 1155 U.N.T.S. 331, 339, art. 28
(May 23, 1969);5 Ehrlich v. Am. Airlines, Inc., 360
F.3d 366, 373 (2d Cir. 2004) (“Ordinarily, a
particular treaty does not govern conduct that took
place before the treaty entered into force.”). Some
commentators have suggested that jurisdictional
provisions may sometimes be interpreted as applying
to disputes that arose before the entry into force of
the treaty on the theory that, “by using the word
‘disputes’ without any qualification, the parties are

The district court correctly concluded that the Convention does
not apply to this case, although its holding seems to have been
based at least in part on the erroneous understanding that the
Convention was not in force at the time of its order, rather than
at the time of the incident. ER 47.
4

While the United States is not a party to the Vienna
Convention on the Law of Treaties, it recognizes Article 28 as
reflective of customary international law.
5

228a
to be understood as accepting jurisdiction with
respect to all disputes existing after the entry into
force of the agreement.” Draft Articles on the Law of
Treaties, with commentaries, Yearbook of the Int’l
Law Comm’n, 1966, Vol. II, at 212. However, under
this theory, “when a jurisdictional clause is attached
to the substantive clauses of a treaty as a means of
securing their due application, the non-retroactivity
principle may operate to limit ratione temporis the
application of the jurisdictional clause.” Id.
Rather than using the general term “disputes,”
the Convention’s jurisdictional channeling is limited
to “actions concerning nuclear damage from a
nuclear incident” and provides that jurisdiction
“shall lie only with the courts of the Contracting
Party within which the nuclear incident occurs.”
Convention art. XIII(1). So even under this theory,
the Convention’s jurisdictional provisions would not
be interpreted to apply retroactively. Both “nuclear
damage” and “nuclear incident” are defined terms
under the Convention, brought into existence only
upon the Convention’s entry into force. Additionally,
the verb “occurs” is in the present tense, not the past
tense as would be expected if the treaty applied
retroactively. Id.
Moreover,
retroactive
application
would
significantly undermine the liability regime
established by the Convention. For U.S. interests in
the Convention to be fulfilled, it is essential that the
treaty regime be widely adhered to internationally.
The Convention creates a compensation regime
whereby, if an incident occurs for which the baseline

229a
compensation is not sufficient, States Parties must
pay into a supplementary compensation fund. See
Convention art. III, IV. If a State were allowed to
receive the benefit of the exclusive jurisdiction
provisions and perhaps even access to the
supplementary compensation fund by becoming a
party to the treaty after a nuclear incident has
taken place in its territory, there would be no need
for any State to join the Convention prior to such an
incident occurring. States would likely wait to join
the Convention to avoid having to pay into the fund
for an incident in the territory of another State Party.
Additionally, if States Parties to the treaty were
required to contribute to a supplementary
compensation fund for incidents that predate the
Convention’s entry into force, the cost would be a
significant disincentive to nations considering
ratification.
As indicated above, the policies underlying the
Convention do not require dismissal in a case to
which the Convention does not apply. The
Convention regime promotes U.S. interests both in
providing prompt and adequate compensation to
victims of nuclear incidents and in simultaneously
protecting U.S. nuclear suppliers from potentially
unlimited liability arising from their activities in
foreign markets. See S. Exec. Rep. No. 109-15, at 2,
8. The treaty provisions work together to create an
interlocking “system.” Convention art. II(2). The
regime must be viewed in its entirety, with the
exclusive jurisdiction provision forming part of a
bargain in exchange for robust and more likely
compensation for victims of a potential incident.

230a
Holding that international comity requires dismissal
of suits brought in the United States by U.S. citizens
for injuries from nuclear incidents abroad would
effectively provide for exclusive jurisdiction without
the other components of the treaty. United States
policy does not call for advancing one element of this
system in isolation of the other.
In arguing that U.S. policy requires dismissal,
TEPCO mistakenly relies on testimony by the State
Department’s then-Senior Coordinator for Nuclear
Safety, Warren Stern, during 2005 Senate hearings
on the Convention. In response to a question from
the Chairman of the Senate Foreign Relations
Committee
regarding
whether
joining
the
Convention would “in effect limit the right of U.S.
persons to bring suit against entities or companies
in the United States courts or against U.S.
companies for accidents overseas,” Mr. Stern
responded in the affirmative, but also noted: “As a
practical matter, in today’s legal framework, where
there is no [Convention], we would expect that if a
nuclear incident occurs overseas U.S. courts would
assert jurisdiction over a claim only if they concluded
that no adequate remedy exists in the court of the
country where the accident occurred.” 2005 Hearing
at 27. This was a factual, predictive statement (“as a
practical matter”), not an expression of U.S. policy.
Certainly, a district court could choose to dismiss a
case based on international comity for a claim
arising overseas. But it is not required to do so, and,
as explained above, limiting this existing flexibility
to hear claims outside the courts of the country
where the accident occurred was one of the functions

231a
of the treaty. Mr. Stern made this clear in his
testimony, explaining that “[o]nce the United States
and the state whose nationals are involved are both
Parties to the [Convention], liability exposure will be
channeled to
the operator in the ‘installation
state,’ thus substantially limiting the nuclear
liability risk of United States suppliers.” Id. at 19.
Plaintiffs in this case are U.S. servicemembers
who have chosen to file claims in U.S. court. The
United States has no specific foreign policy interest
necessitating dismissal in this particular case.
Under these circumstances, while this Court should
give due regard to Japan’s brief, the United States
does not believe the district court abused its
discretion in refraining from denying these plaintiffs
access to U.S. courts in favor of a Japanese forum.
II.

The district court did not abuse its discretion
in declining to dismiss this case on the basis
of forum non conveniens.

Under the doctrine of forum non conveniens, a
“district court has discretion to decline to exercise
jurisdiction in a case where litigation in a foreign
forum would be more convenient for the parties.”
Lueck v. Sundstrand Corp., 236 F.3d 1137, 1142
(9th Cir. 2001). Courts consider the following
private interest factors: “(1) the residence of the
parties and the witnesses; (2) the forum’s
convenience to the litigants; (3) access to physical
evidence and other sources of proof; (4) whether
unwilling witnesses can be compelled to testify; (5)
the cost of bringing witnesses to trial; (6) the
enforceability of the judgment; and (7) all other

232a
practical problems that make trial of a case easy,
expeditious and inexpensive.” Id. at 1145. The
relevant public interest factors are “(1) local
interest of lawsuit; (2) the court’s familiarity with
governing law; (3) burden on local courts and juries;
(4) congestion in the court; and (5) the costs of
resolving a dispute unrelated to this forum.” Id. at
1147. This Court has explained that “[w]hen a
domestic plaintiff initiates litigation in its home
forum, it is presumptively convenient.” Carijano v.
Occidental Petroleum Corp., 643 F.3d 1216, 1227
(9th Cir. 2011).
The party moving for dismissal has the burden
of demonstrating that dismissal is warranted.
Creative Tech., Ltd. v. Aztech Sys. Pte., Ltd., 61
F.3d 696, 699 (9th Cir. 1995). The district court’s
decision is reviewed for abuse of discretion. Lueck,
236 F.3d at 1143.
Although “[t]he presence of American
plaintiffs . . . is not in and of itself sufficient to bar
a district court from dismissing a case on the
ground of forum non conveniens,” “a showing of
convenience by a party who has sued in his home
forum will usually outweigh the inconvenience the
defendant may have shown.” Contact Lumber Co. v.
P.T. Moges Shipping Co., 918 F.2d 1446, 1449 (9th
Cir. 1990). This Court has upheld district court
decisions dismissing cases on the basis of forum
non conveniens that were brought by U.S. citizens
against foreign defendants regarding conduct that
occurred abroad. See, e.g., Loya v. Starwood
Hotels & Resorts Worldwide, Inc., 583 F.3d 656,

233a
665–66 (9th Cir. 2009); Gutierrez v. Advanced Med.
Optics, Inc., 640 F.3d 1025, 1028, 1032 (9th Cir.
2011). However, a defendant seeking to reverse
the denial of a motion to dismiss on this basis faces
a “doubly difficult task,” given the standard of
review on appeal. See Tuazon v. R.J. Reynolds
Tobacco Co., 433 F.3d 1163, 1177 (9th Cir. 2006).
The district court did not abuse its discretion
here. As the district court explained, relevant
evidence is likely present in both countries, and both
parties would incur additional costs and be
inconvenienced by litigating in the other country.
ER 35-40. The district court recognized Japan’s
interest in adjudicating the lawsuit, ER 41, and the
United States sees no basis for concluding that the
district court abused its discretion in determining
that the balance of factors nevertheless weighed
against dismissal.
TEPCO asserts that a plaintiff’s choice of its
home forum is irrelevant where a plaintiff would
not be required to travel in person to litigate the
case abroad. Reply Br. 16. This is incorrect.
Plaintiffs may prefer to testify in person, even if
this is not legally required, and may wish to do so in
front of a tribunal that will hear their testimony in
untranslated form. In any event, litigating in
plaintiffs’ home forum may be more convenient for
many reasons, of which travel is only one. The
many costs and hurdles inherent in litigating in a
foreign legal system are relevant to the forum non
conveniens analysis. See Lueck, 236 F.3d at 1145
(instructing courts to consider “practical problems

234a
that make trial of a case easy, expeditious and
inexpensive”). TEPCO erroneously relies on cases
addressing whether use of an alternative forum is
unreasonable
or
inadequate,
not
merely
inconvenient. See, e.g., Argueta v. Banco Mexicano,
S.A., 87 F.3d 320, 325 (9th Cir. 1996) (addressing
enforceability of forum selection clauses in contracts,
which are presumed to be valid unless unreasonable
under the circumstances); Mujica, 771 F.3d at 614
(holding that noncitizen plaintiffs had not made the
required “powerful showing” that the alternative
forum is “clearly unsatisfactory” for purposes of
comity).
As the United States discusses in greater detail
below, the district court did err in simply assuming
that U.S. law would apply to this suit, without
conducting a choice-of-law analysis. ER 42.
However, this error does not require reversal of the
forum non conveniens ruling. While this Court has
stated that a choice-of-law analysis must precede a
decision on forum non conveniens, it did so in the
context of cases in which a potentially applicable
rule of law mandated venue in U.S. courts. See
Creative Tech., 61 F.3d at 700. The United States
is not aware of any such statute that could apply in
this case. Where no such venue provision is at issue,
“the applicability of United States law to the
various causes of action ‘should ordinarily not be
given conclusive or even substantive weight.’”

235a

Lueck, 236 F.3d at 1148 (quoting Piper Aircraft Co.
v. Reyno, 454 U.S. 235, 247 (1981)).6
III.

This Court should refrain from addressing
the political question doctrine at this
preliminary stage without the benefit of a
choice- of-law analysis.

The Court also invited the United States to
express its views on the application of the political
question doctrine to the claims in this case. The
United States notes that, to the extent ruling on a
plaintiff’s claims would require a judicial inquiry
into the reasonableness of military commanders’
decisions regarding deployment of U.S. troops,
which involves balancing the risks of a deployment
decision against the benefits of mission objectives,
those claims would be nonjusticiable under the
political question doctrine. “The complex, subtle,
and professional decisions as to the composition,
training, equipping, and control of a military force
are essentially professional military judgments.”
Gilligan v. Morgan, 413 U.S. 1, 10 (1973). Decisions
regarding where to locate troops in dangerous and
unfolding situations, involving a weighing of the
risk to troops against mission objectives, are
exactly the type of “complex, subtle, and
professional decisions within the military’s
professional
judgment
and
beyond
courts’
competence.” Harris v. Kellogg Brown & Root

Indeed, should this case be decided under Japanese law, the
application of Japan’s strict-liability regime may reduce the
need for evidence located in Japan regarding the maintenance
of the power plant.

6

236a

Servs., Inc., 724 F.3d 458, 478 (3d Cir. 2013); see
also Wu Tien Li-Shou v. United States, 777 F.3d
175, 180- 81 (4th Cir. 2015); Saldana v. Occidental
Petroleum Corp., 774 F.3d 544, 553 (9th Cir. 2014);
El-Shifa Pharm. Indus. Co. v. United States, 607
F.3d 836, 843-44 (D.C. Cir. 2010) (en banc); Aktepe
v. United States, 105 F.3d 1400, 1404 (11th Cir.
1997).
At this early stage of the litigation, however, it
is premature to decide whether the political
question doctrine applies prior to conducting a
choice-of-law analysis. The United States
accordingly takes no position now on the doctrine’s
application to the claims in this case.7
This Court has explained that, “[a]lthough the
political question doctrine often lurks in the
shadows of cases involving foreign relations,” such
cases are often resolved on other legal grounds.
Alperin v. Vatican Bank, 410 F.3d 532, 538 (9th Cir.
2005). “[I]t is a well-established principle
governing the prudent exercise of this Court’s
jurisdiction that normally the Court will not decide
a constitutional question if there is some other
ground upon which to dispose of the case.”
Northwest Austin Mun. Util. Dist. No. One v.
Holder, 557 U.S. 193, 205 (2009) (quoting Escambia
Cty. v. McMillan, 466 U.S. 48, 51 (1984) (per

Depending on how these proceedings develop, the
government may express further views on the applicability of
the political question doctrine to the claims in this case.
7

237a
curiam)). Although this Court treats the political
question doctrine as a jurisdictional bar, Corrie v.
Caterpillar, Inc., 503 F.3d 974, 979 (9th Cir. 2007),
it can wait for the issues in the litigation to be
developed prior to dismissing on that basis, New
York v. United States, 505 U.S. 144, 185 (1992);
Wong v. Ilchert, 998 F.2d 661, 662-63 (9th Cir.
1993).
In order to assess the political question
argument in this case, the Court must understand
the elements of the cause of action and relevant
defenses under the applicable law. TEPCO asserts
that it has a defense based on the U.S. military’s
supposed recklessness in exposing its troops to
radiation, which TEPCO argues is a superseding
cause absolving it of liability. TEPCO makes this
argument under California law. However, the
parties have not yet briefed choice of law and the
district court did not address it. Given that the
relevant conduct that gave rise to plaintiffs’ claims
occurred in Japan, there is at least a possibility that
Japanese law will apply to this case. See Downing
v. Abercrombie & Fitch, 265 F.3d 994, 1005 (9th Cir.
2001) (explaining standard for choice of law
determinations for cases filed in California). At a
minimum, the district court would have to consider
the potential bodies of law that apply, whether
California’s or Japan’s; to determine whether there
is a true conflict between those two bodies of law; to
resolve any conflict by considering each state’s
interests in having its law applied; and, finally, to
“apply the law of the state whose interest would be
more impaired if its law were not applied.” Id.

238a
Without knowing whether California law will
apply or whether a superseding-cause defense exists
under Japanese law, it is premature to decide
whether this case is nonjusticiable under the
political question doctrine. Even if the supersedingcause defense were applicable, as the district court
explained, at this early stage of the litigation it is
far from clear whether the court would actually be
called upon to evaluate the wisdom of military
decision making. It is also unclear at this stage
whether a need to review military decisions to
adjudicate any superseding-cause defense would
require dismissal, or whether the military’s
decisions simply could not qualify as a superseding
cause. See Harris, 724 F.3d at 469 n.9. To the
extent that the superseding-cause defense under
governing law requires that the intervening actions
be unforeseeable, the court may determine that it
was foreseeable that rescue workers, including the
U.S. military, would respond to this disaster even if
some risk were involved. 8 See, e.g., USAir Inc. v.

Determining whether there was an unforeseeable intervening
action could also require a court to resolve an apparent
dispute regarding the distance of the U.S.S. Ronald Reagan,
the vessel on which the troops were deployed, from the
Fukushima plant. Plaintiffs assert that at some point the
U.S.S. Ronald Reagan was positioned just two miles from the
Fukushima plant. ER 357 (Third Am. Compl.); ER 833
(Second Am. Compl.). Significantly, however, the Department
of Defense, in conjunction with the National Council on
Radiation Protection and Measurements, conducted an official
investigation into the Fukushima disaster and the deployment
to support Operation Tomodachi and determined that the
vessel was never closer than 100 miles to the site of the
8

239a

U.S. Dep’t of Navy, 14 F.3d 1410, 1413 (9th Cir.
1994) (“A superseding cause must be something
more than a subsequent act in a chain of causation;
it must be an act that was not reasonably
foreseeable at the time of the defendant’s negligent
conduct.”) (applying California tort law).
IV.

The Court should not reach the “firefighter’s
rule” absent a choice-of-law analysis.

For reasons similar to those expressed in the
prior section, in the view of the United States it is
premature to determine whether this case should be
dismissed based on the firefighter’s doctrine. The
firefighter’s rule is a doctrine under California tort
law. See, e.g., Lipson v. Superior Court, 644 P.2d
822, 826-27 (Cal. 1982). Without knowing the
applicable body of law that governs this dispute,
there is no way to determine whether a California
state-law defense would be even potentially
available. The United States urges the Court not to
rule on the scope of the firefighter’s rule before the
choice-of-law analysis is completed, particularly as
doing so could require an expansion of the doctrine
and could have unforeseen repercussions for U.S.
troops.
CONCLUSION


nuclear plant. See Dep’t of Def., Final Report to the
Congressional Defense Committees in Response to the Joint
Explanatory Statement Accompanying the Department of
Defense Appropriations Act, 2014, page 90, “Radiation
Exposure,” at B-1 (June 19, 2014), www.health.mil/ReferenceCenter/Reports/2014/06/19/Radiation-Exposure- Report.

240a
For the foregoing reasons, the judgment of the
district court should be affirmed.
Respectfully submitted,
BENJAMIN C. MIZER

Principal Deputy Assistant Attorney General
LAURA E. DUFFY

United States Attorney
DOUGLAS N. LETTER

Director
BRIAN J. EGAN

Legal Adviser Department of State 2201 C
St. NW
Washington, DC 20520
JENNIFER M. O’CONNOR

General Counsel Department of Defense
1600 Defense Pentagon
Washington, DC 20301

241a
SHARON SWINGLE

s/ Dana Kaersvang
DANA KAERSVANG

Attorneys, Appellate
Division, Room 7216

Staff

Civil

U.S. Department of Justice 950
Pennsylvania Avenue NW Washington,
D.C. 20530 (202) 307-1294
Dana.L.Kaersvang@usdoj.gov
December 2016

